No. _______
In The

Supreme Court of the United States
-------------------------- ♦ ---------------------------

VOIP-PAL.COM, INC.,
Petitioner,
v.

APPLE, INC.; AMAZON.COM, INC.;
AMAZON TECHNOLOGIES, INC.,
Respondents.
-------------------------- ♦ --------------------------

ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
-------------------------- ♦ --------------------------

PETITION FOR WRIT OF CERTIORARI
-------------------------- ♦ --------------------------

Lewis E. Hudnell, III
Counsel of Record
HUDNELL LAW GROUP P.C.
800 West El Camino Real, Suite 180
Mountain View, California 94040
(650) 564-7720
lewis@hudnelllaw.com
Counsel for Petitioner

Dated: June 25, 2021

THE LEX GROUPDC i 1050 Connecticut Avenue, N.W. i Suite 500, #5190 i Washington, D.C. 20036
(202) 955-0001 i (800) 856-4419 i www.thelexgroup.com

i
QUESTIONS PRESENTED
In Mayo Collaborative Servs. v. Prometheus
Labs., Inc., 566 U.S. 66 (2012), this Court warned that
shifting the patent-eligibility inquiry under 35 U.S.C.
§101 to later sections of the Patent Act (35 U.S.C.
§§102, 103, and 112) risks creating significant legal
uncertainty. Despite this warning, lower courts have
allowed §101 jurisprudence to drift far from its
statutory mooring and subsume the inquiries
prescribed by these later sections. This disregard for
Congress’s carefully crafted framework has created
legal chaos, destabilized the U.S. patent system, and
disincentivized U.S. innovation. The district court
opinion in this case invalidating the claims of four
patents represents an egregious example of the
failure to heed this Court’s warning.
The questions presented are:
1. What is the appropriate standard for
determining whether a patent claim is
“directed to” a patent-ineligible concept under
step one of the Court’s two-step framework for
determining whether an invention is eligible
for patenting under 35 U.S.C. §101?
2. Is patent eligibility (at each step of the Court’s
two-step framework) a question of law for the
court based on the scope of the claims or a
question of fact for the jury based on the state
of art at the time of the patent?
3. Is it improper to apply 35 U.S.C. §112
considerations to determine whether a patent
claims eligible subject matter under 35 U.S.C.
§101?

ii
CORPORATE DISCLOSURE STATEMENT
Petitioner VoIP-Pal.com, Inc. has no parent
corporation, and no publicly held company owns 10
percent or more of its stock.

iii
RELATED PROCEEDINGS
The following proceedings are directly related
to this case within the meaning of Rule 14.1(b)(iii):
x

VoIP-Pal.com, Inc. v. Apple, Inc., Case No.
5:18-cv-06216-LHK, (N.D. Cal.), judgment
entered November 1, 2019;

x

VoIP-Pal.com, Inc. v. Amazon.com, Inc. et
al., Case No. 5:18-cv-7020-LHK, (N.D. Cal.),
judgment entered November 1, 2019;

x

VoIP-Pal.com, Inc. v. Apple, Inc., Case No.
20-1241, (Fed. Cir.), judgment entered
November 3, 2020; and

x

VoIP-Pal.com, Inc. v. Amazon.com, Inc. et
al., Case No. 20-1244, (Fed. Cir.), judgment
entered November 3, 2020.

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ........................................ i
CORPORATE DISCLOSURE STATEMENT ............ ii
RELATED PROCEEDINGS .....................................iii
TABLE OF CONTENTS ............................................ iv
TABLE OF AUTHORITIES ..................................... vii
TABLE OF ABBREVIATIONS ............................... xiii
OPINIONS BELOW ................................................... 1
JURISDICTION ......................................................... 1
RELEVANT STATUTORY PROVISIONS ................ 1
PRELIMINARY STATEMENT .................................. 2
STATEMENT OF THE CASE ................................... 5
A.

SECTION 101 AND THE COURT’S
ELIGIBILITY FRAMEWORK ................... 5

B.

FACTUAL AND PROCEDURAL
HISTORY .................................................... 7

C.

OVERVIEW OF THE PATENTS-INSUIT .......................................................... 10

D.

BACKGROUND OF THE
TECHNOLOGY ........................................ 11

E.

THE PATENTEE AND ITS
INNOVATIONS ........................................ 12

v
F.

THE CLAIMED INVENTIONS ............... 13

REASONS FOR GRANTING THE PETITION ....... 14
I.

A MERITS DECISION IN
AMERICAN AXLE WILL IMPACT
THE PROPER DISPOSITION OF
THIS CASE ............................................... 14

II.

THE DISTRICT COURT
IMPROPERLY CONFLATED THE
§101 ELIGIBILITY INQUIRY WITH
THE §112 INQUIRY................................. 17

III.

A.

Section 101 Eligibility And
The Requirements Of §112
Are Distinct .................................... 17

B.

Substituting The §101 Inquiry
For The §112 Inquiry Creates
Uncertainty In Patent Law ........... 19

C.

The District Court Improperly
Applied §112 Considerations
To Invalidate The Asserted
Claims Under The Guise Of
§101 ................................................ 22

D.

Substituting §101 For §112
Eviscerates The Knowledge
Of A Person Of Ordinary Skill
In The Art ....................................... 29

THIS CASE PRESENTS AN ISSUE
OF GREAT IMPORTANCE AND IS
AN EXCELLENT VEHICLE FOR
REVIEW .................................................... 32

vi
IV.

CONCLUSION ......................................... 38

APPENDIX:
Nonprecedential Opinion of
The United States Court of Appeals
For the Federal Circuit
entered November 3, 2020 ....................... 1a
Order of
The United States District Court
For the Northern District of California
Re: Granting Motion to Dismiss
entered November 1, 2019 ....................... 3a
Judgment of
The United States District Court
For the Northern District of California
No. 18-CV-06216-LHK
entered November 1, 2019 ................... 103a
Judgment of
The United States District Court
For the Northern District of California
No. 18-CV-07020-LHK
entered November 1, 2019 ................... 104a
Order of
The United States Court of Appeals
For the Federal Circuit
Re: Denying Petition for Panel Rehearing and
Rehearing En Banc
entered January 26, 2021..................... 105a

vii
TABLE OF AUTHORITIES
Page(s)
CASES
Alice Corp. Pty. Ltd. v. CLS Bank Int’l,
573 U.S. 208 (2014) ................................ passim
Am. Axle & Mfg. v. Neapco Holdings LLC,
966 F.3d 1347 (Fed. Cir. 2020) .............. passim
Am. Axle & Mfg. v. Neapco Holdings LLC,
967 F.3d 1285 (Fed. Cir. 2020) .............. passim
Am. Axle & Mfg. v. Neapco Holdings LLC,
977 F.3d 1379 (Fed. Cir. 2020) .............. passim
Am. Axle & Mfg. v. Neapco Holdings, LLC,
(No. 20-891) ............................................ passim
Amdocs (Isr.) Ltd. v. Openet Telecom, Inc.,
841 F.3d 1288 (Fed. Cir. 2016) ................ 18, 27
Apple, Inc. v. VoIP-Pal.com, Inc.,
IPR2019-01003, -01006, -01008, -01009
(P.T.A.B.) .................................................. 13, 14
Ariosa Diagnostics, Inc. v. Sequenom, Inc.,
809 F.3d 1282 (Fed. Cir. 2015) ...................... 21
Atmel Corp. v. Info. Storage Devices, Inc.,
198 F.3d 1374 (Fed. Cir. 1999) ...................... 31
Avocent Huntsville, LLC v. ZPE Sys.,
No. 3:17-cv-04319-WHO,
2018 U.S. Dist. LEXIS 47655
(N.D. Cal. Mar. 21, 2018) ............................... 34

viii
BASCOM Global Internet Servs. v.
AT&T Mobility LLC,
827 F.3d 1341 (Fed. Cir. 2016) ................ 19, 21
Béné v. Jeantet,
129 U.S. 683 (1889) ........................................ 33
Bilski v. Kappos,
561 U.S. 593 (2010) ................................ passim
DealerTrack, Inc. v. Huber,
674 F.3d 1315 (Fed. Cir. 2012) ........................ 6
Diamond v. Chakrabarty,
447 U.S. 303 (1980) .......................................... 5
Diamond v. Diehr,
450 U.S. 175 (1981) .............................. 5, 18, 36
Falko-Gunter Falkner v. Inglis,
448 F.3d 1357 (Fed. Cir. 2006) ...................... 31
Gen. Elec. Co. v. Wabash Appliance Corp.,
304 U.S. 364 (1938) ........................................ 33
Halliburton Oil Well Cementing Co. v. Walker,
329 U.S. 1 (1946) ............................................ 33
Henry Schein, Inc. v. Archer & White, Inc.,
139 S. Ct. 524 (2019) ...................................... 35
Holland Furniture Co. v. Perkins Glue Co.,
277 U.S. 245 (1928) ........................................ 33
Hybritech Inc. v. Monoclonal Antibodies, Inc.,
802 F.2d 1367 (Fed. Cir. 1986) ...................... 30
Innovation Scis., LLC v. Amazon.com, Inc.,
842 F. App’x. 555 (Fed. Cir. Jan. 5, 2021) ..... 37

ix
Koninklijke KPN N.V. v. Gemalto M2M GmbH,
942 F.3d 1143 (Fed. Cir. 2019) ...................... 28
Lopez v. Smith,
203 F.3d 1122 (9th Cir. 2000) ................... 29-30
Mayo Collaborative Servs. v. Prometheus Labs., Inc.,
566 U.S. 66 (2012) .................................. passim
MySpace, Inc. v. Graphon Corp.,
672 F.3d 1250 (Fed. Cir. 2012) ...................... 20
Nautilus, Inc. v. Biosig Instruments, Inc.,
572 U.S. 898 (2014) ........................................ 33
O’Reilly v. Morse,
56 U.S. 62 (1854) ............................................ 23
Oil States Energy Sers., LLC v.
Greene’s Energy Grp., LLC,
No. 16-712, 2017 U.S. LEXIS 3727
(U.S. June 12, 2017) ................................... 4, 37
Parker v. Flook,
437 U.S. 584 (1978) ........................................ 20
Phil-Insul Corp. v. Airlite Plastics Co.,
854 F.3d 1344 (Fed. Cir. 2017) ...................... 38
Prompt Med. Sys., L.P. v.
Allscripts Healthcare Solutions, Inc.,
No. 6:10-cv-71,
2012 U.S. Dist. LEXIS 30694
(E.D. Tex. Feb. 13, 2012) ............................... 34
Research Corp. Techs. v. Microsoft Corp.,
627 F.3d 859 (Fed. Cir. 2010) .................... 6, 20

x
Spectra-Physics, Inc. v. Coherent, Inc.,
827 F.2d 1524 (Fed. Cir. 1987) ...................... 31
Stormborn Techs., LLC v. Topcon Positioning Sys.,
444 F. Supp. 3d 1119 (N.D. Cal. 2020) .......... 34
Treehouse Avatar LLC v. Valve Corp.,
170 F. Supp. 3d 706 (D. Del. 2016) .......... 28, 34
U.S. v. Dubilier Condenser Corp.,
289 U.S. 178 (1933) ........................................ 35
Ultramercial, Inc. v. Hulu, LLC,
722 F.3d 1335 (Fed. Cir. 2013),
vacated on other grounds,
573 U.S. 942 (2014) .............................. 6, 23, 36
United Carbon Co. v. Binney & Smith Co.,
317 U.S. 228 (1942) ........................................ 33
Visual Memory LLC v. NVIDIA Corp.,
867 F.3d 1253 (Fed. Cir. 2017) .......... 24, 30, 33
VoIP-Pal.com, Inc. v. Apple Inc.,
411 F. Supp. 3d 926 (N.D. Cal. 2019) .............. 1
VoIP-Pal.com, Inc. v. Apple, Inc.,
828 F. App’x. 717 (Fed. Cir. Nov. 3, 2020) ...... 1
Yanbin Yu v. Apple Inc.,
No. 2020-1760,
2021 U.S. App. LEXIS 17434
(Fed. Cir. June 11, 2021) ................... 19, 35, 36
STATUTES
28 U.S.C. §1254(1) ...................................................... 1
35 U.S.C. §101................................................... passim

xi
35 U.S.C. §102............................................ i, 18, 20, 36
35 U.S.C. §103................................................... passim
35 U.S.C. §112................................................... passim
35 U.S.C. §112(a) ........................................................ 2
RULES
Fed. Cir. R. 36 ....................................................... 1, 38
Fed. R. Civ. P. 12 ................................................ 29, 31
Fed. R. Civ. P. 12(b)(6).................................... 7, 16, 32
Fed. R. Civ. P. 12(c) .................................................. 32
Sup. Ct. R. 14.1(b)(iii) ................................................iii
OTHER AUTHORITIES
AIPLA Legislative Report and Proposal on
Patent Eligible Subject Matter (May 12, 2017),
https://www.aipla.org/docs/defaultsource/advocacy/aipla-legislative-proposal--patent-eligible-subjectmatter.pdf?sfvrsn=7e208efe_2 (last visited
June 25, 2021) ........................................................... 35
Eugene Gressman, et al.,
Supreme Court Practice 4.11 (9th ed. 2007) ............. 37
H.R. Rep. No. 1923, 82d Cong., 2d Sess. (1952) .. 5, 17
J. Cole & E. Bucklo, A Life Well Lived: An
Interview with Justice John Paul Stevens,
32 Litigation 8 (Spring 2006) ................................... 37

xii
Mark A. Lemley, et al., Life After Bilski,
63 Stan. L. Rev. 1315 (2011) .................................... 29
Raymond A. Mercado, Resolving Patent
Eligibility and Indefiniteness in Proper
Context: Applying Alice and Aristocrat,
20 Va. J.L. & Tech. 240 (2016) ................................. 31
S. Rep. No. 1979, 82d Cong., 2d Sess. (1952)....... 5, 18
Timothy R. Holbrook & Mark D. Janis,
Patent-Eligible Processes: An Audience Perspective,
17 Vand. J. Ent. & Tech. L. Rev. 349 (2015) ........... 32

xiii
TABLE OF ABBREVIATIONS
ABBREVIATION

TERM

VoIP-Pal

Plaintiff-Petitioner VoIPPal.com, Inc.

Apple

Defendant-Respondent
Apple, Inc.

Amazon

Defendants-Respondents
Amazon.com, Inc. and
Amazon Technologies, Inc.

Respondents

Apple and Amazon

The ’762 patent

U.S. Patent No. 9,537,762

The ’330 patent

U.S. Patent No. 9,813,330

The ’002 patent

U.S. Patent No. 9,826,002

The ’549 patent

U.S. Patent No. 9,948,549

The patents-in-suit

The ’762 patent, the ’330
patent, the ’002 patent, and
the ’549 patent

The asserted claims

Claims 6, 16, 21, 26, and 30
of the ’762 patent; claims 3,
4, 12, and 14 of the ’330
patent; claims 1, 12, 22, 26,
and 29 of the ’002 patent;
and claims 2, 6, 9, 12, 17,
and 24 of the ’549 patent

FAC

First Amended Complaint

xiv
PTAB

Patent Trial and Appeal
Board

POSITA

Person of Ordinary Skill in
the Art

American Intellectual AIPLA
Property Law
Association

1
OPINIONS BELOW
The United States Court of Appeals for the
Federal Circuit’s order denying VoIP-Pal’s combined
petition for panel rehearing and en banc rehearing is
unreported. App. 105a-107a. The Federal Circuit
panel opinion is unreported but available at VoIPPal.com, Inc. v. Apple, Inc., 828 F. App’x. 717 (Fed.
Cir. Nov. 3, 2020). App. 1a-2a. The panel opinion
affirmed without opinion, under Federal Circuit Rule
36, a decision issued by the United States District
Court for the Northern District of California, which is
reported at VoIP-Pal.com, Inc. v. Apple Inc., 411 F.
Supp. 3d 926 (N.D. Cal. 2019). App. 3a-102a.
JURISDICTION
The Federal Circuit issued its order denying
VoIP-Pal’s combined petition for panel rehearing and
en banc rehearing on January 26, 2021. On March 19,
2020, the Court extended the time to file a petition for
a writ of certiorari to 150 days from the date of the
lower-court judgment, order denying discretionary
review, or order denying a timely petition for
rehearing. That order extended the deadline for filing
this Petition to June 25, 2021.
This Court’s
jurisdiction is timely invoked under 28 U.S.C.
§1254(1).
RELEVANT STATUTORY PROVISIONS
Section 101 of Title 35 of the U.S. Code
provides: “Whoever invents or discovers any new and
useful process, machine, manufacture, or composition
of matter, or any new and useful improvement
thereof, may obtain a patent therefor, subject to the
conditions and requirements of this title.”

2
Section 112(a) of Title 35 of the U.S. Code
provides: “The specification shall contain a written
description of the invention, and of the manner and
process of making and using it, in such full, clear,
concise, and exact terms as to enable any person
skilled in the art to which it pertains, or with which it
is most nearly connected, to make and use the same,
and shall set forth the best mode contemplated by the
inventor or joint inventor of carrying out the
invention.”
PRELIMINARY STATEMENT
The Court should grant this Petition because
this case presents an egregious misapplication of the
Patent Act’s statutory framework. Under the guise of
§101 eligibility, the district court improperly wielded
§112 patentability considerations to strike down 20
claims of four VoIP-Pal patents. The district court
sua sponte alleged at least 32 instances where the
patents-in-suit failed to recite how the claimed
invention achieved the desired result assuming that
all of those failures implicated only §101 and not §112.
But such how considerations have traditionally been
the domain of §112, with a long and well-developed
jurisprudence. Here, in actuality, the district court
repeatedly injected §112 issues into its §101 inquiry
despite the fact that §112 was not at issue in the case.
In particular, the district court raised how issues at
both steps of this Court’s two-step framework for
determining patent eligibility under §101 even
though this Court has never held that either step
includes a how requirement. Simply put, the district
court’s ineligibility analysis far exceeded whatever
permissible overlap exists between the §101 and §112
inquiries.

3
In this way, the district court’s opinion
squarely raised issues that overlap with those
pending before the Court in Am. Axle & Mfg. v.
Neapco Holdings LLC (No. 20-891). Chief Judge
Moore, who was on the panel in both American Axle
and in this case, has called this area of the law
“inconsistent and chaotic” and has declared that the
Federal Circuit is “bitterly divided.” See Am. Axle &
Mfg. v. Neapco Holdings LLC, 977 F.3d 1379, 1382
(Fed. Cir. 2020) (Moore, J., concurring). Indeed,
Judge Moore sharply criticized the American Axle
majority for “imbu[ing] §101 with a new
superpower—enablement on steroids.” See Am. Axle
& Mfg. v. Neapco Holdings LLC, 967 F.3d 1285, 1305
(Fed. Cir. 2020) (Moore, J., dissenting). Enablement,
which is a requirement under §112 and not §101, is
exactly the superpower that the district court
exercised to find VoIP-Pal’s claims ineligible under
§101, even more blatantly than in American Axle. The
district court repeatedly faulted the specification of
the patents-in-suit for failing to provide sufficient
support for how the claims achieved their desired
results without offering VoIP-Pal a fair opportunity to
present the underlying facts required for a proper
§112 enablement analysis. Indeed, the district court
so suffused its §101 eligibility analysis with §112
considerations that it utterly eliminated the
perspective of a POSITA. The Federal Circuit’s
affirmance of the district court’s overreaching §101
analysis further blurred the already uncertain line
between §101 eligibility and §112, sowing confusion
for future cases.
Given that the Federal Circuit is hopelessly
deadlocked on these critical issues of patent law, this
case presents an excellent vehicle for review. The

4
district court’s opinion suffered from the same glaring
flaws as American Axle. This Court has not hesitated
to grant certiorari where the Federal Circuit has
affirmed without opinion when the issue at stake is
vital to the patent system. See, e.g., Oil States Energy
Sers., LLC v. Greene’s Energy Grp., LLC, No. 16-712,
2017 U.S. LEXIS 3727 (U.S. June 12, 2017) (granting
certiorari in case where Federal Circuit affirmed
without opinion). Here, by disregarding the text,
structure, and the intent of the Patent Act, the
district court, with the Federal Circuit’s blessing,
fundamentally altered Congress’s carefully crafted
statutory scheme. This Court must intervene to
restore the statutory requirements of the Patent Act
to their Congressionally delineated roles and to
reestablish order to the patent system as a whole.
Absent action by this Court, lower courts will
continue to allow §101 to swallow the other distinct
requirements under the Patent Act, which will
further destabilize the U.S. patent system and further
discourage investment in U.S. innovations.
Accordingly, VoIP-Pal respectfully requests
that this Petition be held pending the outcome of the
petition in American Axle and any further
proceedings in that case. If the Court grants the
petition in American Axle, then the Court should
grant this Petition, vacate the judgment of the
Federal Circuit, and remand this case (“GVR”) to the
Federal Circuit for further proceedings in view of any
decision this Court may reach on the merits in
American Axle. Alternatively, VoIP-Pal respectfully
submits that this Petition should be granted.

5
STATEMENT OF THE CASE
A.

SECTION 101 AND THE COURT’S
ELIGIBILITY FRAMEWORK

Section 101 specifies the categories of
inventions or discoveries that are eligible for patent
protection. See Bilski v. Kappos, 561 U.S. 593, 601
(2010). Congress used broad language to describe
patent-eligible subject matter: “any new and useful
process, machine, manufacture, or composition of
matter, or any new and useful improvement thereof.”
See 35 U.S.C. §101. “In choosing such expansive
terms . . . modified by the comprehensive ‘any,’
Congress plainly contemplated that the patent laws
would be given wide scope.”
See Diamond v.
Chakrabarty, 447 U.S. 303, 308 (1980). Indeed, as
this Court has recognized, “Congress intended
statutory subject matter ‘include anything under the
sun that is made by man.’” Id. at 309 (quoting S. Rep.
No. 1979, 82d Cong., 2d Sess., 5 (1952); H.R. Rep. No.
1923, 82d Cong., 2d Sess., 6 (1952)).
The Court, however, has “long held that [§101]
contains an important implicit exception. ‘Laws of
nature, natural phenomena, and abstract ideas are
not patentable.’”
Mayo Collaborative Servs. v.
Prometheus Labs., Inc., 566 U.S. 66, 70 (2012)
(quoting Diamond v. Diehr, 450 U.S. 175, 185 (1981)).
The rationale behind these exclusions is “one of preemption,” namely a “concern that patent law not
inhibit further discovery by improperly tying up the
future use of these building blocks of human
ingenuity.” See Alice Corp. Pty. Ltd. v. CLS Bank
Int’l, 573 U.S. 208, 216 (2014) (quotation marks
omitted). The Court has recognized, however, that

6
“all inventions at some level embody, use, reflect, rest
upon, or apply laws of nature, natural phenomena, or
abstract ideas.” Mayo, 566 U.S. at 71. Consequently,
this Court has advised that it must “tread carefully in
construing this exclusionary principle less it swallow
all of patent law.” Alice, 573 U.S. at 217. Under this
principle, the Federal Circuit has reasoned that “for
abstractness to invalidate a claim it must ‘exhibit
itself so manifestly as to override the broad statutory
categories of eligible subject matter and the statutory
context that directs primary attention on the
patentability criteria of the rest of the Patent Act.’”
See DealerTrack, Inc. v. Huber, 674 F.3d 1315, 1333
(Fed. Cir. 2012) (quoting Research Corp. Techs. v.
Microsoft Corp., 627 F.3d 859, 868 (Fed. Cir. 2010)).
The Court has “set forth a framework for
distinguishing patents that claim laws of nature,
natural phenomena, and abstract ideas from those
that claim patent-eligible applications of those
concepts.” Alice, 573 U.S. at 217. First, the Court
must “determine whether the claims at issue are
directed to one of those patent-ineligible concepts.”
Id. “If not, the claims pass muster under §101.” See
Ultramercial, Inc. v. Hulu, LLC, 772 F.3d 709, 714
(Fed. Cir. 2014). Second, if the answer to the first step
is “yes,” then the Court must “consider the elements
of each claim both individually and ‘as an ordered
combination’ to determine whether the additional
elements ‘transform the nature of the claim’ into a
patent-eligible application.” See Alice, 573 U.S. at 217
(quoting Mayo, 566 U.S. at 79). This step essentially
asks whether the claims add an “inventive concept”
that is “sufficient to ensure that the patent in practice
amounts to significantly more than a patent upon the
ineligible concept itself.” See Alice, 573 U.S. at 217

7
(quoting Mayo, 556 U.S. at 72) (modification marks
omitted).
As this case illustrates, lower courts have
struggled to apply the Mayo/Alice framework to
determine whether patent claims are merely directed
to abstract ideas or recite patent-eligible applications
of those concepts.
B.

FACTUAL AND PROCEDURAL
HISTORY

This consolidated appeal arises from two
actions filed by VoIP-Pal asserting infringement of
four VoIP-Pal patents—the ’762, ’330, ’002, and ’549
patents. On May 24, 2018, VoIP-Pal filed a complaint
against Apple in the District of Nevada. Appx158, #1.
The Apple case was subsequently transferred to the
Northern District of California and reassigned to the
Honorable Lucy H. Koh. Appx159, #24; Appx161,
#43. On June 15, 2018, VoIP-Pal filed a complaint
against Amazon.com, Inc., Amazon Technologies,
Inc., and Amazon Lab126 in the District of Nevada.
Appx169, #1. VoIP-Pal then dismissed its allegations
against Amazon Lab126. Appx171, #14, #17. The
Amazon case was subsequently transferred to the
Northern District of California and reassigned to
Judge Koh. Appx171, #20; Appx172, #29. Judge Koh
consolidated the Apple and Amazon cases for pretrial
purposes. Appx173, #40.
On February 15, 2019, Respondents filed a
consolidated motion to dismiss the Apple and Amazon
complaints under Rule 12(b)(6).
Appx162, #57;
Appx173, #42. On March 15, 2019, VoIP-Pal moved
for leave to amend its complaints in both cases.
Appx163, #67; Appx174, #48. The Court granted

8
VoIP-Pal’s motion and denied Respondents’ motions
to dismiss as moot. Appx64, #80; Appx174, #59.
On May 17, 2019, VoIP-Pal filed the operative
FACs. Appx164, #81; Appx174, #61. On June 5, 2019,
Respondents filed the identical consolidated motion to
dismiss the FACs in both cases. Appx165, #89;
Appx175, #67. Respondents argued that the patentsin-suit claimed ineligible subject matter under §101,
and therefore the FACs failed to state a claim.
On November 1, 2019, the district court
granted Respondents’ motion, invalidated all of the
asserted claims under §101, and entered judgment
dismissing the Apple and Amazon cases with
prejudice. App. 3a-104a. VoIP-Pal timely appealed
from the district court’s dismissal order and
judgment. Appx167, #117; Appx177, #87.
On November 3, 2020, the Federal Circuit
issued a Rule 36 judgment, affirming the District
Court’s invalidity ruling without conducting oral
argument. App. 1a-2a. VoIP-Pal filed a combined
petition for rehearing en banc and a rehearing by the
panel, which was denied on January 26, 2021. App.
105a-107a.
Shortly after briefing closed in VoIP-Pal’s
appeal, a divided panel of the Federal Circuit issued
a modified decision in American Axle. The patent in
that case claimed an improvement to an automobile
driveshaft manufacturing process by “the tuning of a
liner in order to produce frequencies that dampen
both the shell mode and bending mode vibrations
simultaneously.” Am. Axle, 967 F.3d at 1290. The
majority held that certain claims of American Axle’s
patent were ineligible because they claimed “nothing

9
more” than a natural law under this Court’s two-step
eligibility test established in Mayo and Alice. See id.
at 1298-1300.
On the same day that the American Axle panel
issued its modified opinion, the full Federal Circuit
denied en banc review in the same case in a bitterly
divided 6-6 decision. See Am. Axle & Mfg. v. Neapco
Holdings LLC, 966 F.3d 1347 (Fed. Cir. 2020).
Shortly before the Federal Circuit denied VoIPPal’s rehearing petition, American Axle filed a
petition for writ of certiorari presenting substantially
similar issues as the instant case. See American Axle
& Manufacturing, Inc. v. Neapco Holdings, LLC (No.
20-891). Specifically, American Axle asked the Court
to review two questions:
1. What is the appropriate standard for
determining whether a patent claim
is “directed to” a patent-ineligible
concept under step 1 of the Court’s
two-step framework for determining
whether an invention is eligible for
patenting under 35 U.S.C. §101?
2. Is patent eligibility (at each step of
the Court’s two-step framework) a
question of law for the court based on
the scope of the claims or a question
of fact for the jury based on the state
of art at the time of the patent?
See No. 20-891 Pet. i. On May 3, 2021, the Court
invited the Acting Solicitor General to file a brief in
American Axle expressing the views of the United
States.

10
C.

OVERVIEW OF THE PATENTS-INSUIT

The patents-in-suit are directed to the field of
voice over internet protocol (VoIP) telephone calls,
messages, and other communications and more
specifically to communication routing technology
used to facilitate such communications. Figure 1 of
the ’762 patent illustrates the specific technological
environment embodied in the claimed inventions:

Appx2165. As shown in Figure 1 above—illustrating
a system network (10) with communication nodes (11,
21) in Vancouver and London—the claimed
inventions facilitate communication devices (12, 15)
establishing a communication (e.g., phone call) to
destinations within the system network or on an
external network, whereby calls are routed by a
routing controller (16) via the same or other nodes

11
(e.g., 11, 21) or physical gateways (20) using internet
protocol addresses. Appx2165.
D.

BACKGROUND OF THE
TECHNOLOGY

The earliest public telephone systems in the
United States connected a telephone directly to a
human operator. Appx2113, ¶15. A move to take
human operators out of the system combined with
increasing demand for telephone services resulted in
the development of automated telephone switches.
Appx2115, ¶19. In the late 1980s, the Internet
became broadly deployed and evolved to the point
where techniques were developed to carry voice
communications over the Internet using VoIP.
Appx2116, ¶21. Eventually, VoIP services increased
to provide some interoperability with the existing
public switched telephone network (PSTN) services.
Appx2116-2117, ¶21.
The PSTN connects callers through nodes such
as central offices or exchanges available to the public.
Appx2119, ¶28. However, because PSTN nodes are
limited to serving users in a local calling service area,
they require callers to place calls in a specific manner,
e.g., to utilize certain dialing patterns and
conventions associated with that local area. Id.
Indeed, PSTN nodes required PSTN callers to dial in
a manner compatible with a local numbering plan and
international standards such as those of the
International Telecommunications Union (ITU)
Telecommunications Standardization Sector (ITU-T).
Id.; Appx2206, 19:5-17. Accordingly, calls made over
the PSTN from distant locations or internationally
use area codes or country codes. Appx2119, ¶28.

12
Large organizations were able to avoid these
PSTN dialing constraints by using a private network
internally, such as a private branch exchange (PBX).
Appx2120, ¶29. PBXs supported private numbering
plans for an organization’s internal private telephone
network. Id. PBXs also needed to provide caller
access to the PSTN for destinations outside the
private network. Id.; Appx2197, 1:22-33. However,
the integration of the different types of networks, for
example, to allow a VoIP network caller in the United
States to reach a PSTN callee in Europe, introduced
new complications. Appx2117, ¶22. VoIP systems
needed to distinguish between callees within the VoIP
network and those outside of it, and thus required
specific methods for identifying and routing to callees
depending on whether they were within or outside the
VoIP network. Appx2117, ¶22.
E.

THE PATENTEE AND ITS
INNOVATIONS

Digifonica, a wholly owned subsidiary of patent
owner VoIP-Pal, starting in 2004, developed a
communication solution capable of seamlessly
integrating a private VoIP communication network
with the PSTN by bridging the disparate protocols,
destination identifiers, and addressing schemes
used in the two networks. Appx2117-2118, ¶23.
Digifonica’s
system
employed
an
approach
fundamentally different from traditional systems: it
did not rely on a caller-specified classification to
distinguish private calls from PSTN calls. Appx2118,
¶25. Moreover, Digifonica provided flexible, userspecific dialing and could decouple the type of number
being called from how the call would be handled.

13
Appx2118-2119, ¶25. For example, even if a PSTNstyle telephone number was dialed, Digifonica’s
system could determine that the call should be routed
via Digifonica’s private network, thus allowing the
advantages of private network calling even in cases
where callers were unaware that the callee was a
Digifonica system subscriber. Appx2119, ¶25.
F.

THE CLAIMED INVENTIONS

The patented inventions provide technical
improvements that overcome the limitations of prior
communications processes and systems. Appx2119,
¶26. The inventors recognized the complexities
associated with conventional systems and methods.
The patented inventions alleviated those complexities,
such as routing a call solely based upon a phone
number dialed according to a node’s inflexible rules or
requiring the caller to identify the destination
network. Appx2121-2128, ¶¶32-40. Instead, the
patented inventions provided for user-specific
configuration and programming, enabling flexible
call-initiation options, tailored to each user.
Appx2121-2122, ¶32. Users also could transparently
call destinations located on any network on any
continent or country without being required to select
a network or a network routing path. Appx21222125, ¶¶33-36.
Apple filed four inter partes review petitions
against the patents-in-suit arguing that the asserted
claims were invalid as obvious under 35 U.S.C. §103.
See Apple, Inc. v. VoIP-Pal.com, Inc., IPR2019-01003,
-01006, -01008, -01009, Paper 2 (P.T.A.B. May 13,
2019). The PTAB denied all four petitions. Id. at

14
Paper 7 (P.T.A.B. Nov. 12, 2019). Despite the PTAB
upholding the validity of the patents-in-suit, the
district court determined that the patents-in-suit
claimed ineligible abstract ideas.
REASONS FOR GRANTING THE PETITION
I.

A MERITS DECISION IN AMERICAN
AXLE WILL IMPACT THE PROPER
DISPOSITION OF THIS CASE.

The Court should grant this Petition because it
presents the same questions as the petition for a writ
of certiorari filed in American Axle. See No. 20-891.
If the Court grants the petition in American Axle,
then the Court’s decision on the merits in that case
will directly impact the proper disposition of this case.
First, if the Court decides “the appropriate
standard for determining whether a patent claim is
‘directed to’ a patent-ineligible concept,” then the
Federal Circuit will need to reconsider its judgment
affirming the district court in this case under the
standard announced by the Court. As in American
Axle, the district court held that the asserted claims
were ineligible because they allegedly recited nothing
more than an abstract idea. The following table
illustrates numerous examples where the district
court applied the same hotly criticized nothing more
test that the Federal Circuit applied in American
Axle:

15
Table 1
District
Court
Mayo/Alice
Analysis

Text of Opinion

Citation

Step 1,
Claim 1 of
’002 patent.

“[T]he claim recites
App. 53a
(emphasis
nothing more than
result-focused steps and added).
generic technology.”

Step 1,
Claim 1 of
’002 patent.

“[T]he claim’s step of
‘receiving’ ‘identifiers’
associated with the
participants amounts
to nothing more than
collecting preexisting
information.”

Step 1,
Claim 1 of
’002 patent.

“Representative Claim App. 57a
1 ultimately amounts
(emphasis
to nothing more than
added).
the abstract idea of
collecting data,
analyzing it, and
displaying the results.”

Step 2,
Claim 1 of
’002 patent.

“Just as steps that do
App. 92a
nothing more than
(emphasis
spell out what it
added).
means to ‘apply it on
a computer’ cannot
confer patenteligibility, here, steps
that generically spell
out what it means to
‘apply it on a telephone

App. 53a
(emphasis
added).

16
network’ also cannot
confer patent
eligibility.” (citations
omitted)
If the Court ultimately rejects, modifies, or clarifies
American Axle’s nothing more test, then the Court’s
ruling would require the Federal Circuit to reconsider
the instant case as well.
Second, if the Court were to determine in
American Axle that patent eligibility—at either step
of the Court’s two-step framework—involves a
“question of fact for the jury based on the state of art
at the time of the patent,” then the proper disposition
of this case also would be impacted. As in American
Axle, the patent eligibility issues in this case were not
submitted to a jury nor did the district court decide
these issues based on findings of fact and conclusions
of law. Compare App. 4a (noting that the district
court decided patent eligibility on a “consolidated
motion to dismiss Plaintiff’s amended complaints
pursuant to Federal Rule of Civil Procedure 12(b)(6)”),
with Am. Axle, 967 F.3d at 1291 (noting district court
decided patent eligibility on a “motion for summary
judgment.”).
For example, as discussed below,
the district court rejected VoIP-Pal’s claimed
improvements because “the Patents-in-Suit did not
disclose how to achieve them.” App. 101a (emphasis
added). But the district court refused to consider
expert evidence that the patents-in-suit did contain
such disclosure. Id. If the Court determines that
questions of fact impact any aspect of the patenteligibility inquiry, then that ruling also would require
the Federal Circuit to reconsider this case.

17
Accordingly, VoIP-Pal respectfully requests
that the Court hold this Petition pending the outcome
in American Axle. If the Court grants the petition in
American Axle, then the Court should grant this
Petition, vacate the judgment below, and remand this
case to the Federal Circuit for further proceedings in
view of any decision this Court may reach on the
merits in American Axle.
II.

THE DISTRICT COURT IMPROPERLY
CONFLATED THE §101 ELIGIBILITY
INQUIRY WITH THE §112 INQUIRY.
A.

Section 101 Eligibility And The
Requirements Of §112 Are Distinct.

Additionally, the Court should grant this
Petition because the district court’s indiscriminate
use of §112 considerations to invalidate the asserted
claims under §101 disregarded Congress’s carefully
crafted statutory framework.
The Court has
recognized that “[t]he §101 patent-eligibility inquiry
is only a threshold test.” See Bilski v. Kappos, 561
U.S. 593, 602 (2010). Even if an invention qualifies
as one of the statutory categories of eligible subject
matter, in order to be patentable under the Patent
Act, the claimed invention also is “subject to the
conditions and requirements of [Title 35].” See 35
U.S.C. §101; Mayo, 566 U.S. at 90 (quoting H.R. Rep.
No. 1923, 82d Cong., 2d Sess., 6 (1952) (“A person may
have ‘invented’ a machine or a manufacture . . . but it
is not necessarily patentable under section 101 unless
the conditions of the title are fulfilled.”)). As the
Court also has recognized, the Patent Act recites
three distinct requirements for patentability. “Those
requirements include that the invention be novel, see

18
§102, nonobvious, see §103, and fully and particularly
described, see §112.” Bilski, 561 U.S. at 602. Indeed,
in Diamond v. Diehr, the Court expressly
distinguished §101 eligibility from the conditions for
patentability that follow it:
Section 101, however, is a general
statement of the type of subject matter
that is eligible for patent protection
“subject
to
the
conditions
and
requirements of this title.” Specific
conditions for patentability follow . . .
See Diehr, 450 U.S. at 189-91 (citing in accord S. Rep.
No. 1979, 82d Cong., 2d Sess., 5 (1952)). The Federal
Circuit likewise has held that eligibility and
patentability are not the same:
To be clear: ruling these claims to be
patent-eligible does not mean that they
are valid; they have yet to be tested
under the statutory conditions for
patentability, e.g., §§102 (novelty) 103
(non-obvious subject matter), and the
requirements of 112 (written description
and enablement).
See Amdocs (Isr.) Ltd. v. Openet Telecom, Inc., 841
F.3d 1288, 1306 (Fed. Cir. 2016). As Judge Newman
opined in the American Axle en banc decision, joined
by Judges Moore and Reyna from the panel in this
case, “[e]ligibility under Section 101 is not the same
as patentability under the substantive statutory
provisions of novelty (§102), nonobviousness (§103),
and description and enablement (§112).” See Am.
Axle, 966 F.3d at 1359 (Newman, J., joined by Moore,
O’Malley, Reyna, and Stoll, JJ., dissenting from

19
denial of reh’g en banc); see also Yanbin Yu v. Apple
Inc., No. 2020-1760, 2021 U.S. App. LEXIS 17434, at
*18 (Fed. Cir. June 11, 2021) (Newman, J., dissenting)
(“Determination of patentability of a new device is not
a matter of eligibility under Section 101, but of
compliance with all the statutory provisions.”);
BASCOM Global Internet Servs. v. AT&T Mobility
LLC, 827 F.3d 1341, 1353 (Fed. Cir. 2016) (Newman,
J., concurring) (“Claims that are imprecise or that
read on prior art or that are unsupported by
description or that are not enabled raise questions of
patentability [under §112], not eligibility [under
§101].”).
B.

Substituting The §101 Inquiry
For The §112 Inquiry Creates
Uncertainty In Patent Law.

Although the requirements for patentability
are distinct from §101, members of the Court have
cautioned that a risk exists of evaluating eligibility
with reference to sections of the Patent Act that have
nothing to do with eligibility. In their view, this risk
arises from the interplay of the requirements of the
Patent Act:
Given the many moving parts at work
in the Patent Act, there is a risk of
merely confirming our preconceived
notions of what should be patentable or
of seeing common attributes that track
‘the familiar issues of novelty and
obviousness’ that arise under other
sections of the statute but are not
relevant to §101 . . .

20
Bilski, 561 U.S. at 624 (Stevens, J., joined by
Ginsburg, Breyer, and Sotomayor, JJ., concurring)
(quoting Parker v. Flook, 437 U.S. 584, 588 (1978)).
Before Mayo/Alice, the Federal Circuit understood
this Court’s guidance as an admonition “that section
101 eligibility should not become a substitute for a
patentability analysis related to prior art, adequate
disclosure, or the other conditions and requirements
of Title 35.” See Research Corp. Techs. v. Microsoft
Corp., 627 F.3d 859, 868 (Fed. Cir. 2010). In fact, in
MySpace, Inc. v. Graphon Corp., 672 F.3d 1250 (Fed.
Cir. 2012), the Federal Circuit questioned the wisdom
of determining the fate of litigated patents based
on eligibility as opposed to the conditions of
patentability. It advised that courts could avoid the
“murky morass” of §101 jurisprudence by insisting
that “litigants initially address patent invalidity
issues in terms of the conditions of patentability
defenses as the statute provides, specifically §§102,
103, and 112.” See MySpace, 672 F.3d at 1260.
Most recently, in Mayo Collaborative Servs. v.
Prometheus Labs., Inc., 566 U.S. 66 (2012), the Court
addressed the problem of conflating the §101 inquiry
with the inquiry under other sections of the Patent
Act. In rejecting the Solicitor General’s invitation to
substitute the inquiry under §§102, 103, and 112 for
that of §101, the Court expressly warned that shifting
“the patent eligibility inquiry entirely to these later
sections risks creating significantly greater legal
uncertainty, while assuming that those sections can
do work that they are not equipped to do.” See Mayo,
566 U.S. at 90. But the reverse is true too—shifting
the inquiry under the later sections to §101 creates
great legal uncertainty because it allows §101 to do
work that it is not equipped to do and was never

21
intended to do. This shift also creates uncertainty
because neither this Court nor the Federal Circuit
have ever clarified how much shift is too much or
whether any shift is allowed at all.
Despite this Court’s warning in Mayo, “the
emphasis on eligibility has led to erratic
implementation in the courts.” BASCOM Global
Internet Servs. v. AT&T Mobility LLC, 827 F.3d 1341,
1353 (Fed. Cir. 2016) (Newman, J., concurring). That
is because the Federal Circuit has allowed §101
jurisprudence to drift far from its statutory mooring.
This departure from Congress’s will prompted Judge
Newman to advocate for restoring the proper roles of
§101 and the requirements of patentability to their
statutory limits:
I propose returning to the letter of
Section 101, where eligibility is
recognized for ‘any new and useful
process, machine, manufacture, or
composition of matter.’ It follows that if
any of these classes is claimed so broadly
or vaguely or improperly as to be deemed
an ‘abstract idea,’ this could be resolved
on application of the requirements and
conditions of patentability.
See BASCOM, 827 F.3d at 1353 (Newman, J.,
concurring). Judge Lourie also opined that §101
should not be used to do the work that §112 is
intended to do and is better equipped to handle. See
Ariosa Diagnostics, Inc. v. Sequenom, Inc., 809 F.3d
1282, 1286 (Fed. Cir. 2015) (Lourie, J., concurring)
(“[T]he finer filter of §112 might be better suited to
treating these as questions of patentability, rather

22
than reviewing them under the less-defined eligibility
rules.”). Yet, the district court’s decision in the
instant case exemplifies the Court’s concern
expressed in Mayo that §101 would be subsumed by
the statutory requirements for patentability, except
that it is §101 that subsumes §112. Uninhibited by
the lack of clear precedent, the district court in this
case co-opted §112 for its §101 analysis to an
unprecedented degree.
C.

The District Court Improperly
Applied §112 Considerations To
Invalidate The Asserted Claims
Under The Guise Of §101.

Although the Court has stated that the §101
patent eligibility inquiry “might sometimes overlap”
with the inquiry under the other requirements of
patentability, the district court’s §112-infused
eligibility analysis far exceeded any permissible
overlap. See Mayo, 566 U.S. at 90. This same issue
is precisely what remains troubling after American
Axle. The American Axle panel majority agreed that
“[this Court] in Mayo made clear that section 101
serves a different function than enablement [under
§112].” See Am. Axle, 967 F.3d at 1302-03. Yet in the
American Axle en banc decision, Judge Stoll, also
joined by Judge Moore and Judge Reyna, opined that
“en banc review would provide an opportunity
for . . . the full court to consider, where [§101]
eligibility analysis stops and [§112] enablement
analysis begins.” See Am. Axle, 966 F.3d at 1363
(Stoll, J., joined by Newman, Moore, O’Malley, and
Reyna, JJ., dissenting from denial of reh’g en banc).
Because that review never happened, the law remains
hopelessly muddled.
Not only is it critically

23
important that the Court grant this Petition to clarify
where the line between the §101 inquiry and the §112
inquiry lies, but wherever that line is, the district
court far exceeded it. See Ultramercial, Inc. v. Hulu,
LLC, 722 F.3d 1335, 1347 (Fed. Cir. 2013) (“In
specifying what the scope of the abstract idea
exception to patent eligibility is, it is also important
to specify what the analysis is not. . . . principles of
patent eligibility must not be conflated with those of
validity . . . .”) (emphasis in original), vacated on other
grounds, 573 U.S. 942 (2014).
In American Axle, the Federal Circuit relied on
this Court’s decision in O’Reilly v. Morse for the
proposition that patent claims that recite a result
without a means to achieve that result are ineligible.
See Am. Axle, 967 F.3d at 1295-97 (citing O’Reilly v.
Morse, 56 U.S. 62 (1854)). American Axle used
O’Reilly to draw a bright line between eligibility and
enablement in describing two distinct how
requirements in patent law. Id. at 1302. The newly
fashioned eligibility how requirement “is that the
claim itself . . . must go beyond stating a functional
result; it must identify ‘how’ that functional result is
achieved by limiting the claim scope to structures
specified at some level of concreteness, in the case of
a product claim, or to concrete action, in the case of a
method claim.” Id. The enablement how requirement
under §112, which American Axle said is distinct from
the eligibility how requirement, applies to the
specification, not the claims, and requires that once
the “concrete physical structures or actions are set out
in the claim, the specification must set forth enough
information for a relevant skilled artisan to be able to
make and use the claimed structures or perform the
claimed actions.” Id. Yet, if the American Axle line is

24
the law, then the district court in this case plainly
conflated these two requirements.
Indeed, the following table illustrates
numerous examples where the district court
mistakenly relied on an alleged lack of how in the
specification to invalidate the asserted claims on
eligibility grounds. But as the Federal Circuit has
held, “[w]hether a patent specification teaches an
ordinarily skilled artisan how to implement the
claimed invention presents an enablement issue
under 35 U.S.C. §112, not an eligibility issue under
§101.” See Visual Memory LLC v. NVIDIA Corp., 867
F.3d 1253, 1261 (Fed. Cir. 2017).
Table 2
District
Court
Mayo/Alice
Analysis
Step 1,
Claim 1 of
’002 patent.

Text of Opinion

Citation

The specification lists
example attributes
(national dialing
digits, international
dialing digits, country
code, local area code,
the maximum number
of concurrent calls the
user is entitled to
cause, username; see
id. at 18:40-58; 19:3749), but does not
explain how they form
a user profile.

App. 54a
(emphasis
added).

25
Step 1,
Claim 1 of
’002 patent.

“Yet, the specification
App. 56a
does not explain how to (emphasis
‘identify a subscriber
added).
to the private
network.’”

Step 1,
Claim 1 of
’002 patent.

“Critically, however,
the claim and the
specification do not
explain how to ‘identify’
the appropriate
Internet address.”

App. 57a
(emphasis
added).

Step 1,
Claim 1 of
’002 patent.

“It is therefore
unsurprising that
neither the claim nor
the specification
discloses how to design
a communication
system that ‘makes it
simple to allocate or
add new nodes and
gateways to particular
regions or routes.’”

App. 73a74a
(emphasis
added).

Step 1,
Claim 26 of
’002 patent.

“To begin with,
Representative Claim
26 discloses ‘blocking’
in purely functional
terms, without
explaining how the
blocking is
accomplished. The
claim and the
specification are
devoid of any details

App. 79a
(emphasis
added).

26
regarding
implementation that
might ‘add a degree of
particularity.’”
Step 2.

“The Court
nevertheless rejected
these improvements
on the ground that the
Patents-in-Suit did not
disclose how to achieve
them.”

App. 101a
(emphasis
added).

Step 2.

“Because neither the
claims nor the
specification provided
the critical ‘how,’ the
improvements are not
attributable to the
invention as claimed.”

App. 101a
(emphasis
added).

Not only do these examples show that the district
court erred by applying the enablement how
requirement instead of the eligibility how
requirement, but enablement was not even at issue in
this case. Moreover, these examples also cast serious
doubt on the 25 other times that the district court
purported to apply the eligibility how requirement to
the asserted claims. Under the district court’s
scattershot how analysis, VoIP-Pal has no way of
knowing which of the two how requirements were
fatal to its claims or whether the district court applied
the correct how requirement.
The district court’s how analysis deserved the
same criticism that Judge Stoll directed at the

27
American Axle en banc majority’s how analysis—it
went further than an eligibility analysis and
incorporated a heightened enablement requirement
into §101. See Am. Axle, 966 F.3d at 1363 (Stoll, J.,
joined by Newman, Moore, O’Malley, and Reyna, JJ.,
dissenting from denial of reh’g en banc). By raising
an endless array of narrow how questions, the district
court transformed its eligibility inquiry from how the
claims achieve a desired goal to the more detailed
question of how the invention is implemented. See
App. 32a (“how” a gateway is selected; “how” multiple
gateways are supported); App. 33a (“how the ‘user
profile’ is used”); App. 39a (“how” a callee identifier
is processed or compared; “how” a node is selected);
App. 46a (“how” a caller is notified of error message);
App. 55a (“how” attributes form a user profile or
are processed; “how” classifying is done; “how”
subscribers are identified); App. 56a-57a (“how”
routing message is produced; “how” it establishes
communication; “how” address is identified); App. 73a74a (“how” design facilitates new nodes/gateways);
App. 79a (“how” blocking is accomplished and
“when”); App. 82a (“how” blocking information is
generated and in “what form”); App. 85a (“how” error
criteria are determined).
As Judge Reyna recognized in Amdocs, the
level of how required to satisfy the eligibility inquiry
is not especially exacting: “the recited way of
accomplishing the goal need not be extensively
detailed or even complete.
Rather, it must
meaningfully limit the claim to a manner of achieving
the desired result without unduly foreclosing future
innovation.” See Amdocs, 841 F.3d at 1315 (Reyna, J.,
dissenting); see also Am. Axle, 966 F.3d at 1363 (Stoll,
J., joined by Newman, Moore, O’Malley, and Reyna,

28
JJ., dissenting from denial of reh’g en banc) (“[A]
claim can be specific enough to be directed to an
application of a law of nature—which is patent
eligible—without reciting how to perform all the
claim steps.”). The level of detail that the district
court required, however, far exceeded that necessary
to determine the eligibility of the asserted claims. See
Koninklijke KPN N.V. v. Gemalto M2M GmbH, 942
F.3d 1143, 1148, 1151, 1153 (Fed. Cir. 2019).
Further evidence that the district court
mistakenly applied an enablement analysis and not
an eligibility analysis is that the district court did not
aim its how inquiry at determining whether the
asserted claims preempted the alleged abstract idea
of routing communications based on characteristics
of the participants. Although the district court
addressed preemption, it did so only after it applied
its flawed ineligibility analysis. App. 97a (“Hence,
where a court has deemed a claim to disclose only
patent-ineligible subject matter under the Alice
framework—as the Court has in the instant case—
‘preemption concerns are fully addressed and made
moot.’”). Instead, as shown above, the district court
focused its eligibility inquiry on narrow details of how
each element of the claims is implemented, which
usurps the role of §112. See Treehouse Avatar LLC v.
Valve Corp., 170 F. Supp. 3d 706, 718 (D. Del. 2016)
(“[I]t is less than clear how a §101 inquiry that is
focused through the lens of specificity can be
harmonized with the roles given to other aspects of
the patent law (such as enablement under §112 . . .),
especially in light of the Federal Circuit’s past
characterization of §101 eligibility as a ‘coarse’ gauge
of the suitability of broad subject matter categories for
patent protection.”). The district court’s improper

29
focus on implementation details rather than
preemption concerns is the same type of focus that
Judge Moore disagreed with in the American Axle
panel decision: “[t]he majority’s concern is not
preemption of a natural law (which should be the
focus) but rather that the claims do not teach a skilled
artisan how to tune a liner without trial and error.”
See Am. Axle, 967 F.3d at 1316 (Moore, J., dissenting);
see also Mark A. Lemley, et al., Life After Bilski, 63
Stan. L. Rev. 1315, 1330 (2011) (“The question is not
whether one could make the embodiments claimed,
but rather whether the inventor has contributed
enough to merit a claim so broad that others will be
locked out.”). But by affirming the district court’s
decision without opinion, Judge Moore and the rest of
the VoIP-Pal panel tacitly endorsed the enablementinfused ineligibility analysis that has caused bitter
division within the Federal Circuit and that merits
this Court’s review. See Am. Axle, 977 F.3d at 1382
(Moore, J., concurring) (“What we have here is worse
than a circuit split—it is a court bitterly divided.”).
D.

Substituting §101 For §112
Eviscerates The Knowledge Of
A Person Of Ordinary Skill In
The Art.

The district court injected further uncertainty
into the law because it sua sponte raised improper
how questions without giving VoIP-Pal the chance to
cure these alleged deficiencies as it was required to do
at the Rule 12 stage. Under Ninth Circuit law, “a
district court should grant leave to amend even if no
request to amend the pleading was made, unless it
determines that the pleading could not possibly be
cured by the allegation of other facts.” See Lopez v.

30
Smith, 203 F.3d 1122, 1127, 1130 (9th Cir. 2000) (en
banc) (citations omitted) (emphasis added). Not only
did the district court make no finding that VoIP-Pal’s
FACs could not be cured by alleging additional facts,
but the district court’s blended §101/§112 analysis
was fundamentally unfair.
To the extent that the district court’s how
questions invoked §112 considerations, the district
court should have afforded VoIP-Pal the opportunity
to allege facts showing that a POSITA would know
the answer to those questions. Because the district
court did not give VoIP-Pal that opportunity, it
effectively eliminated the knowledge of a skilled
artisan, which is required for §112 considerations,
from its ineligibility analysis.
See also Visual
Memory, 867 F.3d at 1261 (quoting Hybritech Inc. v.
Monoclonal Antibodies, Inc., 802 F.2d 1367, 1384
(Fed. Cir. 1986)). This error also is one of the
problems that deeply troubled Judge Moore in
American Axle: “[t]he majority’s new blended 101/112
defense is confusing, converts fact questions into legal
ones and eliminates the knowledge of a skilled
artisan.” See Am. Axle, 967 F.3d at 1316 (Moore, J.,
dissenting). The district court’s decision suggests
that even a claim for which a POSITA would agree
there is legally sufficient description in the
specification could fall under §101, not because it
claims an allegedly abstract idea, but because a court
determines on its own that the claims failed to provide
sufficient enabling detail for how the claimed
invention is achieved. Id. This result makes no sense
because even the specification is not required to
disclose what is well known in the art. See, e.g.,
Hybritech, 802 F.2d at 1384 (“[A] patent need not
teach, and preferably omits, what is well known in the

31
art.”); Falko-Gunter Falkner v. Inglis, 448 F.3d 1357,
1365 (Fed. Cir. 2006) (“‘[A] patent need not teach, and
preferably omits, what is well known in the art.’”
(quoting Spectra-Physics, Inc. v. Coherent, Inc., 827
F.2d 1524, 1534 (Fed. Cir. 1987)); Atmel Corp. v. Info.
Storage Devices, Inc., 198 F.3d 1374, 1382 (Fed. Cir.
1999) (“[I]t makes no sense to encumber the
specification of a patent with all the knowledge of the
past concerning how to make and use the claimed
invention.”).
Worse, the district court rejected VoIP-Pal’s
detailed proffer of expert evidence, which could have
helped the district court answer its how questions and
provided additional plausible allegations supporting
eligibility. App. 101a. The American Axle majority
similarly shunned such evidence in reaching the
conclusion in that case that the claims were directed
to an ineligible concept without regard to expert
testimony. By denying VoIP-Pal’s proffer, the district
court substituted its judgment for that of a POSITA,
which creates the same confusion that Judge Moore
complained of: “I cannot fathom the confusion that
will be caused by declaring that claims are ineligible
as directed to a natural law, when it is clear to all
involved that this patent does not recite any
particular natural law.” See Am. Axle, 967 F.3d at
1316 (Moore, J., dissenting). Legal commentators
also have noted that eliminating the perspective of a
POSITA in the context of an eligibility analysis is
particularly troublesome at the Rule 12 stage. See,
e.g., Raymond A. Mercado, Resolving Patent
Eligibility and Indefiniteness in Proper Context:
Applying Alice and Aristocrat, 20 Va. J.L. & Tech.
240, 250, 257 (2016) (observing that “[s]ince Alice, the
trend has been for eligibility to be resolved on the

32
pleadings or via motions to dismiss” and arguing that
“[c]ourts are improperly resolving these cases in a
vacuum, substituting their own perspective for that of
the skilled artisan and ignoring critical fact issues.”);
Timothy R. Holbrook & Mark D. Janis, PatentEligible Processes: An Audience Perspective, 17 Vand.
J. Ent. & Tech. L. Rev. 349, 362, 382 (2015) (observing
that courts are deciding eligibility with “virtually
nothing to guide and focus the judicial imagination,”
a “dynamic [that] becomes particularly salient when
considering the procedural posture of these cases –
motions to dismiss under Rule 12(b)(6) or 12(c)” and
arguing against the courts’ “problematic” practice of
“kick[ing] the hypothetical person of ordinary skill in
the art to the curb in favor of a discretionary analysis
[by the court] that need not be constrained to
establish qualifying prior art evidence.”). Unless this
Court reconsiders whether the district court’s §112
considerations were improper in a §101 eligibility
analysis, this highly problematic practice will persist
and further obscure the law.
III.

THIS CASE PRESENTS AN ISSUE OF
GREAT IMPORTANCE AND IS AN
EXCELLENT VEHICLE FOR REVIEW.

This case presents critical issues of patent law
and provides an excellent vehicle to clarify the
interplay of §101 and §112 of the Patent Act. Not only
did the district court ignore Mayo’s warning of the
risks associated with conflating the eligibility inquiry
with the requirements of patentability, but this case
represents an egregious example of that risk that has
gone unchecked. Inexplicably, the district court
identified four instances where it claimed that the
asserted claims recited nothing more than an abstract

33
idea and 32 instances where it claimed the asserted
claims failed to recite how the desired result is
achieved. It strains credulity to aver that each one of
these alleged deficiencies implicated only §101
eligibility. This Court has made clear that claims that
recite a result rather than a solution also implicate
the fact-based §112 requirements of adequate
disclosure and definiteness. See Nautilus, Inc. v.
Biosig Instruments, Inc., 572 U.S. 898, 901-12 (2014);
Halliburton Oil Well Cementing Co. v. Walker, 329
U.S. 1, 8-9 (1946); United Carbon Co. v. Binney &
Smith Co., 317 U.S. 228, 232-34 (1942); Gen. Elec. Co.
v. Wabash Appliance Corp., 304 U.S. 364, 368-71
(1938); Holland Furniture Co. v. Perkins Glue Co., 277
U.S. 245, 256-57 (1928); Béné v. Jeantet, 129 U.S. 683,
685-86 (1889). If the district court believed that the
patents-in-suit failed to define how the claimed result
is achieved, then the court should have allowed the
factual record to develop so that it could accurately
determine whether the claims raise eligibility issues
under §101 or adequacy of disclosure issues under
§112. See Visual Memory, 867 F.3d at 1261.
The district court’s opinion highlights the
problem with the current state of §101 jurisprudence
because it shows that courts believe that they can
invalidate patents on eligibility grounds based on
fact-free determinations regarding the adequacy of a
patent’s disclosure. Like the American Axle panel
opinion, the district court’s eligibility analysis uses
§112 considerations without regard for the factual
predicates that underlie the §112 inquiry. As such,
eligibility is determined based on the court’s
subjective belief of whether a claim is supported by a
patent’s specification. The outcome in this case
symbolizes “the dramatic expansion of a judicial

34
exception to §101” and contradicts the clear text,
structure, and intent of the Patent Act. See Am. Axle,
977 F.3d at 1382 (Moore, J., concurring).
The Federal Circuit’s unwillingness to use this
case to clarify the boundary between §101 and §112
is particularly distressing because, as evidenced by
its fractured American Axle opinions, the Federal
Circuit itself cannot decide where that boundary
is. Not only have several members of the Federal
Circuit recognized the impropriety of using §112
considerations to invalidate claims under §101, but
several district courts across the country have
rejected that practice as well. See Stormborn Techs.,
LLC v. Topcon Positioning Sys., 444 F. Supp. 3d 1119,
1125 n.3 (N.D. Cal. 2020) (“Whether or not these steps
are specific enough to detail how to implement the
claimed invention is better suited for a challenge
under section 112.”); Avocent Huntsville, LLC v. ZPE
Sys., No. 3:17-cv-04319-WHO, 2018 U.S. Dist. LEXIS
47655, at *20 (N.D. Cal. Mar. 21, 2018); Treehouse
Avatar, 170 F. Supp. 3d at 718; Prompt Med. Sys., L.P.
v. Allscripts Healthcare Solutions, Inc., No. 6:10-cv71, 2012 U.S. Dist. LEXIS 30694, at *21-22 (E.D. Tex.
Feb. 13, 2012). As the Court stated in Bilski, “[i]n
the area of patents, it is especially important that the
law remain stable and clear.” Bilski, 561 U.S. at 613
(Stevens, J., joined by Ginsburg, Breyer, and
Sotomayor, JJ., concurring). If the Court truly wants
to bring stability and clarity to §101 jurisprudence,
then it should grant this Petition and reject the
district court’s blended §101/§112 analysis.
Otherwise, lower courts will continue to invalidate
patents with little regard for Congress’s statutory
framework.

35
By blessing the district court’s flawed analysis,
the Federal Circuit implicitly disregarded Congress’s
will as expressed in the Patent Act. Courts must
apply the prescriptions of Congress, not rewrite them.
See U.S. v. Dubilier Condenser Corp., 289 U.S. 178,
199 (1933) (“We should not read into the patent laws
limitations and conditions which the legislature has
not expressed.”); see also Henry Schein, Inc. v. Archer
& White, Inc., 139 S. Ct. 524, 530 (2019) (“[The Court]
may not engraft our own exceptions onto the statutory
text.”). This overriding of Congress’s judgment in the
patent context is having a tremendous and immediate
impact on the U.S. patent system and the rights
of patent owners. See Yu, 2021 U.S. App. LEXIS
17434, at *20 (Newman, J., dissenting) (“The fresh
uncertainties engendered by the majority’s revision
of Section 101 are contrary to the statute and the
weight of precedent, and contrary to the public’s
interest in a stable and effective patent incentive.”).
For example, the AIPLA has commented that the
failure of the courts to follow the deliberately
designed structure of the Patent Act has weakened
the U.S. patent system and discouraged investment
in U.S. innovation. See AIPLA Legislative Report and
Proposal on Patent Eligible Subject Matter (May
12, 2017), https://www.aipla.org/docs/default-source/
advocacy/aipla-legislative-proposal---patent-eligiblesubject-matter.pdf?sfvrsn=7e208efe_2 (last visited
June 25, 2021). These drastic consequences—ones
that Congress never intended—should not be
sanctioned without this Court’s plenary review. This
Court should grant certiorari in this case to reattach
the eligibility inquiry to its statutory mooring.
Otherwise, district courts like the one in this case
will—with the Federal Circuit’s tacit approval—

36
continue to further weaken the patent system’s
statutory foundation.
Because the Federal Circuit is “at a loss as to
how to uniformly apply §101,” the opportunity and the
need to fix the problem is now. See Am. Axle, 977 F.3d
at 1382 (Moore, J., concurring). The “irreconcilable
split in the nation’s only patent court” in American
Axle demonstrates that the Federal Circuit cannot
and will not stop §101 from subsuming the §112
inquiry. Id. Indeed, even in the wake of American
Axle, the Federal Circuit further expanded §101’s
reach to invalidate a patent by applying §102 novelty
considerations in direct contravention of this Court’s
precedent in Diehr:
In contravention of this explicit
distinction between Section 101 and
Section 102, the majority now holds that
the ’289 camera is an abstract idea
because the camera’s components were
well-known and conventional and
perform only their basic functions. That
is not the realm of Section 101 eligibility.
The Supreme Court disposed of this
position in Diehr . . .
Yu, 2021 U.S. App. LEXIS 17434, at *16 (Newman, J.,
dissenting); but see Diehr, 450 U.S. at 189-90 (“The
question therefore of whether a particular invention
is novel [under §102] is ‘wholly apart from whether
the invention falls into a category of statutory subject
matter [under §101].’”) (citations omitted). It is only
a matter of time before courts stretch §101 to subsume
the §103 nonobviousness inquiry as well. But cf.
Ultramercial, 722 F.3d at 1347-48 (“[S]ubject matter

37
eligibility must exist even if it was obvious to use the
old steps with [a] new machine or composition.
Otherwise the eligibility analysis ignores the text of
[§101] . . . and reads §103 out of the Patent Act.”).
Without this Court’s intervention, lower courts will
continue to conflate the distinct requirements of the
Patent Act, which will inevitably cause the statutory
framework architected by Congress to collapse. Given
the significant interests at stake and the Federal
Circuit’s desperate and “unprecedented plea for
guidance” in addressing the problem, certiorari is
warranted. See Am. Axle, 977 F.3d at 1382 (Moore,
J., concurring).
Finally, the Federal Circuit’s decision not to
issue a reasoned opinion on the questions presented
by this case should not stop this Court from granting
certiorari. “[T]he Court grants certiorari to review
unpublished and summary decisions with some
frequency.” Eugene Gressman, et al., Supreme Court
Practice 4.11 (9th ed. 2007) (citing decisions). Indeed,
this Court recently granted certiorari in Oil States
where the Federal Circuit did not issue a written
opinion. See 2017 U.S. LEXIS 3727. And one former
justice “tend[ed] to vote to grant more on unpublished
opinions, on the theory that occasionally judges will
use the unpublished opinion as a device to reach a
decision that might be a little hard to justify.” J. Cole
& E. Bucklo, A Life Well Lived: An Interview with
Justice John Paul Stevens, 32 Litigation 8, 67
(Spring 2006). Additionally, the Federal Circuit has
categorically rejected the notion that “a summary
affirmance under Rule 36 is an indication that a
case was meritless, frivolous, or even weak.” See
Innovation Scis., LLC v. Amazon.com, Inc., 842 F.
App’x. 555, 558 (Fed. Cir. Jan. 5, 2021). On the

38
contrary, as the Federal Circuit has explained on
several occasions “[a]ppeals whose judgments are
entered under Rule 36 receive the full consideration
of the court, and are no less carefully decided than the
cases in which we issue full opinions.” See Phil-Insul
Corp. v. Airlite Plastics Co., 854 F.3d 1344, 1354 (Fed.
Cir. 2017) (citations omitted). Even without a written
opinion from the Federal Circuit, the district court’s
opinion strongly resembles the eligibility quagmire in
American Axle.
This Petition brings the same
critically important issues to the forefront and the
Court should address them head-on.
IV.

CONCLUSION

In conclusion, VoIP-Pal respectfully requests
that this Petition be held pending the disposition of
the petition in American Axle and any further
proceedings in that case. If the Court grants the
American Axle petition, then it should grant this
Petition, vacate the judgment of the Federal Circuit,
and remand this case to the Federal Circuit for
further proceedings in light of any decision this Court
may reach on the merits in American Axle.
Alternatively, VoIP-Pal respectfully requests that the
Court grant this Petition to address the important
precedent-setting questions presented by this
Petition.

39
Dated: June 25, 2021

Respectfully submitted,
HUDNELL LAW GROUP P.C.

By:

/s/ Lewis E. Hudnell, III
Lewis E. Hudnell, III
Counsel of Record
800 W. El Camino Real
Suite 180
Mountain View, CA 94040
(650) 564-7720
lewis@hudnelllaw.com
Attorneys for Petitioner
VoIP-Pal.com, Inc.

APPENDIX

ia
APPENDIX TABLE OF CONTENTS
Page
Nonprecedential Opinion of
The United States Court of Appeals
For the Federal Circuit
entered November 3, 2020 ............................. 1a
Order of
The United States District Court
For the Northern District of California
Re: Granting Motion to Dismiss
entered November 1, 2019 ............................. 3a
Judgment of
The United States District Court
For the Northern District of California
No. 18-CV-06216-LHK
entered November 1, 2019 ......................... 103a
Judgment of
The United States District Court
For the Northern District of California
No. 18-CV-07020-LHK
entered November 1, 2019 ......................... 104a
Order of
The United States Court of Appeals
For the Federal Circuit
Re: Denying Petition for Panel Rehearing and
Rehearing En Banc
entered January 26, 2021 .......................... 105a

1a
[ENTERED: November 3, 2020]
NOTE: This disposition is nonprecedential.
United States Court of Appeals
for the Federal Circuit
VOIP-PAL.COM, INC.,
Plaintiff-Appellant
v.
APPLE, INC.,
Defendant-Appellee
2020-1241
Appeal from the United States District Court
for the Northern District of California in No. 5:18-cv06216-LHK, Judge Lucy H. Koh.
---------------------------------------VOIP-PAL.COM, INC.,
Plaintiff-Appellant
v.
AMAZON.COM, INC., AMAZON
TECHNOLOGIES, INC.,
Defendants-Appellees
2020-1244

2a
Appeal from the United States District Court
for the Northern District of California in No. 5:18-cv07020-LHK, Judge Lucy H. Koh.
JUDGMENT
LEWIS EMERY HUDNELL, III, Hudnell Law
Group PC, Mountain View, CA, for plaintiffappellant.
MARK ANDREW PERRY, Gibson, Dunn &
Crutcher LLP, Washington, DC, for defendantappellee Apple, Inc. Also represented by BRIAN
BUROKER; RYAN IWAHASHI, Palo Alto, CA.
DANIEL T. SHVODIAN, Perkins Coie, LLP, Palo
Alto, CA, for defendants-appellees Amazon
Technologies,
Inc.,
Amazon.com,
Inc.
Also
represented by WING LIANG; NATHAN K. KELLEY,
Washington, DC.
THIS CAUSE having been heard and considered, it is
ORDERED and ADJUDGED:
PER CURIAM (MOORE, REYNA, and TARANTO,
Circuit Judges).
AFFIRMED. See Fed. Cir. R. 36.
ENTERED BY ORDER OF THE COURT
November 3, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

3a
[ENTERED: November 1, 2019]
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
SAN JOSE DIVISION
VOIP-PAL.COM, INC.,
Plaintiff,
v.
APPLE, INC.,
Defendant.

VOIP-PAL.COM, INC.,
Plaintiff,
v.

Case No.
18-CV-06216-LHK
ORDER GRANTING
CONSOLIDATED
MOTION TO DISMISS
WITH PREJUDICE
Re: Dkt. No. 89
Case No.
18-CV-07020-LHK
Re: Dkt. No. 67

AMAZON.COM, INC,
and AMAZON
TECHNOLOGIES, INC.,
Defendants.
Plaintiff Voip-Pal.Com, Inc. filed two related
patent infringement suits alleging infringement of
U.S. Patent Nos. 9,537,762 (the “’762 Patent”);
9,813,330 (the “’330 Patent”), 9,826,002 (the “’002
Patent”); and 9,948,549 (the “’549 Patent”)
(collectively, the “Patents-in-Suit”). One suit is
against Defendant Apple Inc. (“Apple”), Case No. 18-

4a
CV-06216, and the other is against Defendants
Amazon.com, Inc. and Amazon Technologies, Inc.
(collectively, the “Amazon Defendants”), Case No. 18CV-07020. Before the Court is Defendants’
consolidated motion to dismiss Plaintiff’s amended
complaints pursuant to Federal Rule of Civil
Procedure 12(b)(6). Defendants contend that the
asserted claims of the Patents-in-Suit fail to recite
patent-eligible subject matter under 35 U.S.C. § 101.
ECF No. 671; Case No. 18-CV-06216, ECF No. 89
(collectively, “Def. Cons. Mot. to Dismiss”). Having
considered the submissions of the parties, the
relevant law, and the record in this case, the Court
GRANTS Defendants’ consolidated motion to dismiss
with prejudice.
I.

BACKGROUND
A. Factual Background

The following facts are drawn from Plaintiff’s
amended complaints, ECF No. 61 and Case No. 18CV-06216, ECF No. 81, as the Court must accept the
allegations therein as true at the motion to dismiss
stage, Manzarek v. St. Paul Fire & Marine Ins. Co.,
519 F.3d 1025, 1031 (9th Cir. 2008).
1. The Parties and Technologies
Plaintiff is a Nevada corporation with its
principal place of business in Bellevue, Washington.
ECF No. 61 (“Amazon FAC”). Plaintiff, through its
wholly owned subsidiary Digifonica, owns various
patents relating to “Internet Protocol (‘IP’) based
All references to the docket refer to Case No. 5:18-CV-07020
unless otherwise specified.

1

5a
communication.” Id. ¶¶ 23, 46. An IP-based system
uses the Internet to carry voice and other
communications instead of a traditional switched
circuit network, such as the Public Switched
Telephone Network (“PSTN”). Id. ¶¶ 17, 21.
Amazon.com, Inc. is a Delaware corporation
with its principal place of business in Seattle,
Washington. Id. ¶ 2. Amazon Technologies, Inc. is a
Nevada corporation with its principal place of
business in Seattle, Washington. Id. ¶ 3. Of relevance
to the present case, the Amazon Defendants sell
systems and devices that “support communications,
including calling and messaging,” using what
Plaintiff refers to as the “Amazon Alexa Calling and
Messaging System.” Id. ¶ 46. These devices include,
but are not limited to “the Amazon Echo, Echo Plus,
Echo Dot, Echo Spot, Echo Show, Echo Connect,
Amazon Tap,” and certain Amazon Fire devices, as
well as phones and tablets equipped with certain
versions of the Alexa app. Id. ¶ 47.
Apple is a California corporation with its
principal place of business in Cupertino, California.
Case No. 18-CV-06216, ECF No. 81 (“Apple FAC”)
¶ 2. Apple operates two systems that are relevant to
the present case. First, “Apple’s iMessage® system
and service allows devices to communicate between
participants, e.g., as between a first participant or
user registered with Apple (such as through an Apple
identifier) or that is using an Apple device, and a
second user or participant that may or may not be a
user registered with Apple or that may or may not be
using an Apple device.” Id. ¶ 48. Second, “Apple’s
Facetime® system and service allows devices to initiate
an audio or video/audio communication between at

6a
least two participants which may or may not be
associated with an Apple identification or Apple
devices/software.” Id. ¶ 49. In addition, “Apple enables
the use of WiFi Calling in conjunction with its
iMessage® and Facetime® systems and services, which
allows an Apple device to initiate communications
between participants using internet protocol (IP)
based communication methods and participants using
external networks, such as the PSTN.” Id. ¶ 50.
2. The Patents-in-Suit
Plaintiff alleges that Defendants infringe four
patents: the ’762 Patent, the ’330 Patent, the ’002
Patent, and the ’549 Patent. The ’762 Patent was filed
on October 7, 2015 and issued on January 3, 2017.
The ’330 Patent was filed on December 30, 2016 and
issued on November 7, 2017. The ’002 Patent was filed
on January 12, 2017 and issued on November 21,
2017. The ’549 Patent was filed on October 19, 2017
and issued on April 17, 2018. The Patents-in-Suit are
all entitled “Producing Routing Messages for Voice
over IP Communications.” The Patents-in-Suit share
the same specification, which is also the specification
for the two patents in a related case. The parties cite
the specification of the ’002 Patent, so the Court does
the same.
Specifically, Plaintiff asserts the following
twenty claims:
Patent No.
’762
’330
’002
’549

Asserted Claims
6, 16, 21, 26, 30
3, 4, 12, 14
1, 12, 22, 26, 29
2, 6, 9, 12, 17, 24

7a
In general, the Patents-in-Suit relate to a
“system architecture and operation,” FAC ¶ 35, for
routing
IP-based
communications,
including
communications between private IP-based networks
and external networks such as the Public Switched
Telephone Network (“PSTN”). FAC ¶ 26. The PSTN is
the traditional landline telephone system, used
primarily for voice communications. FAC ¶ 28. An IPbased communication system, by contrast, uses the
Internet to carry communications such as phone
calls—commonly referred to as “Voice-over-IP”—and
other media (video, photos, etc.). IP telephones are
“typically personal computer (PC) based telephones
connected within an IP network, such as the public
Internet or a private network of a large organization.”
’002 Patent at 1:22-26. A private network is an
organization’s internal communication network. FAC
¶ 29. Private networks predate the Patents-in-Suit
and Voice-over-IP generally. FAC ¶¶ 24, 29. One
common form of private network is the “private
branch exchange (PBX),” which employs private
numbering schemes such as “extensions.” FAC ¶¶ 24,
29.
Of course, from time to time, users on a private
network may need to place a call to someone outside
of the private network, such as through the PSTN or
the public Internet. For that reason, “IP telephony
switches installed within the IP network enable voice
calls to be made within or between IP networks, and
between an IP network and a switched circuit
network (SCN), such as the public switched telephone
network.” ’002 Patent at 1:30-34. The Patents-in-Suit
refer to communications within the private network
as “system communications” and communications
with someone outside of the private network as

8a
“external network communications.” The Court does
the same.
One conventional method for routing calls to an
external network is “to require users to input a special
code (e.g., a prefix digit of ‘9’)” in order to initiate a
call on the PSTN; otherwise, the call proceeds on the
private network. FAC ¶¶ 24, 30. The Patents-in-Suit
here disclose a different method for routing calls
through the appropriate network and, ultimately, to
the recipient of the call.
Specifically, the Patents-in-Suit disclose a
process for routing a call (or transmission of other
media) using “identifiers” associated with “callers and
callees.”2 ’002 Patent at 1:58-64. Such identifiers
could be, in layman’s terms, a phone number or
username. See id. at 2:13-17; 15:23-25. According to
Plaintiff, the technology “evaluat[es] a called party
identifier based on profile settings (‘attributes’)
associated with the calling party.” FAC ¶ 32. Based
upon that evaluation, the technology “produces a
routing message,” id. ¶ 34, containing an appropriate
routing “address”—“e.g., an address in the system
associated with the second participant or of a gateway
to an external network,” id. ¶ 40—“for receipt by a call
controller . . . , thereby causing the call controller
to establish the call,” id. ¶ 34. Thus, “the asserted
claims . . . use a caller’s attributes to evaluate a callee
identifier against network routing criteria to cause a
call to automatically be routed over a system network
or another network (e.g., such as the PSTN)
The Patents-in-Suit use “caller” and “first participant” to mean
the individual initiating a call. The Patents-in-Suit use “callee”
and “second participant” to mean the recipient of a call. The
Court does the same.

2

9a
interconnected to the system network through a
gateway . . . without the user manually specifying
which network to use for routing . . . (e.g., by dialing
a prefix of ‘9’ to make a PSTN call).” FAC ¶ 33.
Notably, there is no need for the user to manually
specify which network to use for routing the call. FAC
¶ 33.
Figure 1 of the specification is helpful to
understanding the invention.

Looking at Figure 1, “a system for making voice over
IP telephone/videophone calls is shown generally at
[item] 10.” ’002 Patent at 13:20-21. Item 11 is a “super
node” located, for example, in Vancouver, Canada and
providing service to a user (item 12) in Vancouver.
Item 21 is a “super node” located, for example, in
London, England and providing service to a user in
London. Id. at 13:21-26. The Vancouver super node
includes a call controller (item 14), a routing

10a
controller (item 16), a database (item 18), a voicemail
server (item 19), and a media relay (item 9). Id. at
13:48-50. These components of the super node are
implemented by computer, either “on a common
computer system or by separate computers.” Id. at
13:51-53. Users such as a Vancouver user (item 12)
and a Calgary user (item 15) communicate with the
Vancouver super node using the internet (item 13).
Id. at 13:55-59. Specifically, each user has “a
telephone . . . that is capable of communicating with
the Vancouver supernode . . . using Session Initiation
Protocol (SIP) messages.” Id. at 13:63-67.
Suppose the Vancouver user (item 12) is
attempting to call the Calgary user (item 15). The
caller (item 12) sends an SIP invite message to the
Vancouver super node (item 10). Id. at 14:51-54. The
SIP invite message contains, among other things, a
caller ID field and a callee identifier field. Id. at 16:1920. In response, the call controller (item 14) sends a
routing controller request message (referred to in the
specification as “RC request message”) to the routing
controller (item 16). Id. at 14:51-56. The RC request
message contains, among other things, copies of the
caller ID field and the callee identifier field from the
SIP invite message. Id. at 17:55-58, 16:19-21. The RC
request message causes the routing controller (item
16) to query the database (item 18) using the caller ID
field in order to locate and retrieve a record
associating calling attributes with the caller. Id. at
14:56-58; 18:33-37. Example attributes include
national dialing digits, international dialing digits,
country code, local area code, the maximum number
of concurrent calls the user is entitled to cause, and
username. Id. at 18:40-58; 19:37-49. The routing
controller (item 16) then compares the callee

11a
identifier to the caller’s attributes. Id. at 20:13 –
21:29. Based upon the comparison, the routing
controller (item 16) produces a routing message,
which is then sent back to the call controller (item 14).
Id. at 14:56-58. The call controller (item 14)
communicates with the media relay (item 9) to create
a communications link with the callee (item 15)
through the media relay (item 9) “to the same node, a
different node or to a communications supplier
gateway” (item 20). Id. at 14:61-64.
B. Procedural History
The instant motion pertains to two patent
infringement suits that have been consolidated for
pre-trial purposes. ECF No. 40. On May 24, 2018,
Plaintiff filed its complaint against Apple in Case No.
18-CV-06216 (the “Apple Action”) in the U.S. District
Court for the District of Nevada. Case No. 18-CV06216, ECF No. 1. The Apple Action was
subsequently transferred and reassigned to this
Court. Case No. 18-CV-06216, ECF Nos. 24, 43.
On June 15, 2018, Plaintiff filed a complaint
against Amazon.com, Inc., Amazon Technologies,
Inc., and Amazon Lab 126 in Case No. 18-CV-07020
(the “Amazon Action”) in the U.S. District Court for
the District of Nevada. ECF No. 1. Plaintiff then
dismissed its allegations against Amazon Lab 125.
ECF No. 14, 17. The Amazon Action was subsequently
transferred and reassigned to this Court. ECF Nos.
20, 29.
Defendants filed a consolidated motion to
dismiss the Apple Action and the Amazon Action on
February 15, 2019. ECF No. 57. On March 15, 2019,
however, Plaintiff moved for leave to amend its

12a
complaints in both actions. ECF No. 48; Case No. 18CV-06216, ECF No. 67. The Court granted Plaintiff’s
motion, ECF No. 59, and denied Defendants’ motions
to dismiss as moot, ECF No. 64.
On May 17, 2019, Plaintiff filed the operative
amended complaints—the Amazon FAC and the
Apple FAC. ECF No. 61; Case No. 18-CV-06216, ECF
No. 81. On June 5, 2019, Defendants filed the
identical consolidated motion to dismiss the amended
complaints based upon 35 U.S.C. § 101 in both cases.
ECF No. 67; Case No. 18-CV-06216, ECF No. 89.
Plaintiff filed a consolidated opposition, ECF No. 69
(“Pl. Opp.”), and Defendants replied, ECF No. 70
(“Def. Reply”). The motion is now before the Court.
In addition, Apple has filed inter partes review
petitions with the Patent Trial and Appeal Board
(“PTAB”) for all four Patents-in-Suit. ECF No. 77 at
4. Those petitions are still pending.
C. The Related Consolidated Case
The instant actions are related to four other
patent infringement suits brought by Plaintiff VoipPal.Com, Inc. against Defendants Apple (18-CV06217), AT&T Corp. (18-CV-06177), Twitter Inc. (18CV-04523), and Cellco Partnership d/b/a/ Verizon
Wireless Services, LLC (“Verizon”) (18-CV-06054).
This Court consolidated the four suits for pretrial
purposes, Case No. 18-CV-06217, ECF No. 96 at 9, so
the Court refers to them collectively as “the Related
Consolidated Case.” In those actions, Plaintiff alleged
that Apple, AT&T Corp., and Verizon (but not Twitter
Inc.) infringe various claims of U.S. Patent No.
8,542,815 (the “’815 Patent”) and that all four
defendants infringe various claims of U.S. Patent No.

13a
9,179,005 (the “’005 Patent”). Id. at 2. The ’815 Patent
and the ’005 Patent have the same specification and
title as the Patents-in-Suit.
Claiming that the ’815 and ’005 patents are
invalid for lack of patentable subject matter under
§ 101, the defendants filed an omnibus motion to
dismiss all four suits pursuant to Federal Rule of Civil
Procedure 12(b)(6). Id. at 10-11. This Court found that
the asserted claims of the ’815 and ’005 patents are
directed to unpatentable subject matter and granted
the motions to dismiss. Id. at 44. Accordingly, the
Court entered judgment in favor of Defendants Apple,
Twitter Inc., AT&T Corp., and Verizon on March 25,
2019. Case No. 18-CV-06217, ECF No. 98. Plaintiff
then appealed to the Federal Circuit, and that appeal
is still pending. Case No. 18-CV-06217, ECF No. 100.
II.

LEGAL STANDARDS
A. Motion to Dismiss pursuant to Federal
Rule of Civil Procedure 12(b)(6)

Federal Rule of Civil Procedure 8(a)(2) requires
a complaint to include “a short and plain statement of
the claim showing that the pleader is entitled to
relief.” A complaint that fails to meet this standard
may be dismissed pursuant to Federal Rule of Civil
Procedure 12(b)(6). A complaint must contain
“enough facts to state a claim to relief that is plausible
on its face.” Bell Atl. Corp. v. Twombly, 550 U.S. 544,
570 (2007). “A claim has facial plausibility when the
plaintiff pleads factual content that allows the court
to draw the reasonable inference that the defendant
is liable for the misconduct alleged.” Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009). “Dismissal under Rule
12(b)(6) is appropriate . . . where the complaint lacks

14a
a cognizable legal theory or sufficient facts to support
a cognizable legal theory.” Mendiondo v. Centinela
Hosp. Med. Ctr., 521 F.3d 1097, 1104 (9th Cir. 2008).
In ruling on a Rule 12(b)(6) motion, a court
must “accept factual allegations in the complaint as
true and construe the pleadings in the light most
favorable to the nonmoving party.” Manzarek, 519
F.3d at 1031. A court need not, however, “assume the
truth of legal conclusions merely because they are
cast in the form of factual allegations.” Fayer v.
Vaughn, 649 F.3d 1061, 1064 (9th Cir. 2011) (per
curiam) (internal quotation marks omitted). Mere
“conclusory allegations of law and unwarranted
inferences are insufficient to defeat a motion to
dismiss.” Adams v. Johnson, 355 F.3d 1179, 1183 (9th
Cir. 2004).
B. Challenging Patent Eligibility under 35
U.S.C. § 101 on Motion to Dismiss
Defendant’s motion to dismiss argues that the
Patents-in-Suit fail to claim patent-eligible subject
matter under 35 U.S.C. § 101, as elucidated by the
U.S. Supreme Court’s decision in Alice Corp. Pty. Ltd.
v. CLS Bank International, 573 U.S. 208 (2014).
The ultimate question whether a claim recites
patent-eligible subject matter under § 101 is a
question of law. Intellectual Ventures I LLC v. Capital
One Fin. Corp., 850 F.3d 1332, 1338 (Fed. Cir. 2017)
(“Patent eligibility under § 101 is an issue of law[.]”);
In re Roslin Inst. (Edinburgh), 750 F.3d 1333, 1335
(Fed. Cir. 2014) (same). Although the Federal Circuit
has said that the § 101 analysis “may contain disputes
over underlying facts,” it has also made clear that
patent eligibility can often be resolved on a motion to

15a
dismiss. Berkheimer v. HP Inc., 881 F.3d 1360, 1368
(Fed. Cir. 2018) (“As our cases demonstrate, not every
§ 101 determination contains genuine disputes over
the underlying facts material to the § 101 inquiry.”);
see also Cleveland Clinic Found. v. True Health
Diagnostics LLC, 859 F.3d 1352, 1360 (Fed. Cir. 2017)
(“[W]e have repeatedly affirmed § 101 rejections at
the motion to dismiss stage, before claim construction
or significant discovery has commenced.”); Secured
Mail Sols. LLC v. Universal Wilde, Inc., 873 F.3d 905,
912 (Fed. Cir. 2017) (affirming determination of
ineligibility made on 12(b)(6) motion). Likewise,
“claim construction is not an inviolable prerequisite
to a validity determination under § 101,” though it
may be desirable or even necessary in some cases.
Bancorp Servs., L.L.C. v. Sun Life Assurance Co. of
Can. (U.S.), 687 F.3d 1266, 1273 (Fed. Cir. 2012).
In other words, where the court has a “full
understanding of the basic character of the claimed
subject matter,” the question of patent eligibility may
properly be resolved on the pleadings. Content
Extraction & Transmission LLC v. Wells Fargo Bank,
Nat’l Ass’n, 776 F.3d 1343, 1349 (Fed. Cir. 2014).
C. Patent-eligible Subject Matter under
35 U.S.C. § 101
Section 101 of Title 35 of the United States
Code “defines the subject matter that may be
patented under the Patent Act.” Bilski v. Kappos, 561
U.S. 593, 601 (2010). Under § 101, the scope of
patentable subject matter encompasses “any new and
useful process, machine, manufacture, or composition
of matter, or any new and useful improvement
thereof.” Id. (quoting 35 U.S.C. § 101). These

16a
categories are broad, but they are not limitless.
Section 101 “contains an important implicit
exception: Laws of nature, natural phenomena, and
abstract ideas are not patentable.” Alice, 573 U.S. at
216 (citation omitted). These three categories of
subject matter are excepted from patent-eligibility
because “they are the basic tools of scientific and
technological work,” which are “free to all men and
reserved exclusively to none.” Mayo Collaborative
Servs. v. Prometheus Labs., Inc., 566 U.S. 66, 71
(2012) (citations omitted). The U.S. Supreme Court
has explained that allowing patent claims for such
purported inventions would “tend to impede
innovation more than it would tend to promote it,”
thereby thwarting the primary object of the patent
laws. Id. At the same time, the U.S. Supreme Court
has cautioned that “[a]t some level, all inventions
embody, use, reflect, rest upon, or apply laws of
nature, natural phenomena, or abstract ideas.” Alice,
573 U.S. at 217 (alterations and internal quotation
marks omitted). Accordingly, courts must “tread
carefully in construing this exclusionary principle lest
it swallow all of patent law.” Id.
In Alice, the leading case on patent-eligible
subject matter under § 101, the U.S. Supreme Court
refined the “framework for distinguishing patents
that claim laws of nature, natural phenomena, and
abstract ideas from those that claim patent-eligible
applications of those concepts” originally set forth in
Mayo, 566 U.S. at 77. Alice, 573 U.S. at 217. This
analysis— commonly known as the “Alice”
framework—comprises two steps:
First, we determine whether the claims
at issue are directed to one of those

17a
patent-ineligible concepts. If so, we then
ask, “[w]hat else is there in the claims
before us?” To answer that question, we
consider the elements of each claim both
individually and “as an ordered
combination” to determine whether the
additional elements “transform the
nature of the claim” into a patenteligible application. We have described
step two of this analysis as a search for
an “‘inventive concept’”—i.e., an element
or combination of elements that is
“sufficient to ensure that the patent in
practice amounts to significantly more
than a patent upon the [ineligible
concept] itself.”
Id. (alterations in original) (citations omitted); see
also In re TLI Commc’ns LLC Patent Litig., 823 F.3d
607, 611 (Fed. Cir. 2016) (describing “the now familiar
two-part test described by the Supreme Court in
Alice”). The Court refers to these steps as Alice Step
One and Alice Step Two, respectively.
1. Alice Step One: Identification of
Claims Directed to a Patent-Ineligible
Concept
At Alice Step One, a court must “determine
whether the claims at issue are directed to a patentineligible concept,” such as an abstract idea. Alice,
573 U.S. at 218. “The ‘abstract ideas’ category
embodies the longstanding rule that an idea of itself
is not patentable.” Id. (internal quotation marks and
alterations omitted). However, neither the U.S.
Supreme Court nor the Federal Circuit has set forth

18a
a “definitive rule” separating “abstract ideas” from
concepts that are sufficiently concrete so as to require
no further inquiry under the first step of the Alice
framework. Enfish, LLC v. Microsoft Corp., 822 F.3d
1327, 1334 (Fed. Cir. 2016); see also Alice, 573 U.S. at
221 (in which the Court did not “labor to delimit the
precise contours of the ‘abstract ideas’ category in this
case”); Internet Patents Corp. v. Active Network, Inc.,
790 F.3d 1343, 1345 (Fed. Cir. 2015) (“[P]recision has
been elusive in defining an all-purpose boundary
between the abstract and the concrete[.]”). As a result,
in evaluating whether particular claims are directed
to patent-ineligible abstract ideas, courts have
generally begun by “compar[ing] claims at issue to
those claims already found to be directed to an
abstract idea in previous cases.” Enfish, 822 F.3d at
1334.
Two of the U.S. Supreme Court’s leading cases
concerning the “abstract idea” exception involved
claims held to be abstract because they were drawn to
longstanding, fundamental economic practices. See
Alice, 573 U.S. at 219 (claims “drawn to the concept of
intermediated settlement, i.e., the use of a third party
to mitigate settlement risk” were directed to a patentineligible abstract idea); Bilski, 561 U.S. at 611-12
(claims drawn to “the basic concept of hedging, or
protecting against risk” were directed to a patentineligible abstract idea because “[h]edging is a
fundamental economic practice long prevalent in our
system of commerce and taught in any introductory
finance class” (citation omitted)). Alice is of particular
relevance here, as it involved a computerized
invention. 573 U.S. at 213. In general, however,
determining whether a computer-implemented claim
is abstract has proven more “vexing.” CLS Bank Int’l

19a
v. Alice Corp. Pty., 717 F.3d 1269, 1276 (Fed. Cir.
2013), aff’d, 573 U.S. 208 (2014) (“§ 101 appears
deceptively simple on its face, yet its proper
application to computer-implemented inventions . . .
has long vexed this and other courts.”). Nevertheless,
courts considering computer-implemented inventions
have distilled “some important principles” from
relevant U.S. Supreme Court and Federal Circuit
precedents in determining whether an invention is
directed to an abstract idea. DDR Holdings, LLC v.
Hotels.com, L.P., 773 F.3d 1245, 1256 (Fed. Cir. 2014).
First, the U.S. Supreme Court has recognized
that information itself is intangible. See Microsoft
Corp. v. AT & T Corp., 550 U.S. 437, 451 n.12 (2007).
Accordingly, the Federal Circuit has generally
invalidated claims that are directed to some
combination of acquiring information, analyzing
information, and/or displaying the results of that
analysis. See FairWarning IP, LLC v. Iatric Sys., Inc.,
839 F.3d 1089, 1094-95 (Fed. Cir. 2016) (claims
“directed to collecting and analyzing information to
detect misuse and notifying a user when misuse is
detected” were drawn to a patent-ineligible abstract
idea); Elec. Power Grp., LLC v. Alstom S.A., 830 F.3d
1350, 1354 (Fed. Cir. 2016) (claims directed to an
abstract idea because “[t]he advance they purport to
make is a process of gathering and analyzing
information of a specified content, then displaying the
results, and not any particular assertedly inventive
technology for performing those functions”); In re TLI
Commc’ns LLC, 823 F.3d at 611 (claims were
“directed to the abstract idea of classifying and
storing digital images in an organized manner”); see
also Elec. Power Grp., 830 F.3d at 1353-54 (collecting
cases).

20a
In another important strand of cases, courts
consider whether the claims “purport to improve the
functioning of the computer itself,” Alice, 573 U.S. at
225—which may suggest that the claims are not
abstract—or instead whether “computers are invoked
merely as a tool” to carry out an abstract process,
Enfish, 822 F.3d at 1336. The Federal Circuit has
followed this approach to find claims patent-eligible
in several cases. Compare Visual Memory LLC v.
NVIDIA Corp., 867 F.3d 1253, 1259–60 (Fed. Cir.
2017) (claims directed to an improved memory system
were not abstract because they “focus[ed] on a ‘specific
asserted improvement in computer capabilities’—the
use of programmable operational characteristics that
are configurable based on the type of processor”
(quoting Enfish, 822 F.3d at 1336)); and McRO, Inc.
v. Bandai Namco Games Am. Inc., 837 F.3d 1299,
1314 (Fed. Cir. 2016) (claims directed to automating
part of a preexisting method for 3-D facial expression
animation were not abstract because they “focused on
a specific asserted improvement in computer
animation, i.e., the automatic use of rules of a
particular type”); with Enfish, 822 F.3d at 1335–36
(claims were not abstract because they focused “on the
specific asserted improvement in computer
capabilities (i.e., the self-referential table for a
computer database)”).
In the same vein, the Federal Circuit has found
that claims directed to a “new and useful technique”
for performing a particular task were not abstract.
See Thales Visionix Inc. v. United States, 850 F.3d
1343, 1349 (Fed. Cir. 2017) (holding that “claims
directed to a new and useful technique for using
sensors to more efficiently track an object on a moving
platform” were not abstract); Rapid Litig. Mgmt. Ltd.

21a
v. CellzDirect, Inc., 827 F.3d 1042, 1048, 1050 (Fed.
Cir. 2016) (holding that claims directed to “a new
and useful laboratory technique for preserving
hepatocytes,” a type of liver cell, were not abstract);
see also Diamond v. Diehr, 450 U.S. 175, 187 (1981)
(holding that claims for a method to cure rubber that
employed a formula to calculate the optimal cure time
were not abstract).
By contrast, courts have frequently invalidated
claims that have a close analogy in the brick-andmortar world, such that the claims cover
“‘fundamental practices long prevalent in our system’
and ‘methods of organizing human activity.’”
Intellectual Ventures I LLC v. Symantec Corp., 838
F.3d 1307, 1317 (Fed. Cir. 2016) (quoting Alice, 573
U.S. at 219) (alterations omitted) (finding an email
processing software program to be abstract through
comparison to a “brick-and-mortar” post office);
Intellectual Ventures I LLC v. Symantec Corp., 100 F.
Supp. 3d 371, 383 (D. Del. 2015) (“Another helpful
way of assessing whether the claims of the patent are
directed to an abstract idea is to consider if all of the
steps of the claim could be performed by human
beings in a non-computerized ‘brick and mortar’
context.” (citing buySAFE, Inc. v. Google, Inc., 765
F.3d 1350, 1353 (Fed. Cir. 2014)).
Courts will also (or alternatively, as the facts
require) consider a related question of whether the
claims are directed to a mental process or a process
that could be performed with pencil and paper. See
Synopsys, Inc. v. Mentor Graphics Corp., 839 F.3d
1138, 1147 (Fed. Cir. 2016) (claims for translating a
functional description of a logic circuit into a
hardware component description of the logic circuit

22a
were patent-ineligible because the “method can be
performed mentally or with pencil and paper”);
CyberSource Corp. v. Retail Decisions, Inc., 654 F.3d
1366, 1372 (Fed. Cir. 2011) (claim for verifying the
validity of a credit card transaction over the Internet
was patent-ineligible because the “steps can be
performed in the human mind, or by a human using a
pen and paper”); see also, e.g., Mortg. Grader, Inc. v.
First Choice Loan Servs. Inc., 811 F.3d 1314, 1324
(Fed. Cir. 2016) (claims for computer-implemented
system to enable borrowers to shop for loan packages
anonymously were abstract where “[t]he series of
steps covered by the asserted claims . . . could all be
performed by humans without a computer”).
At all events, however, the Federal Circuit has
emphasized that “the first step of the [Alice] inquiry
is a meaningful one.” Enfish, 822 F.3d at 1335. In
particular, the court’s task is not to determine
whether the claims merely “involve” an abstract idea
at some level, see id., but rather to examine the claims
“in their entirety to ascertain whether their character
as a whole is directed to excluded subject matter,”
Internet Patents, 790 F.3d at 1346.
2. Alice Step Two: Evaluation of Abstract
Claims for an Inventive Concept
A claim drawn to an abstract idea is not
necessarily invalid if the claim’s limitations—
considered individually or as an ordered
combination—serve to “transform the claims into a
patent-eligible application.” Content Extraction, 776
F.3d at 1348. Thus, the second step of the Alice
analysis (the search for an “inventive concept”) asks
whether the claim contains an element or

23a
combination of elements that “ensure[s] that the
patent in practice amounts to significantly more than
a patent upon the [abstract idea] itself.” 573 U.S. at
217 (citation omitted).
The U.S. Supreme Court has made clear that
transforming an abstract idea to a patent-eligible
application of the idea requires more than simply
reciting the idea followed by “apply it.” Id. at 221
(quoting Mayo, 566 U.S. at 72). In that regard, the
Federal Circuit has repeatedly held that “[f]or the
role of a computer in a computer-implemented
invention to be deemed meaningful in the context of
this analysis, it must involve more than performance
of ‘well-understood, routine, [and] conventional
activities previously known to the industry.’” Content
Extraction, 776 F.3d at 1347-48 (alteration in
original) (quoting Alice, 573 U.S. at 225); see also
Mortg. Grader, 811 F.3d at 1324-25 (holding that
“generic computer components such as an ‘interface,’
‘network,’ and ‘database’ . . . do not satisfy the
inventive concept requirement”); Bancorp Servs., 687
F.3d at 1278 (“To salvage an otherwise patentineligible process, a computer must be integral to the
claimed invention, facilitating the process in a way
that a person making calculations or computations
could not.”).
Likewise, “[i]t is well-settled that mere recitation
of concrete, tangible components is insufficient to
confer patent eligibility to an otherwise abstract idea”
where those components simply perform their “wellunderstood, routine, conventional” functions. In re
TLI Commc’ns LLC, 823 F.3d at 613 (citation omitted)
(ruling that a “telephone unit,” a “server,” an “image
analysis unit,” and a “control unit” limitations did not

24a
supply an inventive concept because “the recited
physical components behave exactly as expected
according to their ordinary use”). In Alice, for
instance, the U.S. Supreme Court held “the use of a
computer to obtain data, adjust account balances, and
issue automated instructions” are “generic computer
functions.” 573 U.S. at 225. “The question of whether
a claim element or combination of elements is wellunderstood, routine and conventional to a skilled
artisan in the relevant field is a question of fact” that
“must be proven by clear and convincing evidence.”
Berkheimer, 881 F.3d at 1368. Moreover, “[t]he mere
fact that something is disclosed in a piece of prior art,
for example, does not mean it was well-understood,
routine, and conventional.” Id. at 1369.
In addition, the U.S. Supreme Court explained
in Bilski that “limiting an abstract idea to one field of
use or adding token postsolution components [does]
not make the concept patentable.” 561 U.S. at 612
(citing Parker v. Flook, 437 U.S. 584 (1978)); see also
Alice, 573 U.S. at 222 (same). The Federal Circuit has
similarly stated that attempts “to limit the use of the
abstract idea to a particular technological
environment” are insufficient to render an abstract
idea patent-eligible. Ultramercial, Inc. v. Hulu, LLC,
772 F.3d 709, 716 (Fed. Cir. 2014) (internal quotation
marks and citation omitted); see also Intellectual
Ventures I LLC v. Capital One Bank (USA), 792 F.3d
1363, 1366 (Fed. Cir. 2015) (“An abstract idea does
not become nonabstract by limiting the invention to a
particular field of use or technological environment,
such as the Internet.”).
By contrast, a “non-conventional and nongeneric arrangement of known, conventional pieces”

25a
can amount to an inventive concept. BASCOM Glob.
Internet Servs., Inc. v. AT&T Mobility LLC, 827 F.3d
1341, 1350 (Fed. Cir. 2016). For example, in
BASCOM, the Federal Circuit addressed a claim for
Internet content filtering performed at “a specific
location, remote from the end-users, with
customizable filtering features specific to each end
user.” Id. Because this “specific location” was
different from the location where Internet content
filtering was traditionally performed, the Federal
Circuit concluded this was a “non-conventional and
non-generic arrangement of known, conventional
pieces” that provided an inventive concept. Id. As
another example, in Amdocs (Israel) Ltd. v. Openet
Telecom, Inc., the Federal Circuit held that claims
relating to solutions for managing accounting and
billing data over large, disparate networks recited an
inventive concept because they contained “specific
enhancing limitation[s] that necessarily incorporate[d]
the invention’s distributed architecture.” 841 F.3d
1288, 1301 (Fed. Cir. 2016), cert. denied, 138 S. Ct.
469 (Nov. 27, 2017). The use of a “distributed
architecture,” which stored accounting data
information near the source of the information in the
disparate networks, transformed the claims into
patentable subject matter. Id.
3. Preemption Concerns
In addition to these specific guidelines, courts
sometimes find it helpful to assess claims against the
policy rationale for § 101. The U.S. Supreme Court
has recognized that the “concern that undergirds [its]
§ 101 jurisprudence” is that of preemption. Alice, 573
U.S. at 223. For that reason, courts have readily
concluded that a claim is not patent-eligible when the

26a
claim is so abstract that it preempts “use of [the
claimed] approach in all fields” and “would effectively
grant a monopoly over an abstract idea.” Bilski, 561
U.S. at 612. The converse, however, is not true:
“[W]hile preemption may signal patent ineligible
subject matter, the absence of complete preemption
does not demonstrate patent eligibility.” FairWarning,
839 F.3d at 1098 (internal quotation marks omitted).
That is, a claim is not eligible simply because its
application of the abstract idea is narrow and other
uses remain. See, e.g., Ariosa Diagnostics, Inc. v.
Sequenom, Inc., 788 F.3d 1371, 1379 (Fed. Cir. 2015)
(“Sequenom’s attempt to limit the breadth of the
claims by showing alternative uses of cffDNA outside
of the scope of the claims does not change the
conclusion that the claims are directed to patent
ineligible subject matter.”).
III.

DISCUSSION

In their consolidated motion to dismiss,
Defendants contend that the asserted claims of the
Patents-in-Suit are invalid because the claims fall
within the “abstract ideas” exception to § 101. The
Court agrees. The Court begins its analysis by
identifying representative claims. The Court then
applies the Alice framework described above to each
of representative claims, beginning with Step One
and then moving to Step Two.
A. Scope of Analysis and Representative
Claims
The Federal Circuit has held that a district
court need not expressly address each asserted claim
where the court concludes that particular claims
are representative because all the claims are

27a
“substantially similar and linked to the same abstract
idea.” Content Extraction, 776 F.3d at 1348 (quotation
marks omitted); see also Mortg. Grader, 811 F.3d at
1324 n.6 (court did not err by discussing only one
claim where claims did not “differ in any manner that
is material to the patent-eligibility inquiry”); Alice,
573 U.S. 224-25 (finding 208 claims to be patentineligible based on analysis of one representative
claim). For instance, claims that “contain only minor
differences in terminology but require performance
of the same basic process, . . . should rise or fall
together.” Smart Sys. Innovations, LLC v. Chicago
Transit Auth., 873 F.3d 1364, 1368 n.7 (Fed. Cir.
2017) (internal quotation marks omitted). Courts may
likewise “treat a claim as representative . . . if the
patentee does not present any meaningful argument
for the distinctive significance of any claim
limitations not found in the representative claim.”
Berkheimer, 881 F.3d at 1365.
Here, Defendants contend that Claim 1 of the
’002 Patent is representative of all asserted claims
across the four Patents-in-Suit. Plaintiff does not
believe Claim 1 of the ’002 Patent is representative,
and instead insists that the Court analyze each
individual claim at issue in the instant case.
The Court takes a different approach from the
ones urged by the parties. The Court finds that the
asserted claims can be grouped into four categories
and designates a different representative claim for
each category. First, claim 1 of the ’002 Patent is
representative of the claims that disclose a five-step
method for classifying and then routing a
communication between participants. Second, claim 9
of the ’549 Patent is representative of the claims

28a
disclosing a particular method for classifying the
communication, viz., searching a “database” for the
“new second participant identifier.” ’549 Patent at
38:48-54. Third, claim 26 of the ’002 Patent is
representative of the claims in which the
communication is “blocked” instead of being
“established.” ’002 Patent at 42:32-38. Fourth, claim
21 of the ’762 Patent is representative of the claims in
which an “error message” is produced. ’762 Patent at
40:10-14.
The following table summarizes the asserted
claims and the corresponding representative claims.
Representative
Asserted Claims
Claim
Claim 1 of the ’002 Claims 12, 22, 29 of the ’002
Patent
Patent
Claims 2, 6, 17 of the ’549
Patent
Claim 9 of the ’549 Claim 24 of the ’549 Patent
Patent
Claims 3, 4, 12 of the ’330
Patent
Claims 16, 30 of the ’762
Patent
Claim 26 of the ’002 Claim 14 of the ’330 Patent
Patent
Claim 12 of the ’549 Patent
Claim 21 of the ’762 Claims 6, 26 of the ’762
Patent
Patent
1. Representative Claim 1: Claim 1 of the
’002 Patent
Claim 1 of the ’002 Patent (“Representative
Claim 1”) recites:

29a
1. A method of routing a communication in
a communication network system
between an Internet-connected first
participant device associated with a first
participant and a second participant
device associated with a second
participant, the method comprising:
in response to initiation of the
communication by the first participant
device, receiving, by a controller
comprising at least one processor, over
an Internet protocol (IP) network a first
participant identifier and a second
participant identifier, the second
participant identifier being associated
with the second participant device;
causing the at least one processor to
access a database comprising user
profiles, using the first participant
identifier, each user profile associating a
respective plurality of attributes with a
respective user, to locate a plurality of
first participant attributes;
processing the second participant
identifier, using the at least one
processor, based on at least one of the
plurality of first participant attributes
obtained from a user profile for the first
participant, to produce a new second
participant identifier;
classifying the communication, based on
the new second participant identifier, as
a system communication or an external

30a
network communication, using the at
least one processor;
when the communication is classified as
a system communication, producing a
system routing message identifying an
Internet address associated with the
second participant device, using the at
least one processor, wherein the system
routing
message
causes
the
communication to be established to the
second participant device; and
when the communication is classified as
an external network communication,
producing an external network routing
message identifying an Internet address
associated with a gateway to an external
network, using the at least one processor,
wherein the external network routing
message causes the communication to
the second participant device to be
established using the gateway to the
external network.
Id. at 37:30 – 38:2.
In plainer terms, Representative Claim 1
discloses a method of routing a communication
between a first participant and a second participant
by (1) receiving identifiers associated with the first
and second participants when a communication is
initiated, (2) searching a database using the first
participant identifier and locating a collection of
attributes associated with the first participant, (3)
processing the second participant identifier using at
least one first participant attribute to produce a new

31a
second participant identifier, (4) classifying the
communication as a “system communication” or an
“external network communication” “based on” the
new second participant identifier, and (5) producing a
“routing message” that causes the communication to
be established either within the system or through a
gateway to an external network.
The Court finds that Representative Claim 1 of
the ’002 Patent is representative of claims 12, 22, and
29 of the ’002 Patent and claims 2, 6, and 17 of the
’549 Patent. Although these claims span two different
patents, all of them describe inventions that are
“substantially similar to,” Content Extraction, 776
F.3d at 1348, or “require performance of,” Smart Sys.
Innovations, 873 F.3d at 1368 n.7, the five-step
method in Representative Claim 1. See, e.g., Elec.
Power Grp., 830 F.3d at 1352 (using a single claim as
representative of sixteen claims across three patents).
Claims 12, 22, and 29 of the ’002 Patent
Turning to the ’002 Patent, Claim 12 is the only
other independent asserted claim in the ’002 Patent.
Claim 12 discloses “an apparatus for routing
communications in a communication system” that
comprises “a controller comprising at least one
processor” that carries out the steps disclosed in
Representative Claim 1. Id. at 40:18-59. The Federal
Circuit has repeatedly emphasized that “the format of
the various method, system, and media claims . . .
‘does not change the patent eligibility analysis
under § 101.’” Bancorp Servs., 687 F.3d at 1276-77.
“[S]ystem claims that closely track method claims and
are grounded by the same meaningful limitations will
generally rise and fall together.” Accenture Glob.

32a
Servs., GmbH v. Guidewire Software, Inc., 728 F.3d
1336, 1341 (Fed. Cir. 2013). Because claim 12
“essentially
implement[s]
the
process
of”
Representative Claim 1 using generic electronic
components, it offers no “meaningful limitations
beyond the method claim[].” Id. at 1342.
The Court next addresses claim 29 because it
depends from claim 12. Claim 29 is directed to step (5)
of the process described in Representative Claim 1.
Specifically, claim 29 discloses that the “Internet
address associated with a gateway to an external
network,” ’002 Patent at 37:64-65, is “select[ed] from
among a plurality of Internet addresses associated
with a respective plurality of gateways to the external
network,” id. at 42:49-54. This addition does not
describe the claimed apparatus but rather the
architecture of the underlying communication system
upon which the apparatus operates. The description
claim 29 provides, moreover, is scant. Claim 29
discloses only that the communications system has
more than one gateway to the external network. Of
particular relevance, claim 29 does not specify how
the particular gateway is selected from the plurality
of gateways. Nor does claim 29 provide any
instruction as to how the communication system is
designed to support multiple gateways. Indeed, as
discussed in greater detail below, the patent never
defines “gateway” to be anything other than a
preexisting, generic portal between the private
network and the external network. See Part III.C.1.a.
Thus, the additional limitation in claim 29 is not
“distinctive,” Berkheimer, 881 F.3d at 1365, and does
not make claim 29 materially different from claim 12
or, by extension, Representative Claim 1.

33a
The same is true of claim 22, which depends
from Representative Claim 1. Claim 22 discloses that
“producing the system routing message comprises
causing the at least one processor to determine the
Internet address associated with the second
participant device based on the user profile for the
second participant.” ’002 Patent at 41:55-60. This
limitation purports to flesh out step (5) of the process
described in Representative Claim 1, which requires
“producing a system routing message identifying an
Internet address associated with the second
participant device, using the at least one processor.”
Yet, the contribution made by claim 22 is negligible.
Representative Claim 1 already disclosed that the
routing message “identif[ies]” the “Internet address
associated with the second participant device” and
that the “at least one processor” accomplishes this
task. Claim 22 adds only that the Internet address is
determined “based on the user profile for the second
participant.” The claim does not disclose how the
“user profile” is used, it says only that the
determination is “based on” the “user profile.” This
conclusory reference to a “user profile” hardly rises to
the level of a “meaningful limitation,” Accenture Glob.
Servs., 728 F.3d at 1341, that transmutes claim 22
into a different idea for purposes of patent-eligibility.
See Mortg. Grader, 811 F.3d at 1324 n.6.
Claims 2, 17, and 6 of the ’549 Patent
The Court next addresses claims 2, 17, and 6 of
the ’549 Patent. Claim 2 depends from independent
claim 1, which is not asserted. Claim 1 of the ’549
Patent is a method claim disclosing the same steps as
Representative Claim 1, with “minor differences in
terminology.” Smart Sys. Innovations, 873 F.3d at

34a
1368 n.7. Plaintiff does not contend otherwise. The
Court finds that claim 1 of the ’549 Patent embodies
“the same basic process,” id., as Representative Claim
1 and is therefore substantially similar to
Representative Claim 1. Claim 2 of the ’549 Patent
then merely clarifies that, at step (5), a system
communication is established “over an Internet
Protocol (IP) network.” ’549 Patent at 37:64-67. This
limitation is inherent in claim 1, which already
discloses that the system communication is
established “through” “an Internet Protocol (IP)
address,” id. at 52-53. Moreover, Plaintiff again does
not make a “meaningful argument,” Berkheimer, 881
F.3d at 1365, that claim 2 is distinct from claim 1 of
the ’549 Patent or Representative Claim 1.
Accordingly, the Court determines that claim 2 of the
’549 Patent is adequately represented by
Representative Claim 1.
Plaintiff likewise does not point to any
distinctive limitations in claim 17 of the ’549 Patent.
Claim 17 is an independent system claim for an
apparatus “comprising at least one processor”
configured to implement the method disclosed by
claim 1 of the ’549 Patent. ’549 Patent at 40:51 –
41:22. The Court finds that the addition of a generic
“processor” does not rank as a “meaningful
limitation,” Accenture Glob. Servs., 728 F.3d at 1341,
beyond claim 1 of the ’549 Patent, and that claim 17
is therefore also represented by Representative Claim
1.
Claim 6 is another method claim that depends
from claim 1 of the ’549 Patent. Plaintiff argues Claim
6 is distinctive because it recites a “specific
classification method[].” Pl. Opp. at 5. The Court

35a
disagrees. Claim 6 and Representative Claim 1
disclose “performance of the same basic process,”
Smart Sys. Innovations, 873 F.3d at 1368 n.7, of
classifying a communication as either a “system
communication”
or
an
“external
network
communication.” Claim 6 discloses that the
communication is classified based upon “whether the
second participant device is operably configured to
communicate via the communication system.” ’549
Patent at 38:25-29. In so doing, Claim 6 merely
explicates what was already inherent in the terms
“external network communication” or “system
communication”—namely, that (i) a system
communication is with a second participant device
that “is operably configured to communicate via the
communication system,” and (ii) an external network
communication is with a second participant device
that is “not operably configured to communicate via
the communication system.” Id. at 38:27-33. Claim 6
thus appends nothing material to Representative
Claim 1.
Accordingly, Representative Claim 1 of the ’002
Patent is representative of claims 12, 22, and 29 of the
’002 Patent and claims 2, 6, and 17 of the ’549 Patent.
2. Representative Claim 9: Claim 9 of the
’549 Patent
Next is claim 9 of the ’549 Patent
(“Representative Claim 9”), which depends from claim
8 of the ’549 Patent.3 ’549 Patent at 38:55. Claims 8
and 9 of the ’549 Patent recite:

3

Claim 8 of the ’549 is not asserted by Plaintiff.

36a
8. The method of claim 1, wherein
classifying the communication comprises
causing the at least one processor to:
determine whether a profile associated
with the new second participant
identifier exists in the database, and
when a profile associated with the new
second participant identifier does not
exist in the database, classify the
communication as an external network
communication.
9. The method of claim 8, wherein,
when a profile associated with the new
second participant identifier exists in
the database, causing the at least one
processor to classify the communication
as a system communication.
Id. at 38:48-59.
Representative Claim 9 discloses a method of
routing a communication between a first participant
and a second participant by (1) receiving an identifier
associated with the second participant when a
communication is initiated, (2) searching a memory
and locating at least one attribute associated with the
first participant, (3) processing the second participant
identifier using at least one first participant
attribute to produce a new second participant
identifier, (4) classifying the communication as a
“system communication” or an “external network
communication” based upon whether a profile
associated with the new second participant identifier

37a
exists in a database, and (5) producing a “routing
message” that causes the communication to be
established either within the system or through a
gateway to an external network.
Of relevance here, Representative Claim 9
depends from claim 8 of the ’549 Patent, which itself
depends from claim 1 of the ’549 Patent.
Representative Claim 9 appends to claim 1 of the ’549
Patent an additional limitation at step (4). Whereas
claim 1 of the ’549 Patent broadly recites “classifying”
the communication, Representative Claim 9 specifies
a particular method of “classifying,” viz., “classifying
based on whether a profile associated with the
processed second participant identifier exists in a
database.” Pl. Opp. at 5. To be precise, the
communication is classified as a “system
communication” if the profile exists in the database
and as an “external network communication” if not.
The Court finds, and Plaintiff does not dispute, that
this additional limitation is the only material
difference between Representative Claim 9 and claim
1 of the ’549 Patent. Moreover, the Court already
found and Plaintiff does not dispute that claim 1 of
the ’549 Patent is substantially similar to
Representative Claim 1 of the ’002 Patent. See supra
Part III.A.1.
As set out below, Representative Claim 9 of the
’549 Patent is representative of claim 24 of the ’549
Patent; claims 3, 4, 12 of the ’330 Patent; and claims
16, 30 of the ’762 Patent.
Claim 24 of the ’549 Patent
Claim 24 of the ’549 Patent is an apparatus
claim comprising “at least one processor” configured

38a
to carry out the steps recited in Representative Claim
9. See id. at 42:1-8. Plaintiff does not dispute this
characterization. Hence, as above, claim 24 merely
implements the method in Representative Claim 9
and offers no distinctive limitation that is material to
the § 101 analysis.
Claims 3, 4, 12 of the ’330 Patent
The Court next turns to claims 3, 4, and 12 of
the ’330 Patent. Claims 3 and 4 depend from
independent claim 1 of the ’330 Patent, which is not
asserted. Like Representative Claim 9, claim 1 of the
’330 Patent recites a method for routing a
communication between an Internet-connected first
participant device and a second participant device.
Plaintiff
believes
this
claim
differs
from
Representative Claim 9 in two respects, neither of
which holds water. First, Plaintiff contends claim 1
“recite[s] different aspects of system architecture for
establishing a communication” at step (5) of the
process laid out in Representative Claim 9. Pl. Opp.
at 5. That is, Representative Claim 9 states that the
routing message for a system communication
identifies “an Internet Protocol (IP) address of a
network element through which the communication is
to be routed,” ’549 Patent at 37:49-54, whereas claim
1 of the ’330 Patent states that the same routing
message identifies “an Internet address of a
communication system node associated with the
second participant device,” ’330 Patent at 37:57-60.
See Pl. Opp. at 5. Yet, the generic term
“communication system node” provides no additional
detail over the equally generic term “network
element.” There is nothing in the patent or Plaintiff’s

39a
brief to suggest that claim 1 does anything more than
substitute one generic computing term for another.
Second, Plaintiff points out that claim 1 calls
for “comparing at least a portion of the second
participant identifier . . . with at least one of the
plurality of first participant attributes,” ’330 Patent
at 37:46-48, rather than “processing the second
participant identifier, based on the at least one first
participant attribute,” ’549 Patent at 37:44-46. See Pl.
Opp. at 5 n.7. Again, the Court sees no discernible
difference between the terms “comparing” and
“processing,” as neither claim discloses how the
comparison
or
processing
is
accomplished.
Accordingly, the Court concludes neither of these
“minor differences in terminology,” Smart Sys.
Innovations, 873 F.3d at 1368 n.7, differentiates claim
1 or dependent claims 3 and 4 of the ’330 Patent from
Representative Claim 9.
Nor do the additional limitations contained in
claims 3 and 4 of the ’330 Patent render these claims
materially different. Claim 3 appends to step (5) of
claim 1 that the “communication system node” is “one
of a plurality of communication system nodes each
operably configured to provide communications
services to a plurality of communication systems
subscribers.” ’330 Patent at 38:13-22; see Pl. Opp. at
5. But as already explained with regard to claim 29 of
the ’002 Patent, this limitation only addresses the
structure of the communication system and not the
claimed process, for it does not disclose how the
relevant node is selected from the plurality of nodes.
Consequently, the limitation does not transform the
“basic process,” Smart Sys. Innovations, 873 F.3d at
1368 n.7, to which claim 3 is directed.

40a
As for claim 4, Plaintiff does not allege that the
claim contains any distinctive limitations. See
Berkheimer, 881 F.3d at 1365. Representative Claim
9 is therefore representative of claims 3 and 4 of the
’330 Patent in all relevant respects.
Claim 12 of the ’330 Patent is an independent
apparatus claim. However, like several other
apparatus claims already analyzed, claim 12 simply
implements the method in claim 1 of the ’330 Patent
using a generic “controller comprising at least one
processor in communication with at least one memory
storing processor readable instructions.” Id. at 39:919. Plaintiff does not argue otherwise. Claim 12 is
thus directed to the “same basic process” as claim 1 of
the ’330 Patent and Representative Claim 9.
Claims 16, 30 of the ’762 Patent
As for claims 16 and 30 of the ’762 Patent,
Plaintiff does not present any argument—let alone
a “meaningful argument”—for “the distinctive
significance of any claim limitations not found in the
representative claim,” Berkheimer, 881 F.3d at 1365.
Claim 16 of the ’762 Patent discloses a “non-transitory
computer readable medium encoded with program
code for directing the at least one processor to execute
the method of claim 14.” ’762 Patent at 39:25-27. The
patent does not invent the “non-transitory computer
readable medium,” which is simply a generic vessel
for generic “program code” that “executes” “the
method of claim 14.” The method of claim 14, in turn,
is the same as the method of Representative Claim 9,
with minor differences in terminology. Claim 16 is
thus directed to the method of Representative Claim
9. Similarly, Claim 30 of the ’762 Patent is a systems

41a
claim that implements the method of claim 7, which
recites the same five steps in Representative Claim 9.
Plaintiff, meanwhile, does not specifically dispute any
of the foregoing. Accordingly, the Court concludes
that claims 16 and 30 of the ’762 Patent are directed
to the “same basic process” as the one recited by
Representative Claim 9.
3. Representative Claim 26: Claim 26 of
the ’002 Patent
Claim 26 of the ’002 Patent (“Representative
Claim 26”) is representative of the asserted claims
that disclose “blocking” of the communication.
Representative Claim 26 discloses:
26. The method
comprising:

of

claim

1,

further

accessing the database to locate
communication blocking information
associated with the second participant,
using the at least one processor; and
blocking the communication when the
communication blocking information
identifies the first participant identifier.
Id. at 42:32-38. Thus, the communication is not
established if there is “blocking information”
associated with the callee that identifies the caller as
someone to be blocked. Representative Claim 26
depends from Representative Claim 1 and adds only
the above blocking limitation.
There are two other asserted claims that
disclose blocking: claim 14 of the ’330 Patent and
claim 12 of the ’549 Patent. Plaintiff has articulated

42a
no specific objection to treating Representative Claim
26 as representative of these claims. For that reason,
and as confirmed below, the Court treats
Representative Claim 26 as representative of claim 14
of the ’330 Patent and claim 12 of the ’549 Patent.
Claim 14 of the ’330 Patent
Claim 14 of the ’330 Patent is an apparatus
claim that depends from claim 12 of the ’330 Patent,
which the Court already found to be represented by
Representative Claim 9. The Court finds that the
added limitations in claim 14—namely, that the
apparatus is also configured to “access the at least one
database to locate communication blocking
information associated with the second participant”
and “block the communication when the
communication blocking information identifies the
first participant identifier,” ’330 Patent at 39:63 –
40:3, simply implement the blocking steps recited by
Representative Claim 26. Again, a systems claim that
“essentially implement[s] the process of” a method
claim is appropriately analyzed together with the
method claim. Accenture Glob. Servs., 728 F.3d at
1341.
Claim 12 of the ’549 Patent
Next, claim 12 of the ’549 Patent is a method
claim that depends from claim 1 of the ’549 Patent,
which the Court already found to be represented by
Representative Claim 1 of the ’002. Claim 12 recites
two limitations not found in claim 1 of the ’549 Patent
or Representative Claim 1: (i) routing a
communication from a first participant to a third
participant device when there is no blocking
information associated with that device, and (ii)

43a
blocking of the communication with the third
participant device. ’549 Patent at 39:22-38. Neither of
these limitations is distinctive, however. The routing
of communication to a potential third participant is
accomplished using the same process for routing a
communication to the second participant disclosed in
Representative Claim 1 and Representative Claim 26.
So too with the blocking of the communication with
the third participant device: Claim 12 simply applies
the process Representative Claim 26 describes for
blocking a communication to the second participant
device, namely, “search[ing] a database for
communication blocking information associated with
the third participant device, and if the communication
blocking information is found, preventing the further
communication from being established.” Id. at 39:2229. In other words, claim 12 essentially reiterates the
process disclosed by Representative Claim 26 with
regard to a third participant. Claim 12 therefore
requires performance of the “same basic process,”
Smart Sys. Innovations, 873 F.3d at 1368 n.7, as
Representative Claim 26.
4. Representative Claim 21: Claim 21 of
the ’762 Patent
Last, Claim 21 of the
(“Representative Claim 21”) recites:

’762

Patent

21. A method of routing communications in
a system in which a first participant
identifier is associated with a first
participant registered with the system
and wherein a second participant
identifier is associated with a second
participant, the first participant being

44a
associated with a first participant device
operable to establish a communication
using the system to a second participant
device associated with the second
participant, the system comprising at
least one processor operably configured
to execute program code stored on at
least one memory, the method
comprising:
in response to the first participant
device initiating the communication to
the second participant device, receiving
the first participant identifier and the
second participant identifier from the
first participant device;
using the first participant identifier to
locate, via the at least one processor, a
first participant profile from among a
plurality of participant profiles that are
stored in a database, the first
participant profile comprising one or
more attributes associated with the first
participant;
when at least one of the one or more
attributes and at least a portion of the
second participant identifier meet a first
network
classification
criterion,
producing, via the at least one processor,
a first network routing message, the
first
network
routing
message
identifying an address in the system, the
address being associated with the second
participant device;

45a
when at least one of the one or more
attributes and at least a portion of the
second participant identifier meet a
second network classification criterion,
producing, via the at least one processor,
a second network routing message, the
second network routing message
identifying an address associated with a
gateway to a network external to the
system, wherein the second network
classification criterion is met if the
second participant is not registered with
the system; and
when at least one of the one or more
attributes meets a third network
classification criterion, producing, via
the at least one processor, an error
message and causing prevention of the
communication from being established.
’762 Patent at 39:41 – 40:14. Put in plain language,
Representative Claim 21 recites a method of “routing
a communication” between a first participant and a
second participant by (1) receiving identifiers
associated with the first and second participants
when a communication is initiated, (2) searching a
database using the first participant identifier and
locating a collection of attributes associated with the
first participant, (3) applying “network classification
criteria” to the second participant identifier and one
or more of the first participant attributes and, (4)(a)
if a “first network classification criterion” is met,
producing a routing message that causes the
communication to be established within the system,
(4)(b) if a “second network classification criterion” is

46a
met, producing a routing message that causes the
communication to be established through a gateway
to an external network, or (4)(c) if a “third network
classification criterion” is met, producing an “error
message” and preventing the communication from
being established. See ’762 Patent at 39:41 – 40:14.
The principal difference separating Representative
Claim 21 from Representative Claim 1 is that, under
certain circumstances, an error message is produced
instead of a routing message, and the communication
is not established.
Representative Claim 21 is representative of
the two other claims that recite an “error message,”
claims 6 and 26 of the ’762 Patent. The Court again
emphasizes that Plaintiff has not specifically
identified any limitations in claims 6 and 26 that
preclude Representative Claim 21 from being
representative. On top of this concession, the Court
below confirms that claims 6 and 26 are substantially
similar to Representative Claim 21.
First, claim 6 of the ’762 Patent is a method
claim comprising the same three steps, with only
trivial additions. See ’762 Patent at 38:10-16, 38:3133. For instance, claim 6 recites that the “the error
message is sent to a call controller.” Id. at 38:31-33.
The specification indicates that the purpose of this
step is “to notify the caller” of the error. Id. at 20:2629. However, neither the claim nor the specification
explains how sending the error message to the call
controller ultimately leads to notifying the caller. In
any event, such notification is no more than
“insignificant postsolution activity,” which has no
bearing on patent-eligibility under § 101. Bilski, 561
U.S. at 610 (2010); see Flook, 437 U.S. at 590

47a
(notifying the operator of an abnormality is
insignificant postsolution activity). The Federal
Circuit has repeatedly affirmed that merely
“displaying the results” of an analytical process does
not add anything significant to the process itself. See
Trading Techs. Int’l, Inc. v. IBG LLC, 921 F.3d 1378,
1386 (Fed. Cir. 2019) (displaying P&L values was not
“significantly more” than the concept of obtaining
those values). Plaintiff does not argue otherwise.
Moreover, the claim itself fails to disclose notifying
the caller of the error, and the Federal Circuit has
instructed courts not to “import[] limitations from the
specification into the claims.” See Phillips v. AWH
Corp., 415 F.3d 1303, 1323 (Fed. Cir. 2005).
Claim 26 is a systems claim that implements
the method in Representative Claim 21. To reiterate,
the Federal Circuit made clear that “system claims
that closely track method claims and are grounded by
the same meaningful limitations will generally rise
and fall together.” Accenture Glob. Servs., 728 F.3d at
1341. Claim 26 appears to add only one element: a
generic “controller” that is configured to carry out
Representative Claim 21’s method. This “generic
electronic component” is not a “meaningful
limitation” under Accenture. Id. at 1342.
In sum, Representative Claim 21 is
representative of claims 6 and 26 of the ’762 Patent.
B. Alice Step One: The Asserted Claims are
Directed to an Abstract Idea
Having concluded that four claims are together
representative of the twenty asserted claims, the
Court now conducts the Alice analysis for the
representative claims. The Court begins with Alice

48a
Step One, at which the Court assesses “whether the
claims at issue are directed to a patent-ineligible
concept”—here, an abstract idea. The Court first
analyzes Representative Claim 1, the only claim for
which the parties have provided substantial briefing,
and then turns to the remaining representative
claims.
1. Representative Claim 1 is Directed to
an Abstract Idea
The Step One inquiry considers the claims “in
light of the specification” to determine “whether their
character as a whole is directed to excluded subject
matter.” Enfish, 822 F.3d at 1335 (citation omitted).
Accordingly, the Court conducts its analysis by first
identifying what the “character as a whole” of
Representative Claim 1 is “directed to,” and then
determining whether this is an abstract idea. In
distilling the character of a claim, the Court is careful
not to express the claim’s focus at an unduly “high
level of abstraction . . . untethered from the language
of the claims,” but rather at a level consonant with the
level of generality or abstraction expressed in the
claims themselves. Id. at 1337; see also Thales
Visionix, 850 F.3d at 1347 (“We must therefore ensure
at step one that we articulate what the claims are
directed to with enough specificity to ensure the step
one inquiry is meaningful.”). At the same time, even
“lengthy and numerous” claims may be reduced to a
basic abstract concept. See Elec. Power Grp., 830 F.3d
at 1351. The Court’s inquiry should therefore
“center[] on determining the ‘focus’ of the claims.”
Two-Way Media Ltd. v. Comcast Cable Commc’ns,
LLC, 874 F.3d 1329, 1340 (Fed. Cir. 2017), cert.
denied, 139 S. Ct. 378 (2018).

49a
The Court holds that the character of
Representative Claim 1 is an abstract idea: the idea
of routing a communication based on characteristics
of the participants. Claim 1 presents this abstract
idea in five steps: (1) receiving identifiers associated
with the first and second participants when a
communication is initiated, (2) searching a database
using the first participant identifier and locating a
collection of attributes associated with the first
participant, (3) processing the second participant
identifier using at least one first participant
attribute to produce a new second participant
identifier, (4) classifying the communication as a
“system communication” or an “external network
communication” “based on” the new second
participant identifier, and (5) producing a “routing
message” that causes the communication to be
established either within the system or through a
gateway to an external network. See ’002 Patent at
37:30 – 38:2.
Although there is no “single, universal”
definition of an abstract idea, the Court looks to past
patentable subject matter cases as helpful guideposts.
Amdocs, 841 F.3d at 1294. Three themes of the
U.S. Supreme Court’s and the Federal Circuit’s
jurisprudence demonstrate that Representative
Claim 1 is directed to an abstract idea: (a) the claimed
method discloses only generalized steps drafted in
purely functional terms; (b) it is analogous to wellknown, longstanding practices; and (c) it does not
recite an improvement in computer functionality. The
Court discusses each in turn.

50a
a. Representative Claim 1 Discloses
Only Generalized Steps Using
Purely Functional Language
The Federal Circuit has repeatedly said that a
claim is abstract if it describes a process in “resultbased functional language” and fails to “sufficiently
describe how to achieve these results in a nonabstract way.” Two-Way Media, 874 F.3d at 1337
(Fed. Cir. 2017); see also Bridge & Post, Inc. v. Verizon
Commc’ns, Inc., No. 2018-1697, 2019 WL 2896449, at
*10 (Fed. Cir. July 5, 2019 (“The distinction between
claims that recite functions or results (the ‘what it
does’ aspect of the invention) and those that recite
concrete means for achieving particular functions or
results (the ‘how it does it’ aspect of the invention) is
an important indicator of whether a claim is directed
to an abstract idea.”). “Indeed, the essentially resultfocused, functional character of claim language has
been a frequent feature of claims held ineligible under
§ 101.” Elec. Power Grp., 830 F.3d at 1356. For that
reason, claims reciting “[g]eneralized steps to be
performed on a computer using conventional
computer activity are abstract.” RecogniCorp, LLC v.
Nintendo Co., Ltd., 855 F.3d 1322, 1326 (Fed. Cir.
2017) (internal quotation marks omitted).
For instance, in Vehicle Intelligence and Safety
LLC v. Mercedes-Benz USA, LLC, the patent-in-suit
claimed methods and systems for screening
equipment operators using an “expert system” to
detect potential impairment. 635 Fed. Appx. 914, 916
(2015). The expert system apparently measured
equipment operator characteristics and used this
information to determine if the operator is impaired.
Id. But “critically absent from the entire patent is how

51a
the . . . decision module determines if an operator is
impaired based on these measurements.” Id. at 918.
The Federal Circuit therefore found the patent to be
abstract due to “the absence of any details about how
the ‘expert system’ works.” Id. at 917.
The Federal Circuit’s recent decision in
Innovation Sciences, LLC v. Amazon.com, Inc. further
illustrates the problem with result-focused claims.
No. 2018-1495, 2019 WL 2762976 (Fed. Cir. July 2,
2019). There, the Federal Circuit held that the
disputed claim was “directed to the abstract idea of
securely processing a credit card transaction with a
payment server.” Id. at *3. The Federal Circuit
explained:
The claim recites, in merely functional,
result-oriented terms, receiving credit
card payment information at a server
different from the server on which the
item for purchase is listed, sending the
payment information “to an established
financial
channel,”
receiving
a
“processing decision” from that channel,
sending payment confirmation, and
updating the server supporting the
website listing the item that the item
was purchased.
Id. As a result, the Federal Circuit deemed the claim
to be “an abstraction—an idea, having no particular
concrete or tangible form.” Id. (quoting Ultramercial,
LLC, 772 F.3d at 715).
So too here. Representative Claim 1 is worded
in such broad, functional terms, so as to describe a

52a
desired result—routing the communication—without
explaining how that result is achieved.
To begin with, the Patents-in-Suit do not
purport to invent Voice-over-IP communication
systems. The common specification readily concedes
the existence of Voice-over-IP systems as of 2006, the
priority date for the Patents-in-Suit. The specification
further concedes that existing Voice-over-IP systems
are configured to “enable voice calls to be made within
or between IP networks, and between an IP network
and a switched circuit network (SCN), such as the
public switched telephone network (PSTN).” ’002
Patent at 1:30-34. Representative Claim 1 is directed
only to routing such calls. The Patents-in-Suit
certainly did not invent call routing. The FAC
describes the evolution from human operators—who
physically connected calls—to automated telephone
switches, which were used to support analog and
digital voice calls. See FAC ¶¶ 15-19. The FAC also
describes preexisting methods for routing calls
initiated by callers on a private Voice-over-IP network
to callees on the PSTN. See FAC ¶¶ 21-22.
What Representative Claim 1 purports to
invent, then, is a “distinct manner of call routing.”
FAC ¶ 22. The steps in the method include (1)
receiving identifiers associated with the first and
second participants when a communication is
initiated, (2) searching a database using the first
participant identifier and locating a collection of
attributes associated with the first participant, (3)
processing the second participant identifier using at
least one first participant attribute to produce a new
second participant identifier, (4) classifying the
communication as a “system communication” or an

53a
“external network communication” “based on” the
new second participant identifier, and (5) producing a
“routing message” that causes the communication to
be established either within the system or through a
gateway to an external network. However, as set forth
below, the claim recites nothing more than resultfocused steps and generic technology.
Turning first to step (1), Representative Claim
1 recites receiving generic “identifiers” associated
with the first and second participants. The Patentsin-Suit do not purport to invent or alter such
identifiers, which are preexisting components of
Voice-over-IP and PSTN communication systems. The
specification discloses that “[t]he caller identifier field
may include a PSTN number or a system subscriber
username.” ’002 Patent at 17:61-63. As examples of
the callee identifier, the specification identifies “a
callee telephone/videophone number.” Id. at 15:24-25.
In other words, the first and second participant
identifiers consist of either a telephone number or a
username.
Neither
telephone
numbers
nor
usernames were invented by the ’002 Patent. The
FAC acknowledges that telephone numbers have
been used in call routing since “the turn of the 20th
century,” FAC ¶¶ 16-19, and that Voice-over-IP
systems have used “user identifier[s] such as an email
or nickname” since their advent, FAC ¶ 22. Besides,
the ’002 Patent does not disclose the creation of the
username, which is “assigned upon subscription or
registration into the system,” i.e., the private
network. ’002 Patent at 15:52-53; see, e.g., id at 4:1820, 15:3-5. Hence, the claim’s step of “receiving”
“identifiers” associated with the participants amounts
to nothing more than collecting preexisting
information. The Federal Circuit has made clear that

54a
“collecting information, including when limited to
particular content (which does not change its
character as information), is within the realm of
abstract ideas.” Credit Acceptance Corp. v. Westlake
Servs., 859 F.3d 1044, 1055–56 (Fed. Cir. 2017)
(internal quotation marks and alterations omitted).
At step (2), Representative Claim 1 claims
“access[ing] a database comprising user profiles” and
“locat[ing]” a user profile associated with the first
participant identifier. ’002 Patent at 37:41-45. First of
all, Representative Claim 1 does not cover the initial
creation of the database. As a result, the claim’s
reference to a database is purely generic. Because the
database is generic, the claim’s command to “access”
the database and “locate” a user profile is likewise
generic. Under the Federal Circuit’s case law, reading
a preexisting database and locating information is an
unpatentable abstract idea. See CyberSource Corp. v.
Retail Decisions, Inc., 654 F.3d 1366, 1372 (Fed. Cir.
2011) (“[O]btaining information . . . can be performed
by a human who simply reads records of . . .
transactions from a preexisting database.”). By the
same token, Representative Claim 1 vaguely defines
the user profile as “associating a respective plurality
of attributes with a respective user.” ’002 Patent at
37:41-45. The claim does not then define the
“attributes,” but the specification makes clear that
the Patents-in-Suit did not invent them or the user
profile. The specification lists example attributes
(national dialing digits, international dialing digits,
country code, local area code, the maximum number
of concurrent calls the user is entitled to cause,
username, see id. at 18:40-58; 19:37-49), but does not
explain how they form a user profile.

55a
Next, at step (3), Representative Claim 1
proceeds to claim “processing” the second participant
identifier “based on” one or more of the attributes
from the first participant’s user profile. Id. at 37:4650. The claim does not disclose what the “processing”
entails, or how the attributes associated with the first
participant are used in processing. The claim states
only that the processing “produce[s] a new second
participant identifier.” Id. In other words, this step is
“so broadly worded that it encompasses literally” any
form of data manipulation. CyberSource Corp., 654
F.3d at 1373 (step of claim that required “utilizing the
map of credit card numbers to determine if the credit
card transaction is valid” “is so broadly worded that it
encompasses literally any method for detecting fraud
based on the gathered transaction and Internet
address data” (emphasis added)); see also Clarilogic,
Inc. v. FormFree Holdings Corp., 681 Fed. App’x 950,
954 (Fed. Cir. 2017) (“But a method for collection,
analysis, and generation of information reports,
where the claims are not limited to how the collected
information is analyzed or reformed, is the height of
abstraction.” (emphasis added)).
Step (4) of Representative Claim 1 is similarly
vague. The claim calls for “classifying the
communication, based on the new second participant
identifier, as a system communication or an external
network communication.” Id. at 37:51-54. The claim
contains no further detail as to how the classification
is accomplished—for instance, which criteria matter,
and how those criteria are applied. The specification
describes example criteria, but these are equally
generic. For instance, the specification provides, “The
process may involve classifying the call as a private
network call when the re-formatted callee identifier

56a
identifies a subscriber to the private network.” Id. at
2:55-57. Yet, the specification does not explain how to
“identify a subscriber to the private network.” The
specification further provides, “The process may
involve causing a database of records to be searched
to locate a direct in dial (DID) bank table record
associating a public telephone number with the
reformatted callee identifier . . . and if a DID bank
table record is not found, classifying the call as a
public network call.” Id. at 2:61-67. Moreover, as in
step (2), the “database of records” is a preexisting
database. The Federal Circuit has time and again
found methods that “collect[] information” and
“analyze[] the information according to one of several
rules” to be within “the realm of abstract ideas.”
FairWarning IP, LLC v. Iatric Sys., Inc., 839 F.3d
1089, 1093 (Fed. Cir. 2016); see also Intellectual
Ventures I LLC v. Erie Indem. Co., 850 F.3d 1315,
1327 (Fed. Cir. 2017) (“We have previously held other
patent claims ineligible for reciting similar abstract
concepts that merely collect, classify, or otherwise
filter data.”).
Finally, step (5) recites “producing” either a
“system routing message” or an “external routing
message.” ’002 Patent at 37:59-60, 37:67 – 38:1. The
specification indicates that the “system routing
message” is a “routing message” that “causes the
communication to be established” within the system,
i.e., the private network. ’002 Patent at 37:59-60;
15:4-7. Likewise, an “external routing message” is
simply a “routing message” that “causes the
communication to be established” through a gateway
to the an external network. ’002 Patent at 37:67 –
38:1, 15:7-9. Yet, the claim fails to explain how a
routing message is produced or how it “causes” the

57a
communication to be established. The claim says only
that the routing message “identif[ies] an Internet
address associated with” either (a) the second
participant device, in the case of a system
communication, or (b) a gateway to an external
network, in the case of an external network
communication. Figures 15 and 16 of the
specification—which are example routing messages—
confirm that a routing message simply displays
information, viz., an Internet address corresponding
to the callee and certain optional data. See Microsoft
Corp., 550 U.S. at 451 n.12 (holding that information
itself is intangible). Critically, however, the claim and
the specification do not explain how to “identify” the
appropriate Internet address. The claim also does not
provide any link between step (4)—classifying the
communication—and step (5)—producing the routing
message. In other words, the routing message simply
displays the results of some unrevealed, unexplained
process for identifying the appropriate Internet
address.
As just shown, Representative Claim 1
ultimately amounts to nothing more than the abstract
idea of collecting data, analyzing it, and displaying
the results. The Federal Circuit has found similar
claims to be purely functional. The Federal Circuit
has consistently held that “claims focused on
collecting information, analyzing it, and displaying
certain results of the collection and analysis” are
directed to an abstract idea.” SAP Am., Inc. v.
InvestPic, LLC, 898 F.3d 1161, 1167 (Fed. Cir. 2018)
(invalidating a patent proposing a technique for
performing statistical analysis on investment data),
cert. denied, 139 S. Ct. 2747 (2019); see also In re TLI
Commc’ns, 823 F.3d at 611 (“[T]he concept of

58a
classifying an image and storing the image based on
its classification” is an abstract idea.). In
Representative Claim 1, the data involved are
“identifiers” and “user profiles” associated with the
participants, and the results take the form of a
“routing message.” As already discussed, these
limitations are conventional features of a Voice-overIP system. That the results of the data analysis are
displayed in a routing message “serves to limit the
field of use of the abstract idea to a particular existing
technological environment, but it does not render the
claims any less abstract.” Innovation Scis., 2019 WL
2762976 at *3 (internal quotation marks and
alterations omitted); see also Symantec Corp., 838
F.3d at 1320 (“[P]erformance of an abstract concept in
the environment of the telephone network is
abstract.”).
Plaintiff argues that Representative Claim 1 is
“not merely directed to information gathering and
analysis,” though the claim involves information
processing. Pl. Opp. at 8. According to Plaintiff, “the
asserted claims do much more—they enable a
telephone call for example.” Id. What Plaintiff fails to
recognize, however, is that Representative Claim 1
does not in fact “enable” a telephone call because the
claim fails to explain how to carry out the method for
enabling a telephone call. The Federal Circuit’s
decision in Two-Way Media is particularly instructive.
There, the Federal Circuit held that two patents
claiming a method for routing “streams of audio
and/or visual information” “over a communication
network” were directed to an abstract idea. 874 F.3d
at 1334-35, 1337. The Federal Circuit said that “[t]he
claim requires the functional results of ‘converting,’
‘routing,’ ‘monitoring,’ and accumulating records,’” but

59a
“recite[s] only conventional computer components.”
Id. at 1337-38. As a result, the claim “manipulates
data but fails to do so in a non-abstract way.” Id. at
1338. Here, too, Representative Claim 1 contains no
instructions for how each step of the routing process
is accomplished. The claim simply requires the
functional results of “receiving,” “processing,” and
“classifying” a call based on the participant
identifiers, and then ultimately “identifying” an
appropriate Internet address.
In short, because the claim is bereft of the
critical “how it does it” aspect of the invention, Bridge
& Post, Inc., 2019 WL 2896449, at *10,
Representative Claim 1 is directed to the abstract
idea of routing a communication based on
characteristics of the participants.
b. Representative
Claim
1
is
Analogous
to
Well-Known,
Longstanding Practices
That Representative Claim 1 is analogous to
well-known, longstanding practices in telephony
lends further support to the Court’s conclusion that
the claim is directed to an abstract idea. In particular,
Representative Claim 1 simply discloses the concept
of call routing, which can be—and has been, in the
past—accomplished manually.
Courts have often compared high technology
claims to their manual or “brick-and-mortar”
counterparts in determining whether claims are
directed to an abstract idea. For instance, in
Symantec, the Federal Circuit concluded that claims
relating to “receiving, screening, and distributing email” were directed to an abstract idea. 838 F.3d at

60a
1316. The claims at issue recited a process of receiving
email messages and applying business rules to control
the delivery of the email messages. Id. at 1316–17.
The Federal Circuit found these steps analogous to
those performed by corporate mailrooms, which
“receive correspondence, keep business rules defining
actions to be taken regarding correspondence based
on attributes of the correspondence, apply those
business rules to correspondence, and take certain
actions based on the application of business rules.” Id.
at 1317. The Federal Circuit therefore concluded that,
because the claims were directed to “fundamental
practices long prevalent in our system and methods of
organizing human activity,” they were directed to an
abstract idea. Id. at 1318 (internal quotation marks
omitted).
Here, the Court finds that Representative
Claim 1 is analogous to preexisting practices of
manual call routing, a “fundamental practice long
prevalent in our system.” As established above, call
routing
predates
the
advent
of
IP-based
communication systems. For example, in the early
days of telephony, the caller would tell a human
operator whom the caller wished to call. FAC ¶ 15.
The operator would then “physically pull out a cable
associated with the caller’s phone and plug the cable
into a socket associated with the callee’s telephone.”
Id. “If the callee was associated with a different
switchboard,” the original operator would involve a
second operator “to bridge the gap to the appropriate
switchboard.” Id.
Turning to more recent times, Plaintiff also
concedes the existence of other methods for routing
calls initiated by callers on a private Voice-over-IP

61a
network to callees on the PSTN. See FAC ¶¶ 21-22.
According to Plaintiff, one conventional method for
routing calls between different networks is “to require
users to input a special code (e.g., a prefix digit of ‘9’)”
in order to initiate a call on the PSTN; otherwise, the
call proceeds on the private network. FAC ¶¶ 24, 30.
To do so, the caller would first need to ascertain
whether the callee is a subscriber to the network.
Plaintiff places great weight on the fact that the
Patents-in-Suit do not require the caller to “ma[ke] an
affirmative decision when placing a call as to whether
the call” is a systems communication or an external
network communication. FAC ¶ 24.
In place of requiring the caller to make an
affirmative decision, Representative Claim 1 recites
an unspecified “controller comprising at least one
processor” that receives the participant identifiers
and, with the aid of a “database,” classifies the call.
First of all, there can be no doubt that the “controller
comprising at least one processor” is generic computer
machinery. In Alice, for instance, the U.S. Supreme
Court found that a “data processing system” with a
“communications controller” and “data storage unit”
was “purely functional and generic,” and therefore
insufficient to confer patentability. 573 U.S. at
226 (“Nearly every computer will include a
‘communications controller’ and a ‘data storage unit’
capable of performing the basic calculation, storage,
and transmission functions required by the method
claims.”). So too here. Pursuant to the specification,
the controller is “implemented” as a “module” on a
“computer.” ’002 Patent at 13:51-53. The specification
does not assert that the computer containing the
controller is specialized in any way, rather than being
a generic computer.

62a
The specification actually describes two types
of controllers—a “routing controller” and a “call
controller”—and it is unclear to which Representative
Claim 1 refers. In any event, neither is defined in
anything other than generic terms by the
specification. The specification provides that a
routing controller “includes an RC [routing controller]
processor circuit.” Id. at 17:65-67. The specification
goes on to define the RC processor unit as comprising
a processor, different types of memory, and an
input/output port. Id. at 17:67 – 18:3. The
specification describes the call controller as including
a microprocessor, memory, and an input/output port.
Id. at 16:41-50, Fig. 4. As with the computer, there is
no indication that the processor, microprocessor,
memory, or input/output port are specialized. In sum,
the controller is some unspecified module composed of
generic computer components and implemented on a
generic computer.
Furthermore, the steps performed by the
controller under Representative Claim 1 are no
different than the ones that would have been
previously performed manually by the caller or by a
human operator. The claim discloses “receiving”
identifiers associated with the caller, “processing” the
callee identifier using various “attributes” of the
caller, and directing the call accordingly. This basic
process is analogous to, for example, a human
operator receiving the name of the callee from the
caller, comparing the switchboard for the callee to the
switchboard for the caller, and directing the call by
plugging the cord into the appropriate socket on the
appropriate switchboard. In this analogy, the
switchboard is akin to the network (i.e., the private
network or an external network) and the socket is the

63a
Internet address. Nor does the controller generate or
apply novel data in accomplishing the routing
process. As just mentioned, the data used by the
controller include the participant identifiers and the
“attributes” associated with the first participant.
Those attributes include national dialing digits,
international dialing digits, country code, local area
code, the maximum number of concurrent calls the
user is entitled to cause, or username—none of which
are unique to the Patents-in-Suit.
Thus, the claim provides simple automation of
a task previously performed manually. The Federal
Circuit has “made clear that mere automation of
manual processes using generic computers does not
constitute a patentable improvement in computer
technology.” Credit Acceptance Corp., 859 F.3d at
1055. Accordingly, although the claim may increase
convenience for the caller, it is not directed to an
improvement in the IP-based communication system.
The technological elements of the claim are “known
telephony technology” performing “routine functions.”
BroadSoft, Inc. v. CallWave Commc’ns, LLC, 282 F.
Supp. 3d 771, 781 (D. Del. 2017), aff’d, 739 F. App’x
985 (Fed. Cir. 2018) (“When the call processing
system receives a call, known telephony technology
elements perform the routine functions of accessing
stored information and directing the call in
accordance with the stored instructions provided in
advance by the called party.”).
Other courts have come to the same conclusion
in cases involving call routing. In Parus Holdings, Inc.
v. Sallie Mae Bank, the claim at issue “focuses on the
automated tasks of (1) receiving messages via a phone
or Internet connection and then transmitting those

64a
messages to a subscriber by phone or Internet; and (2)
receiving a message from a subscriber by phone or
Internet and then forwarding that message based on
rules established by the subscriber.” 137 F. Supp. 3d
660, 672 (D. Del. 2015), aff’d, 677 Fed. App’x 682
(Fed. Cir. 2017). The Federal Circuit determined
that the claim “calls for using a ‘computer and
telecommunications network for receiving, sending
and managing information from a subscriber to the
network and from the network to a subscriber.’” Id.
The Parus Holdings court then found the claim to be
abstract because the patent claim had “pre-Internet
analogs” that could be performed by humans, such as
a personal assistant directing calls. Id. In the instant
case, Representative Claim 1’s method of routing a
call by a subscriber of a private network involves
a “computer and telecommunications network”
performing similar steps: first, receiving information
from the first participant (i.e., the SIP invite message,
which contains the first and second participant
identifiers); second, managing that information by
“processing” it and “classifying” the call based on
undisclosed rules; and finally, sending a routing
message to the network, which causes the call to be
connected to the second participant.
In addition, in Telinit Techs., LLC v. Alteva,
Inc., the court considered a “method for initiating
telephone calls” by: “(1) receiving a data network
request; (2) identifying a telephone number associated
with that request; (3) signaling a switch to make a
call; (4) monitoring the call; and (5) providing a user
with notifications if there is a change in the status of
the call.” 2015 WL 5578604, at *16-17 (E.D. Tex. Sept.
21, 2015). The Telinit court found that this “is precisely
the function of a telephone operator.” Id. Again,

65a
Representative Claim 1 recites similarly broad,
functional steps for connecting a communication.
Plaintiff resists the analogy to switchboard
operators. Plaintiff argues that, unlike under
Representative Claim 1, “[o]perators ‘could’ and did
routinely route calls based on callee identifier alone.”
Pl. Opp. at 17. That is because “[i]n PSTN numbering
plans, telephone numbers were self-interpreting,
(e.g., a country code, area code, or exchange code selfevidently facilitated the next step in routing).” Id.
(emphasis added). Hence, says Plaintiff, operators
would not have needed to “evaluate” the callee’s
identifier based on “a caller’s profile settings
(attributes).” Id. As already discussed, however, the
specification provides that a caller’s “profile” simply
comprises “attributes,” at least two of which (i.e.,
country code, local area code) Plaintiff concedes were
built into PSTN telephone numbers. Moreover,
Plaintiff cannot seriously argue that “evaluating” a
callee identifier is a distinct “method of analysis.”
Thus, Plaintiff’s own description of PSTN telephone
numbers defeats its argument that operators did not
use information analogous to that recited in the
Patents-in-Suit.
Furthermore, according to Plaintiff’s own
account of early human operators, callers simply told
the operators the name of the person they wished to
call. It was presumably the task of the operator to
determine the appropriate switchboard and to involve
a second operator if necessary. Just as Representative
Claim 1 involves “evaluating” the callee identifier
based on the caller’s profile, the decision to involve
a second operator would require comparing the
switchboard of the caller to the switchboard of the

66a
callee. The Court is therefore unconvinced by
Plaintiff’s attempt to distinguish Representative
Claim 1 from switchboard operators.
Plaintiff’s counterargument that a person
could not “constitute a physical computer that
transmits a telephone call over a physical network,”
Pl. Opp. at 14, similarly misses the mark. To be sure,
a human is not a computer. The point is that, “with
the exception of generic computer-implemented steps,
there is nothing in the claims themselves that
foreclose them from being performed by a human.”
Symantec Corp., 838 F.3d at 1318; see also
CyberSource Corp., 654 F.3d at 1376 (finding claims
invalid where “one could mentally perform the fraud
detection method that underlies both claims 2 and 3
of the ’154 patent,” though the claim involved
execution of the method “by one or more processors of
a computer system”). Put another way, the “physical
computer” simply acts as a tool to carry out the
abstract process.
Plaintiff also contends that the presence of
several physical components—an “Internet connected
first participant device,” “a physical device, such as a
handheld phone or a computer,” and “a physical
controller”—create a “distinct high technology
network environment.” Pl. Opp. at 7-8. But again,
each of the recited components are generic, and are
simply invoked as tools to carry out the abstract
process. Without any “technical details for the
tangible components” in the claim or the specification,
the invention cannot be said to meaningfully limit the
abstract idea of call routing. In re TLI Commc’ns, 823
F.3d at 612 (“The specification fails to provide any

67a
technical details for the tangible components, but
rather predominately describes the system and
methods in purely functional terms.”).
The Federal Circuit rejected a similar
argument in Affinity Labs of Texas, LLC v. DIRECTV,
LLC, 838 F.3d 1253 (Fed. Cir. 2016). In that case, the
Federal Circuit concluded that the claims at issue
were directed to the abstract idea of “providing out-ofregion access to regional broadcast content.” Id. at
1258. The Federal Circuit reasoned that “[t]he
practice of conveying regional content to out-of-region
recipients” had been employed “by nearly every form
of media” for decades, and was “not tied to any
particular technology.” Id. Relevant here, the Federal
Circuit recognized that the claims described “wireless
delivery of regional broadcast content only to
cellphones,” but “made clear that merely limiting the
field of use of the abstract idea to a particular existing
technological environment does not render the claims
any less abstract.” Id. at 1258–59 (citations omitted).
Instead, the idea “can be implemented in myriad ways
ranging from the low-tech, such as by mailing copies
of a local newspaper to an out-of-state subscriber, to
the high-tech, such as by using satellites to
disseminate broadcasts of sporting events.” Id. at
1258. Here, the Court likewise finds that
Representative Claim 1 is directed to the abstract
idea of routing a communication based on
characteristics of the participants—a “broad and
familiar concept” that is “untethered to any specific or
concrete way of implementing it.” Id. at 1258.

68a
c. Representative Claim 1 Does
Not Recite an Improvement in
Computer Functionality
Plaintiff
nevertheless
contends
that
Representative Claim 1 is not directed to an abstract
idea because it discloses an “improvement in the
functioning of a computer” under Enfish, 822 F.3d at
1337. Pl. Opp. at 8-9. In Enfish, the Federal Circuit
reversed the district court’s finding that the asserted
claims were directed to the abstract idea of “storing,
organizing, and retrieving memory in a logical table.”
822 F.3d at 1337. The Federal Circuit found that “the
claims are not simply directed to any form of storing
tabular data, but instead are specifically directed to a
self-referential table for a computer database.” Id.
That self-referential table, said the court, “is a specific
type of data structure designed to improve the way a
computer stores and retrieves data in memory.” Id. at
1339. As a result, in contrast to the claims at issue in
Alice and Versata—which “can readily be understood
as simply adding conventional computer components
to well-known business practices”—the Enfish claims
“are directed to an improvement in the functioning of
a computer.” Id. at 1338.
Here, Plaintiff believes that the Patents-inSuit “improve communication routing technology and
infrastructure in a manner that overcomes technical
limitations in prior art systems.” Id. at 9. Specifically,
Plaintiff alleges four ways in which Representative
Claim 1 improves existing communication routing
technology: (1) “user-specific handling,” (2)
“transparent routing,” (3) “resiliency,” and (4)
“communication blocking.” Id. at 10-12; see also FAC
¶ 31. Defendants respond that Representative Claim

69a
1 “does not improve any specific functionality,” and
rather “only uses previously known technology to
perform purely functional steps.” Def. Cons. Mot. to
Dismiss at 12. For the following reasons, the Court
rejects each of these four alleged improvements.
(1) “User-specific handling”
The Court begins with “user-specific handling.”
By “user-specific handling,” Plaintiff apparently
means that the method disclosed by Representative
Claim 1 “supports user-specific calling styles, e.g.,
calling styles from any continent or country based on
the application of user-specific attributes to callee
identifiers and network classification criteria to route
a call.” FAC ¶ 32. The claimed method also supports
“special callee identifiers such as usernames.” Id.
According to Plaintiff this is an improvement because
“prior art technology required users to place a call by
using a specific callee identifier format or by following
certain dialing conventions.” Pl. Opp. at 10. The Court
accepts, as it must at the Rule 12(b)(6) stage,
Plaintiff’s allegation that prior art technology did not
support “user-specific calling styles.” See Aatrix
Software, Inc. v. Green Shades Software, Inc., 882
F.3d 1121, 1129 (Fed. Cir. 2018) (district court could
not conclude that the claimed “data file” was
conventional in light of plaintiff’s allegations to the
contrary). The Court further accepts that overcoming
this problem would constitute a meaningful
improvement
in
call
routing
technology.
Nevertheless, Representative Claim 1 is not directed
to this improvement because the claim does not
disclose how to achieve the alleged improvement.
“[C]laims that are ‘so result-focused, so functional, as
to effectively cover any solution to an identified

70a
problem’ are frequently held ineligible under section
101.” Affinity Labs, 838 F.3d at 1265 (quoting Elec.
Power Grp., 830 F.3d at 1356).
Two-Way Media again provides a helpful
guidepost. There, plaintiff Two-Way Media asserted
that “the claim solves various technical problems,
including excessive loads on a source server, network
congestion, unwelcome variations in delivery times,
scalability of networks, and lack of precise
recordkeeping.” 874 F.3d at 1339. In analyzing
whether the claim solved those problems, the Federal
Circuit emphasized that the inquiry “must turn to any
requirements for how the desired result is achieved.”
Id. (internal quotation marks omitted) (emphasis in
original). The Federal Circuit then found that “claim
1 here only uses generic functional language to
achieve these purported solutions,” and so was
abstract. Id. Similarly, in Interval Licensing LLC v.
AOL, Inc., the Federal Circuit rejected the plaintiff’s
argument that the claimed “attention manager” is
directed to a “technical improvement to display
devices.” 896 F.3d 1335, 1345 (Fed. Cir. 2018). There,
as in Two-Way Media, the claim “simply demand[ed]
the production of a desired result (non-interfering
display of two information sets) without any
limitation on how to produce that result.” Id. As the
Federal Circuit put it, “Instead of claiming a solution
for producing that result, the claim in effect
encompasses all solutions.” Id.
Rather than “patenting a particular concrete
solution to [the] problem” of user-specific calling
styles, Representative Claim 1 “attempt[s] to patent
the abstract idea of a solution to the problem in
general.” Electric Power, 830 F.3d at 1356. In

71a
Plaintiff’s own words, the claim overcomes the
limitations of prior art technology “by evaluating a
called party identifier based on profile settings
(‘attributes’) associated with the calling party.” Pl.
Opp. at 10. But any call routing system configured to
deal with multiple calling styles would necessarily
involve “evaluating” a called party identifier.
Critically, the claims do not explain how the
attributes are used to evaluate the called party
identifier. As a result, Representative Claim 1
“recite[s] the what of the invention, but none of the
how that is necessary to turn the abstract idea into a
patent-eligible application.” TDE Petroleum Data,
657 Fed. App’x. at 993 (emphases in original). It
therefore cannot be said that Representative Claim 1
is directed to “user-specific handling.”
(2) “Transparent routing”
Plaintiff’s claim that Representative Claim 1
discloses “transparent routing” similarly falls short.
According to Plaintiff, the claimed method routes a
call “transparently to the user, without the user
specifying which network to use” (such as by dialing
a predefined prefix like the number 9). Pl. Opp. at 11;
see also FAC ¶ 36. Plaintiff alleges this is an
improvement because “the caller may not, and need
not, know the network location of the called party.”
Pl. Opp. at 11. However, these allegations are refuted
by the claim and the specification. See Aatrix, 890
F.3d at 1358 (“[A] court need not accept as true
allegations that contradict matters properly subject to
judicial notice or by exhibit, such as the claims and
the patent specification.”) (internal quotation marks
omitted). Defendant is correct that the claim and the
specification “do not specify what information is

72a
shared with participants or what the user must
manually specify.” Def. Reply at 7. That is, the
specification explains that the controller receives the
“callee identifier” “from the calling subscriber,” ’002
Patent at 15:1-2—in other words, the caller must
provide the callee identifier. Yet, the claim and
the specification never indicate that the callee
identifier does not contain information about “which
network to use.” On the contrary, the specification
defines the callee identifier as, “e.g., a callee
telephone/videophone number.” Id. at 15:24-25.
Plaintiff itself argues that conventional telephone
numbers are “self-interpreting,” in that calls could be
routed based upon the telephone number alone. Pl.
Opp. at 17. The callee’s network must be known in
order to successfully route a call, which suggests a
conventional telephone number does contain
information about the callee’s network. In providing
the callee’s telephone number, then, the caller may
simultaneously be specifying “which network to use.”
Even if it is true that the claimed method
obviates the need for the caller to actively specify the
appropriate network, that alone is not sufficient to
make Representative Claim 1 non-abstract. As
discussed at length above, Representative Claim 1
simply automates the steps that would have been
performed manually by the caller. Without more,
“mere automation of manual processes using generic
computers does not constitute a patentable
improvement in computer technology.” Credit
Acceptance Corp., 859 F.3d at 1055. Eliminating
manual entry by the caller is, of course, inherent in
such automation. See Voit Techs., LLC v. Del-Ton,
Inc., 757 F. App’x 1000, 1003–04 (Fed. Cir. 2019)
(claims directed to “improved speed or efficiency

73a
inherent with applying the abstract idea on a
computer” are still abstract). The Court must
therefore agree with Defendant that Representative
Claim 1 is not directed to transparent routing.
(3) “Resiliency”
The Court also rejects Plaintiff’s contention
that Representative Claim 1 provides “resiliency.”
Plaintiff uses the term “resiliency” to mean that the
communication system “can provide reliable service
to large areas including countries and continents”
with “very large number[s] of subscribers.” FAC ¶ 37;
see also Pl. Opp. at 12. Prior systems—i.e., the Public
Switched Telephone Network (“PSTN”) and private
branch exchanges (“PBXs”)—were unable to provide
reliable service because they “did not always have
other nodes able to take up the load if a particular
node failed” or if there was a “burst[] of excessive
demand.” FAC ¶ 37 (internal quotation marks and
alterations omitted). The communication system
recited in Representative Claim 1 allegedly
overcomes these limitations by “flexibly assigning
nodes to particular geographical areas, including the
option of adding redundant nodes with overlapping
responsibility for load sharing.” Id.
Again, the Court accepts all of these allegations
as true. The “resiliency” Plaintiff describes, however,
is not disclosed by Representative Claim 1.
Representative Claim 1 is directed to a method for
routing a communication made on a communication
system (i.e., an IP-based communication system)—
not to a design for the communication system itself. It
is therefore unsurprising that neither the claim nor
the specification discloses how to design a

74a
communication system that “makes it simple to
allocate or add new nodes and gateways to particular
regions or routes.” Pl. Opp. at 12. The claim makes no
mention of “nodes” at all, and the specification
references the existence of nodes without defining
them. For instance, the specification describes the
invention as “a process for operating a call routing
controller to facilitate communication between callers
and callees in a system comprising a plurality of nodes
with which callers and callees are associated.” ’002
Patent at 1:59-62. At most, then, resiliency is a
feature of the underlying IP-based communication
system on which the claim operates. The method
disclosed by Representative Claim 1 may be capable
of directing communications across redundant nodes,
but it does not disclose the allocating or adding
of those nodes in the first instance. As a result,
the Court rejects Plaintiff’s contention that
Representative Claim 1 is drawn to “resiliency.”
At this point, the Court takes the opportunity
to address a stray argument, appended to the end of
Plaintiff’s argument on “resiliency.” Plaintiff asserts,
“As a further improvement, unlike some prior art
systems, the technology does not require access to
PSTN databases.” Pl. Opp. at 12. Although Plaintiff
fails to develop the argument beyond this single
sentence, the Court rejects the argument on the
merits. The Court does not accept Plaintiff’s
allegation that the claimed method “does not require
access to PSTN databases.” As with “transparent
routing,” this allegation is contradicted by the patent
itself. Neither the claim nor the specification gives
any details about the “database” accessed in the
claimed method; the claim and specification certainly
do not specify that PSTN databases are not used. In

75a
fact, the specification notes that preexisting IP
telephones “can also access PSTN databases.”
Plaintiff’s bare allegation that the claimed method
does not require access to the PSTN and that this
constitutes an improvement cannot supplement what
is actually disclosed by the patent.
(4) “Communication blocking”
Finally, turning to “communication blocking,”
Plaintiff contends that “the technology improves over
many prior art blocking methods.” However, as
discussed above in the designation of representative
claims, Representative Claim 1 does not recite
blocking of the communication. See also Pl. Opp. 4-5.
Consequently,
this alleged improvement
is
inapplicable to Representative Claim 1. The Court
instead analyzes “communication blocking” solely
with regard to Representative Claim 26, which the
Court has already concluded is representative of the
claims that recite blocking of the communication.
Accordingly, the Court agrees with Defendants
that Representative Claim 1 does not “focus on a
specific means or method that improves the relevant
technology” and is “instead directed to a result or
effect that itself is the abstract idea and merely
invoke[s] generic processes and machinery.” McRO,
837 F.3d at 1314; see Def. Cons. Mot. to Dismiss at 12.
d. Summary
In short, Representative Claim 1 is not directed
to an improvement in communication routing
technology, or in computer functionality more
generally. Although Representative Claim 1 purports
to disclose an improved method of call routing, the

76a
claim fails to provide any specific or concrete means
for achieving the desired result. Instead, the claim
discloses only broad, functional steps such as
“receiving” identifiers; “accessing” a database;
“processing”
an
identifier;
“classifying”
the
communication; and “producing” a routing message.
Moreover, due to its level of generality, the claim is
simply an attempt to implement well-known,
longstanding call routing practices using a computer.
For these reasons, the Court holds that
Representative Claim 1 is directed to the abstract
idea of routing a communication based on
characteristics of the participants.
2. The Remaining Representative Claims
are Directed to an Abstract Idea
The Court now turns to each of the remaining
representative claims and determines whether, in
light of its conclusion that Representative Claim 1 is
directed to an abstract idea, these remaining claims
are also directed to an abstract idea. The Court
concludes that they are.
a. Representative Claim 9
Recall that Representative Claim 9, which is
claim 9 of the ’549 Patent, discloses a method of
“routing a communication” between a first participant
and a second participant by (1) receiving an identifier
associated with the second participant when a
communication is initiated, (2) searching a memory
and locating at least one attribute associated with the
first participant, (3) processing the second participant
identifier using at least one first participant
attribute to produce a new second participant
identifier, (4) classifying the communication as a

77a
“system communication” or an “external network
communication” based upon whether a profile
associated with the new second participant identifier
exists in a database, and (5) producing a “routing
message” that causes the communication to be
established either within the system or through a
gateway to an external network. See ’549 Patent
38:48-59.
As previously discussed, the Court found and
Plaintiff does not contest that Representative Claim
9 is substantially similar to Representative Claim
1 in all but one respect. Representative Claim 1
broadly recites “classifying” the communication as
a system communication or an external network
communication “based on” the new (i.e., processed)
second participant identifier. In Plaintiff’s own words,
Representative Claim 9 adds to Representative Claim
1 the limitation that the communication is classified
“based on whether a profile associated with the
processed second participant identifier exists in a
database.” Pl. Opp. at 5. Of relevance to the Step One
analysis, Representative Claim 9 is more specific than
Representative Claim 1, which does not state how the
processed second participant identifier is used to
classify the communication.
The
additional
limitation
does
not
meaningfully change the character of Representative
Claim 9. Representative Claim 9, like Representative
Claim 1, is directed to the abstract idea of routing a
communication based on characteristics of the
participants. Representative Claim 9 is narrower, to
be sure. It does not encompass all manners of
“classifying,” because it is confined to classifying
based upon whether a profile associated with the new

78a
second participant identifier exists in a database. But
“a claim is not patent eligible merely because it
applies an abstract idea in a narrow way.” BSG Tech
LLC v. Buyseasons, Inc., 899 F.3d 1281, 1287 (Fed.
Cir. 2018). “In Two-Way Media, we determined that a
claimed method was directed, in part, to the abstract
idea of ‘sending information,’ even though the claim
specifically
concerned
‘audio/and
or
visual
information’ transmitted over a communications
network.” Id. (citation omitted).
Here, searching a database for a particular
entry—a generic “identifier”—is no less abstract than
the broader idea of “classifying” the communication.
See, e.g., Content Extraction, 776 F.3d at 1347 (finding
claim is directed to the abstract idea of “1) collecting
data, 2) recognizing certain data within the collected
data set, and 3) storing that recognized data in a
memory.”). Moreover, humans can and have
performed the task manually, such as when looking
for a listing in a physical phone book. “Adding one
abstract idea” (searching a database) “to another
abstract idea” (classifying) “does not render the claim
non-abstract.” RecogniCorp, 855 F.3d at 1327. The
Court therefore finds that Representative Claim 9 is
directed to the same abstract idea as Representative
Claim 1: routing a communication based on
characteristics of the participants.
b. Representative Claim 26
Next, Representative Claim 26, which is claim
26 of the ’002 Patent, discloses “the method of
[Representative] [C]laim 1” plus the additional steps
of “accessing the database to locate communication
blocking information associated with the second

79a
participant” and “blocking the communication when
the communication blocking information identifies
the first participant identifier.” ’002 Patent at 42:3239. Other than these blocking steps, Representative
Claim 26 is identical to Representative Claim 1.
The Court finds that the addition of “blocking”
does not alter the conclusion that Representative
Claim 26 is directed to an abstract idea.
Representative Claim 1, from which Representative
Claim 26 depends, is directed to the abstract idea of
routing a communication based on characteristics of
the participants. Representative Claim 26 clarifies
that such routing may require blocking the
communication instead of causing the communication
to be established.
To begin with, Representative Claim 26
discloses “blocking” in purely functional terms,
without explaining how the blocking is accomplished.
The claim and the specification are devoid of any
details regarding implementation that might “add a
degree of particularity.” Ultramercial, 772 F.3d at
715. The claim does not even indicate when the
blocking steps occur in relation to the other five steps
in Representative Claim 1.
Meanwhile, Plaintiff acknowledges, as it must,
that the Patents-in-Suit did not invent communication
blocking, and that other methods of blocking
communication exist. “[T]he concept of screening
messages is a basic, long-practiced concept in any
communications medium or field.” Intellectual Ventures
I LLC v. AT & T Mobility LLC, 235 F. Supp. 3d 577,
594 (D. Del. 2016) (internal quotation marks and
alterations omitted). Indeed, as with Representative

80a
Claim 1, there is a direct brick-and-mortar analogy to
the instant claim. As the Federal Circuit put it in
Intellectual Ventures I LLC v. Symantec Corp., “it was
long-prevalent practice for people receiving paper
mail to look at an envelope and discard certain letters,
without opening them, from sources from which they
did not wish to receive mail based on characteristics
of the mail.” 838 F.3d at 1314. The Symantec court
analogized this practice to a claim directed to
“characterizing” and “filtering” “e-mail based on a
known list of identifiers,” and so found the claim to be
abstract. Characterizing a communication based on
generic “blocking information” is no less abstract. After
all, “filtering” out undesirable messages is the email
equivalent of “blocking” undesirable communications.
Nonetheless, as discussed at length above,
Plaintiff contends the Patents-in-Suit are not abstract
because they are directed to four improvements to
communication routing technology: (1) “user-specific
handling,” (2) “transparent routing,” (3) “resiliency,”
and (4) “communication blocking.” See supra Part
III.B.1.c. The Court rejected the first three
improvements but reserved its discussion of
“communication blocking” for Representative Claim
26—the only representative claim that recites
communication blocking. The Court now considers
whether Representative Claim 26 is directed to an
improvement in communication blocking technology.
In Plaintiff’s view, the particular blocking
method disclosed by Representative Claim 26 has
three benefits: (1) “using caller-specific attributes
associated with a caller’s profile for determining, in a
caller-specific manner, whether or not initiation of a
communication is permitted”; (2) “using caller-specific

81a
profile attributes to establish whether an attempted
communication is valid”; and (3) “by supporting
selective blocking . . . without interrupting the callee
or the caller making an explicit choice.” Pl. Opp. at 12;
see also FAC ¶ 38. The Court does not agree.
At the outset, the Court discerns no difference
between the first and second benefits, both of which
refer to a “caller-specific” determination whether to
route or block the communication. As already
established, a caller’s “profile” is just a collection of
“attributes.” See ’002 Patent at 37:41-45. The Court
therefore analyzes them together rather than
treating them as distinct benefits. In any event,
Representative Claim 26 does not disclose “using
caller-specific attributes associated with a caller’s
profile” or “using caller-specific profile attributes,” to
determine whether to block a call. Rather,
Representative Claim 26 calls for searching a
database for “communication blocking information
associated with the second participant”—the callee.
Put in plain language, the claimed method involves
looking at criteria identifying calls that the second
participant wishes to block and blocks the call if the
first participant is identified. This makes sense:
There would be no need to examine communication
blocking information associated with the first
participant, who initiated the call. It cannot be said,
then, that the claimed method is directed at “using
caller-specific attributes” to make the blocking
decision.
To the extent Plaintiff means to argue that
Representative Claim 26 permits the second
participant to identify specific callers (as opposed to,
for instance, blocking all calls for a certain period of

82a
time) that the second participant wishes to block, the
argument still fails. As the Court has repeatedly
recognized, a claim is not directed to an alleged
improvement in technology unless the claim discloses
how to achieve the alleged improvement. See supra
Part III.B.1.c. Representative Claim 26 broadly
claims accessing “blocking information associated
with the second participant” and “blocking the
communication when the communication blocking
information identifies the first participant identifier.”
The claim provides no details about the “blocking
information”—for instance, how the information is
generated, what form the information takes, or what
kind of rules the information is capable of capturing.
Under these circumstances, Representative Claim 26
attempts to patent the abstract idea of the
improvement; the claim does not actually disclose
how to achieve it. See Intellectual Ventures I LLC v.
AT&T Mobility LLC, 235 F. Supp. 3d at 594 (claim
directed to the idea of screening SMS messages is
directed to an abstract idea because “the claimed
method can be directly analogized to the abstract
concept performed in the human mind—receiving,
analyzing, and making a decision as to whether to
forward a message based on set criteria”).
Finally,
the
third
benefit—“supporting
selective blocking without interrupting the callee or
the caller making an explicit choice”—is simply a
restatement of “transparent routing,” which the
Court analyzed in connection with Representative
Claim 1. See supra Part III.B.1.c. Here, as there, the
Court accepts Plaintiff’s allegation that prior blocking
methods did not provide this benefit. However,
“[b]locking a message based on predetermined
criteria . . . could be analogously performed by a

83a
human, instead of by a computer.” See Intellectual
Ventures I LLC v. AT&T Mobility LLC, 235 F. Supp.
3d at 594. For instance, an individual’s assistant
could be instructed to decline calls by certain preidentified callers. The benefit therefore arises entirely
from automation of a manual process using generic
computer components, which “does not constitute a
patentable improvement in computer technology.”
Credit Acceptance Corp., 859 F.3d at 1055.
For these reasons, the Court concludes that
Representative Claim 26 is directed to the abstract
idea of routing a communication based on
characteristics of the participants, where routing may
include blocking the communication.
c. Representative Claim 21
Last, Representative Claim 21, which is claim
21 of the ’762 Patent, discloses a method of “routing a
communication” between a first participant and a
second participant by (1) receiving identifiers
associated with the first and second participants
when a communication is initiated, (2) searching a
database using the first participant identifier and
locating a collection of attributes associated with the
first participant, (3) applying “network classification
criteria” to the second participant identifier and one
or more of the first participant attributes and, (4)(a)
if a “first network classification criterion” is met,
producing a routing message that causes the
communication to be established within the system,
(4)(b) if a “second network classification criterion” is
met, producing a routing message that causes the
communication to be established through a gateway
to an external network, or (4)(c) if a “third network

84a
classification criterion” is met, producing an “error
message” and preventing the communication from
being
established.
The
Court
finds
that
Representative Claim 21 is also directed to the
abstract idea of routing a communication based on
characteristics of the participants.
The Court first notes that Representative
Claim 21 is substantially similar to Representative
Claim 1 in all respects but one: Representative Claim
21 recites an “error message” at step (4)(c). Despite
some slight differences in wording, the rest of the
claim discloses the same steps as Representative
Claim 1. Steps (1) and (2) of Representative Claim 21
are, on their face, the same as steps (1) and (2) of
Representative Claim 1. Steps (3)(a) and (3)(b) then
simply consolidate steps (3) and (4) of Representative
Claim 1. Representative Claim 1 separately recites
processing the second participant identifier using one
or more of the first participant’s attributes (step (3) of
Representative Claim 1) and then classifying the new
second
participant
identifier
(step
(4)
of
Representative Claim 1). Representative Claim 21
directly recites classifying the combination of the
second participant identifier and one or more of the
first participant’s attributes. ’762 Patent at 39:61-63.
Importantly, Representative Claim 21 does not use
different information or a different technique to
classify the communication. The claim uses the same
second participant identifier, first participant
attributes, and generic “classification criteria.” Steps
(4)(a)-(b) of Representative Claim 21 are then
equivalent to step (5) of Representative Claim 1.
The Court therefore focuses on step (4)(c),
which embodies the only meaningful difference

85a
between Representative Claims 1 and 21. The
principal limitation that Representative Claim 21
adds to the basic process recited by Representative
Claim 1 is that, when a certain criterion is met, an
“error message” is produced instead of a “routing
message” and the communication is thereby
“prevent[ed]” “from being established.” The problem
is that this limitation is written in such broad,
functional terms as to cover the entire abstract idea
of producing an error message. The “error message”
itself is undefined in the ’762 Patent, which suggests
that it simply signifies a generic “message that
indicates an error.” In addition, the claim does not
give any content to the third “network classification
criterion.” ’762 Patent at 40:11. Applying an
unspecified criterion is the height of abstraction. The
specification suggests that one example criterion
might be when “the maximum number of concurrent
calls has been reached and no further calls can exist
concurrently,” ’762 Patent at 20:22-29, but the claim
itself is not confined to this situation. See Phillips v.
AWH Corp., 415 F.3d 1303, 1323 (Fed. Cir. 2005)
(courts should “avoid importing limitations from the
specification into the claims”). The “important inquiry
for a § 101 analysis is to look to the claim,” rather than
“the specification’s detailed . . . implementation
guidelines.” Accenture Glob. Servs., 728 F.3d at 1345
(Fed. Cir. 2013); see also ChargePoint, Inc. v.
SemaConnect, Inc., 920 F.3d 759, 766 (Fed. Cir. 2019)
(“[R]eliance on the specification must always yield to
the claim language . . . .”). We are therefore left with
the abstract idea that, under certain unspecified
circumstances, an “error message” is produced, and
the communication is not established.

86a
The combination of multiple abstract ideas is
still abstract. RecogniCorp, 855 F.3d at 1327.
Ultimately, then, Representative Claim 21 is directed
to the abstract idea of routing a communication based
on characteristics of the participants, where routing
may include preventing the communication from
being established.
C. Alice Step Two: The Asserted Claims Do
Not Recite an Inventive Concept
To briefly review, the Court’s Alice Step One
analysis revealed that all of the representative
claims—and thus, all of the asserted claims—are
directed to an abstract idea. The asserted claims may
still be patent-eligible, though, if they include an
“inventive concept” that is “sufficient to ensure that
the patent in practice amounts to significantly more”
than a patent upon the abstract idea itself. Alice, 573
U.S. at 217-18. Hence, Step Two of the Alice inquiry
is a search for an inventive concept “sufficient to
transform the nature of the claim into a patenteligible application.” Id. at 221 (internal quotation
marks omitted).
Below, the Court begins its Step Two inquiry
with Representative Claim 1 and then proceeds to
consider each of the other representative claims in
turn.
1. Representative Claim 1 Does
Recite an Inventive Concept

Not

At Alice Step One, the Court determined that
Claim 1 is directed to the idea of routing a
communication over an IP-based communication
system based on characteristics of the participants.

87a
“To save the patent at step two, an inventive concept
must be evident in the claims.” RecogniCorp, 855 F.3d
at 1327. In assessing whether a claim recites an
inventive concept, the Court must consider its
elements “both individually and as an ordered
combination.” Alice, 573 U.S. at 217. Accordingly, the
Court first analyzes the individual claim elements of
Representative Claim 1 and then turns to the ordered
combination of those elements. The Court concludes
that neither the individual elements nor their ordered
combination supplies an inventive concept necessary
for patent-eligibility.
a. The Individual Claim Elements
Do Not Provide an Inventive
Concept
In order to supply an inventive concept, a claim
element “must be more than well-understood, routine,
conventional activity,” DIRECTV, 838 F.3d at 1262,
“and cannot simply be an instruction to implement or
apply the abstract idea on a computer.” BASCOM,
827 F.3d at 1349. For example, it may be found in an
“inventive set of components or methods,” “inventive
programming,” or an inventive approach in “how the
desired result is achieved.” Elec. Power Grp., 830 F.3d
at 1355. On the other hand, “conventional steps,
specified at a high level of generality, [are] not enough
to supply an inventive concept.” Alice, 573 U.S. at 222
(internal quotation marks omitted). Nor are “generic
computer, network and Internet components”
inventive. BASCOM, 827 F.3d at 1349. Yet, as set
forth below, conventional steps and generic computer
components are all that Representative Claim 1
attempts to monopolize. The Court therefore finds no

88a
saving inventive concept in the individual elements of
Representative Claim 1.
At no point does Plaintiff affirmatively argue
that any individual component is inventive. Instead,
Plaintiff accuses Defendants of simply asserting “that
all the claimed features are part of ‘conventional
telephony systems,’ without a shred of evidence.” Pl.
Opp. at 22. But the fact that these claim elements are
conventional can be discerned from the patent itself—
no outside evidence is needed.
First, all of the computing hardware disclosed
is conventional. The claim employs a “first participant
device” and a “second participant device” and a
“controller comprising at least one processor.” The
specification indicates that the “first participant
device” and “second participant device” are
“telephone[s]/videophone[s].” See ’002 Patent at
14:8, 14:51-54, 15:11-12. The first participant device
is “Internet-connected,” meaning it is an IP
telephone/videophone. As for the unspecified
“controller,” the Court previously observed that the
unspecified controller is a module implemented on a
generic computer, and that it comprises a generic
processor. See supra Part III.B.1.c. The Patents-in-Suit
certainly did not invent computers, processors,
telephones/videophones, or IP telephones/videophones,
and Plaintiff does not assert that otherwise. See In re
TLI Commc’ns, 823 F.3d at 612 (“The specification
does not describe a new telephone, a new server, or a
new physical combination of the two.”); BASCOM,
827 F.3d 1341, 1349 (Fed. Cir. 2016) (“BASCOM does
not assert that it invented local computers, ISP
servers, networks, network accounts, or filtering. Nor
does the specification describe those elements as

89a
inventive.”). These components “simply provide[] the
environment in which the abstract idea” of call
routing “is carried out.” In re TLI Commc’ns, 823 F.3d
at 614.
The network structures recited by the claim are
similarly well-known. The claim references: “an
Internet protocol (IP) network”; an “Internet
address”; “identifiers”; a “database”; “a gateway”; and
a “routing message.” Again, not a “shred” of outside
“evidence,” Pl. Opp. at 22, is needed to demonstrate
that these are conventional aspects of IP-based
telephony. The Court has already recognized multiple
times that Plaintiff freely concedes the preexistence
of IP-based communication systems. The specification
itself reveals that each of the recited structures are
inherent in an IP-based communication system.
For example, the Patents-in-Suit did not invent
“IP networks,” which the specification defines as “the
public Internet or a private network of a large
organization.” ’002 Patent at 1:24-27. The same is true
of generic “Internet addresses” and “identifiers”—the
latter of which are ordinarily telephone numbers or
usernames. See supra Part III.B.1.a. Next, per the
Court’s earlier finding, neither the claim nor the
specification discloses the creation of the “database.”
Instead, the database is some undefined, preexisting
collection of “user profiles,” which are themselves
generic. The “gateway” is likewise undefined: it is
nothing more than a placeholder for the structure
“through which the call or audio path of the call will
be carried” from the private network to an external
network. Finally, a “routing message” is defined
tautologically as containing an “Internet address”
that “causes” the communication to be established.

90a
“Such vague, functional descriptions” of computer and
network components “are insufficient to transform
the abstract idea into a patent-eligible invention.” In
re TLI Commc’ns, 823 F.3d at 615; see also Mortg.
Grader, 811 F.3d at 1324–25 (“[T]he claims ‘add’ only
generic computer components such as an ‘interface,’
‘network,’ and ‘database.’ These generic computer
components do not satisfy the inventive concept
requirement.”).
Furthermore, none of the five steps in the
claimed method enlists the computing elements to do
anything other than operate in their expected
manner. A claim in which “the recited physical
components behave exactly as expected according to
their ordinary use” is not inventive. In re TLI
Commc’ns, 823 F.3d at 615. In buySAFE, Inc. v.
Google, Inc., 765 F.3d 1350 (Fed. Cir. 2014), for
example, the Federal Circuit gave the following
explanation for its finding that the claim’s use of
computers was not inventive:
The computer functionality is generic—
indeed, quite limited: a computer
receives a request for a guarantee and
transmits an offer of guarantee in
return. There is no further detail. That a
computer receives and sends the
information over a network—with no
further specification—is not even
arguably inventive.
Id. at 1355. Similarly, in Two-Way Media, the Federal
Circuit found no inventive concept because “[n]othing
in the claims or their constructions, including the use
of “intermediate computers,” requires anything other

91a
than conventional computer and network components
operating according to their ordinary functions.” 874
F.3d at 1339.
Here, under Representative Claim 1, the
“controller comprising at least one processor” (1)
receives the first and second participant identifiers,
(2) accesses a database “using” the first participant
identifier and locates a collection of attributes
associated with the first participant, (3) processes the
second participant identifier, (4) classifies the
communication as a “system communication” or an
“external network communication” “based on” the
new (i.e., processed) second participant identifier, and
(5) produces a routing message that causes the
communication to be established. Any generic
computer equipped with a generic processor routinely
performs the tasks of “receiving” data, “accessing” a
database, and searching the database to “locate”
certain information. A generic processor is also, of
course, capable of “processing” and “classifying”
information, particularly as the specification does not
disclose what the “processing” or “classifying” entails.
See supra Part III.B.1.a. Lastly, there is no suggestion
that “producing” a routing message requires any
special functionality. After all, the routing message
simply displays an Internet address in a format
readable by an IP-based communication system.
Hence, none of the functions recited in Representative
Claim 1 provides an inventive concept.
The Court briefly addresses Plaintiff’s
remaining argument, on which Plaintiff spends
scarcely a page in its brief. Plaintiff claims that
Defendants “stripp[ed] out elements to oversimplify
the claim,” and that Defendants “do not do justice to

92a
the full scope of the patent’s disclosure.” Pl. Opp. 22.
But Plaintiff makes no attempt to identify any
allegedly unconventional element that Defendants
allegedly “stripped out.” The only specific complaint
Plaintiff raises is that “Defendants spend no time
analyzing the detailed processes shown in Figs. 8A8D.” Id. Figures 8A to 8D depict flowcharts for
directing the controller to produce a routing message.
’002 Patent at 11:26-28; 18:24-25. Having reviewed
the flowcharts, the Court determines that they too
contain only the conventional, generic steps of
“getting” data, “storing” data, “loading” data, and
“sending” data. That the data involved are specific to
the communications context is insufficient to make
the process inventive. “Just as steps that do nothing
more than spell out what it means to ‘apply it on a
computer’ cannot confer patent-eligibility, here, steps
that generically spell out what it means to ‘apply it on
a telephone network’ also cannot confer patent
eligibility.” See In re TLI Commc’ns, 823 F.3d at 615
(internal quotation marks omitted). Although the
flowcharts may be “detailed,” Pl. Opp. 22, “the level of
detail in the specification does not transform a claim
reciting only an abstract concept into a patent-eligible
system or method,” Accenture Glob. Servs., 728 F.3d
at 1345. The Court, moreover, has analyzed every
aspect of the claim and nonetheless finds no
transformative element that supplies an inventive
concept.
b. The Ordered Combination of
Claim Elements Does Not Provide
an Inventive Concept
Lacking an inventive concept in any of the
individual elements of Representative Claim 1,

93a
Plaintiff contends the ordered combination of
elements amounts to an inventive concept. In so
doing, Plaintiff relies heavily upon BASCOM, in
which the Federal Circuit held that “an inventive
concept can be found in the non-conventional and nongeneric arrangement of known, conventional pieces.”
827 F.3d at 1350.
Even when viewed collectively, however, the
claim steps “simply instruct the practitioner to
implement the abstract idea”—i.e., routing a
communication based on characteristics of the
participants—“with routine conventional activity.”
Ultramercial, 772 F.3d at 715. Representative Claim
1 uses a conventional ordering of steps—first
receiving the identifiers, then processing them, then
using the results in some unspecified way to produce
the routing message—implemented on generic
technology. These are “the most basic of steps in data
collection, analysis, and publication and they are
recited in the ordinary order.” EasyWeb Innovations,
LLC v. Twitter, Inc., 689 F. App’x 969, 971 (Fed. Cir.
2017). Once again, the Court uses Two-Way Media as
a comparator. In Two-Way Media, the claim at issue
was directed to “transmitting message packets over a
communications network.” 874 F.3d at 1334. The
Federal Circuit found processing the data, then
routing it, controlling it, and monitoring its
reception.” 874 F.3d at 1339. Similarly, in In re
Villena, the Federal Circuit concluded that a claim
reciting the “basic steps of receiving user input,
producing property valuations, and providing display
information” did not contain an inventive concept. 745
F. App’x 374, 376 (Fed. Cir. 2018), cert. denied sub
nom. Villena v. Iancu, 139 S. Ct. 2694 (2019).

94a
Plaintiff nonetheless gives three reasons why
the ordered combination is inventive—none of which
is persuasive. First, Plaintiff reiterates that the claim
“as a whole” overcomes various “limitations” of prior
communication technology. See Pl. Opp. at 22.
Plaintiff further contends that the Court must accept
Plaintiff’s assertion that the invention’s solution to
these limitations is “unconventional,” because
whether a claim limitation is conventional is a
“factual issue.” Id. The briefing does not specify
precisely which “limitations” the claimed method
overcomes. Construing Plaintiff’s briefing liberally,
however, the Court takes the argument to be a
reference to the four improvements of (1) “userspecific handling,” (2) “transparent routing,” (3)
“resiliency,” and (4) “communication blocking.”
However, the Court has considered, and rejected,
these improvements in connection with its analysis of
the first step of the Alice framework. See supra
Section III.A.1.c. As discussed at length above, the
claims do not provide any specific method of
implementation or otherwise explain how to achieve
any of the four improvements. Hence, these
improvements cannot provide an inventive concept
because they “simply restate[] what we have already
determined is an abstract idea.” BSG Tech LLC, 899
F.3d at 1290. As the Federal Circuit has emphasized,
“a claimed invention’s use of the ineligible concept to
which it is directed cannot supply the inventive
concept that renders the invention ‘significantly more’
than that ineligible concept.” Id. at 1291.
Second, Plaintiff contends that Representative
Claim 1 is inventive because it recites “[u]ser-specific
customization of network functionality”—that is,
“applying criteria from a caller’s profile settings, to

95a
make a caller-specific determination as to whether an
initiated communication is destined for a first
network, a second external network, or is invalid
according to this caller’s profile settings”—is
inventive. Pl. Opp. at 23. This, however, is the same
thing as “user-specific handling,” which the Court has
just rejected as an inventive concept. The Court
dismisses Plaintiff’s attempt to costume this
argument in new garb.
Last, Plaintiff contends that “[t]he claims solve
problems necessarily rooted in network technology
and so are eligible for the same reasons that the
claims in DDR Holdings were found eligible by the
Federal Circuit.” Pl. Opp. at 24 (emphasis in original)
(citing DDR Holdings, 773 F.3d at 1245, 1257). It is
true that DDR Holdings involved claims that address
“a challenge particular to the Internet,” that is,
“retaining website visitors.” 773 F.3d at 1256.
However, the DDR Holdings court did not hold that
claims that “solve problems necessarily rooted in
network technology” are per se patent-eligible. On the
contrary, the Federal Circuit “caution[ed]” “that not
all claims purporting to address Internet-centric
challenges are eligible for patent.” Id. at 1258. As the
Federal Circuit explained, the claims in DDR
Holdings “stand apart” from many other computerimplemented claims “because they do not merely
recite the performance of some business practice
known from the pre-Internet world along with the
requirement to perform it on the Internet.” Id. at
1257. In this critical respect, the instant case is
wholly unlike DDR Holdings. Here we have a claim
that, as just discussed, does “merely recite the
performance” of a practice “known from the preInternet world”—viz., call routing—along with the

96a
generic computer components necessary to perform it
on an Internet-based communication system. Those
computer components carry out routine steps using
generic elements (e.g., identifiers, user profiles,
databases) that the patent does not invent. Having
failed to specifically rebut these findings, Plaintiff’s
cursory appeal to DDR Holdings has no merit.
Accordingly, the ordered combination of the
elements in Representative Claim 1 does not supply
an inventive concept.
c. Preemption
Plaintiff’s final argument under Alice Step Two
is that “the claims do not preempt an abstract idea
because they recite a particular method of evaluating
a callee identifier to determine and route to the
intended destination, as between two networks.
Other routing methods are available to all.” Pl. Opp.
at 23.
The Federal Circuit has “previously considered
preemption in both steps one and two of the Alice
test.” Intellectual Ventures I LLC v. Erie Indem. Co.,
711 F. App’x 1012, 1019 (Fed. Cir. 2017). It is also true
that courts have sometimes discussed the Step Two
analysis in terms of preemption. See, e.g., DDR
Holdings, 773 F.3d at 1259 (finding the patent valid
only after finding that “the claims at issue do not
attempt to preempt every application of the idea”
embodied in the patent). Nevertheless, Plaintiff’s
argument “misunderstands the step two inquiry.”
BSG Tech LLC, 899 F.3d at 1291. The Federal Circuit
has made clear that claims are not patent eligible
merely because they do not preempt an entire field.
FairWarning, 839 F.3d at 1098 (“[W]hile preemption

97a
may signal patent ineligible subject matter, the
absence of complete preemption does not demonstrate
patent eligibility.”); see also OIP Techs., Inc. v.
Amazon.com, Inc., 788 F.3d 1359, 1362–63 (Fed. Cir.
2015) (“And that the claims do not preempt all price
optimization or may be limited to price optimization
in the e-commerce setting do not make them any less
abstract.). In other words, a claim is not excused from
the need to make an inventive contribution on top of
the underlying abstract idea simply because its
application of the abstract idea is narrow. Hence,
where a court has deemed a claim to disclose only
patent-ineligible subject matter under the Alice
framework—as the Court has in the instant case—
“preemption concerns are fully addressed and made
moot.” Ariosa Diagnostics, Inc. v. Sequenom, Inc., 788
F.3d 1371, 1379 (Fed. Cir. 2015) (alterations in
original). Consequently, Plaintiff’s perfunctory
preemption argument is unavailing.
d. Summary
Thus, having determined that Representative
Claim 1 is directed to the abstract idea of routing a
communication based on characteristics of the
participants, the Court now concludes that none of the
elements of the claim—either in isolation or
combination—amounts to an inventive concept.
Therefore, because it is drawn to no more than an
abstract idea, Representative Claim 1 fails to meet
the standard for patent eligibility under § 101.
2. The Remaining Representative Claims
Do Not Recite an Inventive Concept
Turning to the remaining representative
claims, the Court considers whether those claims’

98a
additional limitations contain an inventive concept,
even though Representative Claim 1 did not. The
Court finds no such inventive concept in
Representative Claim 9, 26, or 21.
To briefly summarize the Court’s Step One
analysis, the Court found that, like Representative
Claim 1, Representative Claim 9 is directed to the
abstract idea of routing a communication based on
characteristics of the participants. The Court then
found that Representative Claim 26 is directed to the
abstract idea of routing a communication based on
characteristics of the participants, where routing may
include blocking the communication. Last, the Court
found that Representative Claim 21 is directed to the
abstract idea of routing a communication based on
characteristics of the participants, where routing
may include preventing a communication from
being established. At Alice Step Two, “the relevant
inquiry is not whether the claimed invention as
a whole is unconventional or non-routine.” BSG
Tech LLC, 899 F.3d at 1290. Rather, the Court
assesses only “whether the claim limitations other
than the invention’s use of the ineligible concept
to which it was directed” are inventive. Id.
Here, Representative Claim 9 has the additional
limitation that the communication is classified as a
“system communication” or an “external network
communication” based upon whether a profile
associated with the new second participant identifier
exists in a database; Representative Claim 26 has
the additional element that the communication is
“blocked” under certain circumstances; and
Representative Claim 21 has the additional limitation
that an “error message” is triggered under certain
circumstances. The Court now considers whether

99a
these additional elements—either individually or in
combination with the basic method recited by
Representative Claim 1—transform the asserted
claims into patentable inventions.
The answer is no. There is nothing in the three
representative claims beyond purely functional
language describing the abstract result, viz.,
“classifying” the communication, “blocking” the
communication, and producing an “error message.”
The “claim language does not explain what is
inventive about the . . . feature or explain how it is
accomplished.” Move, Inc. v. Real Estate All. Ltd., 721
F. App’x 950, 957 (Fed. Cir.), cert. denied, 139 S. Ct.
457 (2018). Nor is there any indication in the claims
or the specification that the additional limitations
require anything other than conventional computer
equipment, performing their ordinary functions. See
Reese v. Sprint Nextel Corp., 774 F. App’x 656, 661
(Fed. Cir. 2019) (“Nothing in the claims requires
anything other than conventional telephone network
equipment to perform the generic functions of
receiving and sending information.”). On the
contrary, the claims disclose that the additional
limitations are performed by the same generic
“controller” that carries out the method disclosed by
Representative Claim 1, which the Court previously
determined not to be inventive.
Moreover, Plaintiff has not separately
identified an inventive concept in Representative
Claims 9, 21, or 26. The Court therefore need not
labor any further to find one. See BSG Tech LLC,
899 F.3d at 1291 (“BSG Tech does not argue that
other, non-abstract features of the claimed
inventions, alone or in combination, are not well-

100a
understood, routine and conventional database
structures and activities.”); Shakur v. Schriro, 514
F.3d 878, 892 (9th Cir. 2008) (litigants waive
arguments by failing to raise them in an opposition to
a motion to dismiss).
Accordingly, Representative Claims 9, 21, or 26
do not recite patent-eligible subject matter under
§ 101.
D. Defendants’ Consolidated Motion to
Dismiss is Not Premature
Plaintiff argues in the alternative that
Defendant’s motion is premature because, if provided
the opportunity to engage in discovery, Plaintiff
would prove “that the recited invention provides
specific technological improvements.” Id. at 25. The
Court rejects this argument. The ultimate question
whether a claim recites patent-eligible subject matter
under § 101 is a question of law. Capital One Fin.
Corp., 850 F.3d at 1338. It is true that, under the
Federal Circuit’s recent case law, “whether a claim
limitation or combination of limitations is wellunderstood, routine, and conventional is a factual
question.” BSG Tech LLC, 899 F.3d at 1290. However,
factual evidence is only relevant if “the only issue” is
“whether claim limitations are well-understood,
routine, and conventional.” Id. If, however, “the
evidence that aspects of the invention are not wellunderstood, routine, and conventional does not
pertain to the invention as claimed, it will not create
a factual dispute as to these claims.” Aatrix Software,
Inc. v. Green Shades Software, Inc., 890 F.3d 1354,
1357 (Fed. Cir. 2018) (concurring in the denial of
rehearing en banc).

101a
In the instant case, the Court accepted as true
Plaintiff’s allegations that (1) user-specific handling,
(2) transparent routing, (3) resiliency, and (4)
communication blocking are significant and
unconventional improvements upon prior technology.
The Court nevertheless rejected these improvements
on the ground that the Patents-in-Suit did not
disclose how to achieve them. To reiterate, the Alice
inquiry “must turn to any requirements for how the
desired result is achieved.” Two-Way Media, 874 F.3d
at 1339 (rejecting Two-Way Media’s assertion that
“the claim solves various technical problems,
including excessive loads on a source server, network
congestion, unwelcome variations in delivery times,
scalability of networks, and lack of precise
recordkeeping”) (emphasis in original). Because
neither the claims nor the specification provided the
critical “how,” the improvements are not attributable
to the invention as claimed. See, e.g., Accenture Global
Servs., 728 F.3d at 1345 (“[T]he important inquiry for
a § 101 analysis is to look to the claims.”). At bottom,
then, the validity of the Patents-in-Suit does not turn
on the factual issue of whether the alleged
improvements are “well-understood, routine, and
conventional.” See Berkheimer v. HP Inc., 881 F.3d
1360, 1368 (Fed. Cir. 2018) (“As our cases
demonstrate, not every § 101 determination contains
genuine disputes over the underlying facts material
to the § 101 inquiry.”). As a consequence, Plaintiff’s
“proffer of evidence” is orthogonal to the Alice inquiry
and Defendants’ motion is not premature.
IV.

CONCLUSION

For the foregoing reasons, the Court finds that
all of the asserted claims are invalid for failure to

102a
state patentable subject matter under § 101. The
Court therefore GRANTS Defendants’ consolidated
motion to dismiss with prejudice.
IT IS SO ORDERED.
Dated: November 1, 2019
/s/
LUCY H. KOH
United States District Judge

103a
[ENTERED: November 1, 2019]
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
SAN JOSE DIVISION
VOIP-PAL.COM, INC.,
Plaintiff,

Case No.
18-CV-06216-LHK

v.

JUDGMENT

APPLE, INC.,
Defendant.

On November 1, 2019, the Court dismissed the
case with prejudice. ECF No. 114. Accordingly, the
Clerk shall enter judgment in favor of Defendant. The
Clerk shall close the file.
IT IS SO ORDERED.
Dated: November 1, 2019
/s/
LUCY H. KOH
United States District Judge

104a
[ENTERED: November 1, 2019]
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
SAN JOSE DIVISION
VOIP-PAL.COM, INC.,
Plaintiff,

Case No.
18-CV-07020-LHK

v.
AMAZON.COM, INC,
and AMAZON
TECHNOLOGIES, INC.

JUDGMENT

Defendant.
On November 1, 2019, the Court dismissed the
case with prejudice. ECF No. 84. Accordingly, the
Clerk shall enter judgment in favor of Defendants.
The Clerk shall close the file.
IT IS SO ORDERED.
Dated: November 1, 2019
/s/
LUCY H. KOH
United States District Judge

105a
[ENTERED: January 26, 2021]
NOTE: This order is nonprecedential.
United States Court of Appeals
for the Federal Circuit
VOIP-PAL.COM, INC.,
Plaintiff-Appellant
v.
APPLE, INC.,
Defendant-Appellee
2020-1241
Appeal from the United States District Court
for the Northern District of California in No. 5:18-cv06216-LHK, Judge Lucy H. Koh.
---------------------------------------VOIP-PAL.COM, INC.,
Plaintiff-Appellant
v.
AMAZON.COM, INC., AMAZON
TECHNOLOGIES, INC.,
Defendants-Appellees
2020-1244

106a
Appeal from the United States District Court
for the Northern District of California in No. 5:18-cv07020-LHK, Judge Lucy H. Koh.
ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC
Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, REYNA, WALLACH, TARANTO, CHEN, HUGHES,
and STOLL, Circuit Judges.*
PER CURIAM.
ORDER
Appellant VoIP-Pal.com, Inc. filed a combined
petition for panel rehearing and rehearing en banc.
The petition was referred to the panel that heard the
appeal, and there-after the petition for rehearing en
banc was referred to the circuit judges who are in
regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for en banc rehearing is denied.
The mandate of the court will issue on
February 2, 2021.

*

Circuit Judge O’Malley did not participate.

107a
FOR THE COURT
January 26, 2021
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

